No. 20-443

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

JOINT APPENDIX
(VOLUME 1)
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

GINGER D. ANDERS
Munger, Tolles & Olson LLP
601 Massachusetts Ave., N.W.
Washington, D.C. 20001
Suite 500
ginger.anders@mto.com
(202) 220-1107
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: NOV. 5, 2020
CERTIORARI GRANTED: MAR. 22, 2021

TABLE OF CONTENTS

Page
Volume 1
Court of appeals docket entries (16-6001) ............................ 1
District court docket entries (1:13-cr-10200-GAO-1) .......... 18
Photos of 2013 Boston Marathon finish-line area .............. 97
Tsarnaev’s computer records ............................................... 99
al Qaeda magazine accessed by Tsarnaev ......................... 104
Additional Tsarnaev computer records ............................. 110
Tsarnaev’s pre-bombing text messages ............................ 113
Tsarnaev’s pre-bombing tweets ......................................... 121
Photo of Tsarnaev taking bombing position ..................... 124
Photos of bombing aftermath ............................................ 125
Photos of shrapnel fragments from Martin Richard
autopsy ............................................................................ 139
Tsarnaev’s post-bombing tweets ....................................... 143
Tsarnaev’s post-bombing text messages .......................... 146
Photos of Tsarnaev engaging law-enforcement
officers in Watertown and driving SUV
toward them .................................................................... 147
Photo of boat ....................................................................... 150
Photo of Tsarnaev’s boat carving ...................................... 151
Photos of Tsarnaev’s boat message ................................... 152
Jury trial—day thirty (Mar. 10, 2015) ............................... 155
Jury trial—day twenty-seven (Mar. 4, 2015) .................... 160
Jury trial—day forty-three (Apr. 6, 2015) ........................ 198
Jury trial—day one—a.m. session (Jan. 5, 2015) ............. 276
Jury trial—day five (Jan. 16, 2015) ................................... 284
Jury trial—day seven (Jan. 21, 2015) ................................ 304
Jury trial—day nine (Jan. 23, 2015) .................................. 334
Jury trial—day eleven (Jan. 29, 2015) ............................... 354

(I)

II
Table of Contents—Continued:

Page

Jury trial—day thirteen (Feb, 4, 2015) ............................. 380
Jury trial—day fifteen (Feb. 6, 2015) ................................ 395
Jury trial—day sixteen (Feb. 11, 2015) ............................. 416
Jury trial—day eighteen (Feb. 13, 2015) .......................... 431
Volume 2
Jury trial—day nineteen (Feb. 17, 2015) .......................... 443
Parties’ agreed-upon preliminary jury instructions
(Dec. 1, 2014) ................................................................... 472
Joint sealed motion for leave to file document under
seal (Dec. 2, 2014) ........................................................... 474
Lobby conference (Dec. 30, 2014) ...................................... 478
Lobby conference (Jan. 2, 2015) ........................................ 484
Tsarnaev’s requested voir dire questions (general)
(Jan. 13, 2015) ................................................................. 489
Jury trial—day four (Jan. 15, 2015) .................................. 490
Jury trial—day five (Jan. 16, 2015) ................................... 495
Jury trial—day seven (Jan. 21, 2015) ................................ 499
Jury trial—day six (Jan. 20, 2015) ..................................... 504
Jury trial—day eight (Jan. 22, 2015) ................................. 509
Jury trial—day nine (Jan. 23, 2015) .................................. 513
Jury trial—day ten (Jan. 26, 2015) .................................... 516
Jury trial—day eleven (Jan. 29, 2015) ............................... 521
Jury trial—day fifteen (Feb. 6, 2015) ................................ 527
Jury trial—day sixteen (Feb. 11, 2015) ............................. 531
Status conference and motion hearing
(Nov. 12, 2013) ................................................................ 535
Status conference (Nov. 12, 2014) ..................................... 551
Status conference (Apr. 9, 2015) ........................................ 555
Tsarnaev’s motion to compel discovery (Oct. 7, 2013) ..... 560
Government’s opposition to defendant’s motion to
compel discovery (Oct. 21, 2013) ................................... 563

III
Table of Contents—Continued:

Page

Tsarnaev’s further motion to compel discovery of
favorable evidence (Mar. 28, 2014) ................................. 566
Supplemental memorandum respecting Tsarnaev’s
second motion to compel discovery of favorable
evidence (Todashev statements concerning
Waltham murders) (June 13, 2014) ............................... 569
Florida State Attorney’s Office report on AgentInvolved Shooting of Ibragim Todashev
(Mar. 17, 2014) ................................................................ 575
Tsarnaev’s motion to compel discovery
(Oct. 10, 2014) ................................................................. 580
Letter from U.S. Attorney Carmen M. Ortiz to
Tsarnaev’s defense counsel (Aug. 15, 2014) .................. 583
Government’s opposition to Tsarnaev’s fourth
motion to compel (Oct. 24, 2014) ................................... 586
Supplemental memorandum in opposition to
government’s motion in limine to preclude any
reference to Waltham triple homicide or other
alleged bad acts of Tamerlan Tsarnaev
(Apr. 24, 2015) ................................................................. 589
Penalty phase verdict (May 15, 2015) ............................... 592
Motion hearing (Apr. 16, 2014) .......................................... 624
Status conference (Aug. 14, 2014) ..................................... 630
Sealed motion hearing (Apr. 13, 2015) .............................. 632
Sealed lobby conference (Apr. 7, 2015) ............................. 649
District court order (Nov. 27, 2013) .................................. 652
District court order (Apr. 17, 2014) ................................... 655
District court opinion and order (Nov. 25, 2014) .............. 656
Reply to government’s opposition to motion to compel
discovery (Nov. 7, 2013) ................................................. 660
Government’s opposition to Tsarnaev’s motions to
compel (Apr. 11, 2014) ..................................................... 662

IV
Table of Contents—Continued:

Page

Tsarnaev’s reply to government’s opposition to
motion to compel discovery (Nov. 4, 2014) .................... 665
Opposition to government’s motion in limine to
preclude any reference to Waltham triple homicide
or other alleged bad acts of Tamerlan Tsarnaev
(Apr. 14, 2014) .................................................................. 667
Photo of Tsarnaev showing middle finger to
camera while in federal-court holding cell ................... 672
Jury trial—day thirty-four (Mar. 17, 2015) ...................... 673
Jury trial—day fifty (Apr. 27, 2015) .................................. 680
Jury trial—day fifty-one (Apr. 28, 2015) ........................... 683
Jury trial—day fifty-two (Apr. 29, 2015) .......................... 688
Jury trial—day fifty-four (May 4, 2015) ........................... 691
Jury trial—day thirty-one (Mar. 11, 2015) ....................... 695
Jury trial—day thirty-four (Mar. 17, 2015) ...................... 700
Jury trial—day thirty-eight (Mar. 24, 2015) ..................... 709
Jury trial—day thirty-nine (Mar 25, 2015) ....................... 721
Jury trial—day forty-seven (Apr. 21, 2015) ...................... 725
Jury trial—day fifty (Apr. 27, 2015) .................................. 741
Jury trial—day fifty-one (Apr. 28, 2015) ........................... 776
Jury trial—day fifty-five (May 5, 2015) ............................ 786
Jury trial—day fifty-nine (May 13, 2015) ......................... 794
Jury trial—day forty-seven (Apr. 21, 2015) ...................... 882
Jury trial—day forty-eight (Apr. 22, 2015) ....................... 886
Map showing relative location of homes of Dzhokhar
and Tamerlan Tsarnaev ................................................... 889
Volume 3 - Under Seal
Bomb making instructions from Tsarnaev’s al Qaeda
magazine.......................................................................... 890
FBI 302 report on Ibragim Todashev interview
(May 21, 2013) ........................................................................ 900

V
Table of Contents—Continued:

Page

Transcript of recording of Ibragim Todashev interview
(May 21, 2013) ........................................................................ 919
FBI 302 report on Dylan Mess interview (Nov. 5, 2013) ...... 968
Tsarnaev’s ex parte motion for orders to produce for
in camera review material regarding Tamerlan
Tsarnaev’s involvement in 2011 Waltham murders
(Apr. 22, 2015) .................................................................. 970
Government’s motion in limine to preclude any
reference to Waltham triple homicide or other
alleged bad acts of Tamerlan Tsarnaev
(Dec. 30, 2014) .................................................................. 974
Excerpt of D. Ct. Doc. 112, Ex. A (Government’s
Sept. 30, 2013 response to Tsarnaev’s letter of
Sept. 23, 2013 requesting additional discovery) .......... 980
Application for a search warrant, including
Affidavit of FBI Special Agent Steven Kimball
(June 3, 2013) .................................................................. 983
Seizure and Search Warrant (June 3, 2013) ................... 1007
Ex parte conference (July 3, 2014) .................................. 1012
Lobby conference (Mar. 31, 2015) ................................... 1025

UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

Docket No. 16-6001
UNITED STATES OF AMERICA, APPELLEE
v.
DZHOKHAR A. TSARNAEV, A/K/A JAHAR TSARNI
(FEDERAL PRISONER: 95079-038),
DEFENDANT-APPELLANT
DOCKET ENTRIES
DATE

PROCEEDINGS

2/16/16

CRIMINAL CASE docketed. Notice of
appeal (doc. #1628) filed by Appellant
Dzhokhar Tsarnaev.
Docketing Statement, Transcript Report/Order form, and
Appearance form due 03/01/2016. [16-6001]
(TS) [Entered: 02/16/2016 12:20 PM]

4/7/17

4/27/17

* * * * *
MOTION to supplement the record on appeal filed by Appellant Dzhokhar A. Tsarnaev. [16-6001] (DP) [Entered: 04/07/2017
04:43 PM]
* * * * *
RESPONSE filed by Appellee US to motion
to supplement record on appeal [6082576-2].
Certificate of service dated 04/27/2017.

(1)

2
DATE

PROCEEDINGS

[16-6001] (WAG) [Entered:
08:51 AM]
5/4/17

8/11/17

04/27/2017

* * * * *
REPLY filed by Appellant Dzhokhar A.
Tsarnaev to response [6087064-2]. Certificate of service dated 05/04/2017. [16-6001]
(DP) [Entered: 05/04/2017 02:23 PM]
* * * * *
ORDER entered by Juan R. Torruella, Appellate Judge: This matter is before the
court on Appellant Tsarnaev’s Motion to
Disclose on Appeal Government Ex Parte
Filings and Proceedings in the District
Court. The motion is denied without prejudice. Tsarnaev can re-raise this issue
once the appeal is fully briefed. The government’s Motion for Leave to File a Sealed
Attachment to Its Opposition to Appellant’s
Motion is allowed. Appellant’s brief shall
be filed within twelve months from August
18, 2017 and the government’s brief within
six months after the filing of the appellant’s
brief. The reply brief shall be filed within
sixty days after the filing of the government’s brief. [16-6001] (MNH) [Entered:
08/11/2017 02:50 PM]
*

*

*

*

*

3
DATE

PROCEEDINGS

7/3/18

PLEADING tendered: Motion to Disclose
to Appellate Counsel Reports and Recordings of Interviews of Ibragim Todashev Reviewed by the District Court In Camera and
Ex Parte provisionally filed under seal filed
by Appellant Dzhokhar A. Tsarnaev. Certificate of service dated 06/29/2018. [166001]. (TS) [Entered: 07/03/2018 12:12
PM]

7/11/18

7/17/18

7/25/18

* * * * *
PLEADING tendered: Government’s Response in Opposition to [6181362-2] provisionally filed under seal. filed by Appellee
US. Certificate of service dated 07/11/2018.
[16-6001] (TS) [Entered: 07/11/2018 03:40
PM]
* * * * *
PLEADING tendered: Appellant’s Reply
to Government’s Response in Opposition
[6183078-2] provisionally filed under seal
filed by Appellant Dzhokhar A. Tsarnaev.
Certificate of service dated 07/17/2018.
[16-6001] (TS) [Entered: 07/17/2018 01:48
PM]
* * * * *
SEALED MOTION to Disclose to Appellate Counsel Reports and Recordings of Interviews of Ibragim Todashev Reviewed by
the District Court In Camera and Ex Parte

4
DATE

7/25/18

7/25/18

10/3/18

PROCEEDINGS

filed by Appellant Dzhokhar A. Tsarnaev.
Certificate of service dated 06/29/2018.
[16-6001] (TS) [Entered: 07/25/2018 10:11
AM]
SEALED RESPONSE filed by Appellee
US to Motion to Disclose to Appellate Counsel Reports and Recordings of Interviews of
Ibragim Todashev Reviewed by the District
Court In Camera and Ex Parte [6186007-2].
Certificate of service dated 07/11/2018.
[16-6001] (TS) [Entered: 07/25/2018 10:13
AM]
* * * * *
SEALED REPLY filed by Appellant Dzhokhar A. Tsarnaev to response [6186008-2].
Certificate of service dated 07/17/2018.
[16-6001] (TS) [Entered: 07/25/2018 10:16
AM]
* * * * *
ORDER entered by Juan R. Torruella, Appellate Judge: This matter is before the
court on defendant’s motion for disclosure
to his appellate counsel of certain material
submitted by the United States to the district court in camera and ex parte. The
motion is resolved as follows: Those appellate attorneys who have filed a notice of appearance in this appeal and who maintain an
active top secret security clearance (“Au-

5
DATE

PROCEEDINGS

thorized Counsel”) will be permitted to review the material (contained on a copy of the
disk originally submitted to the district
court under docket entry 266) at the John J.
Moakley Courthouse (the “Courthouse”) on
the following dates and at the following
times: October 15, 16, and 17, 18, and 19,
2018, between the hours of 9:00 a.m. and 4:00
p.m.
The United States is hereby in-

structed forthwith to confirm in writing to
this court the date of the video/audio recording submitted on disk to the district court
under docket entry 266 and whether the
cover letter accompanying the disk lists an
incorrect date. One week prior to October
15, 2018, appellate counsel shall submit via a
sealed letter to the Clerk the names of those
attorneys who intend to review the material
and verify that those attorneys hold active
top secret security clearances. Authorized
Counsel’s review of the material shall not
delay the appeal. [16-6001] (TS) [Entered:
10/03/2018 04:59 PM]
* * * * *
10/25/18 ORDER entered by Juan R. Torruella, Appellate Judge: Defendant’s Motion to Seal
and Limit Access to Authorized Counsel’s
Unopposed Motion for Modification to Protective Order is resolved as follows: the
Motion to Seal is accepted for filing under
seal.
Authorized Counsel’s Unopposed

6
DATE

PROCEEDINGS

Motion for Modification to Protective Order
is resolved as follows: paragraph (5) of the
Court’s October 3, 2018 Order is modified as
follows: “(5) Only Authorized Counsel and
Learned Counsel (Clifford Gardner and Gail
K. Johnson) shall be privy to the content of
the material and shall not share it with defendant or any other members of the defense team[.]” [16-6001] (MNH) [Entered:
10/25/2018 08:57 AM]
* * * * *
12/31/18 OVERSIZED ADDENDUM filed by Appellant Dzhokhar A. Tsarnaev. Number of
volumes:
1.
Number of copies:
10.
Electronic Material:
10 USB drives.
Certificate of service dated 12/27/2018.
[16-6001]. (JMK) [Entered: 08/28/2019
01:51 PM]
1/4/19

1/7/19

* * * * *
APPENDIX filed by Appellant Dzhokhar A.
Tsarnaev.
Number of volumes:
26.
Number of copies: 5. Certificate of service dated 12/27/2018. [16-6001] (TS) [Entered: 01/04/2019 08:17 AM]
* * * * *
SEALED APPENDIX filed by Appellant
Dzhokhar A. Tsarnaev. Number of volumes: 1. Number of copies: 5. Certifi-

7
DATE

PROCEEDINGS

cate of service dated 12/27/2018. [16-6001]
(TS) [Entered: 01/07/2019 03:36 PM]
1/7/19

1/7/19

4/25/19

4/30/19

* * * * *
SEALED APPELLANT’S BRIEF filed by
Appellant Dzhokhar A. Tsarnaev. Certificate of service dated 12/27/2018.. [16-6001]
(TS) [Entered: 01/07/2019 03:47 PM]
PARTIALLY
REDACTED
APPELLANT’S BRIEF filed by Appellant Dzhokhar A. Tsarnaev. Certificate of service
dated 12/27/2018. Nine paper copies identical to that of the electronically filed brief
must be submitted so that they are received
by the court on or before 01/14/2019. Brief
due 06/27/2019 for APPELLEE United States.
[16-6001].
(TS) [Entered:
01/07/2019
04:04 PM]
* * * * *
PLEADING tendered: Authorized Counsel’s Motion For Partial Reconsideration of
Disclosure of Government Ex Parte Transcripts Concerning “Discovery Matters”
provisionally filed under seal filed by Appellant Dzhokhar A. Tsarnaev. [16-6001] (TS)
[Entered: 04/25/2019 02:19 PM]
* * * * *
PLEADING tendered: Government’s Opposition to Authorized Counsel’s Motion for
Leave to File a Supplmental Opening Brief

8
DATE

PROCEEDINGS
provisionally filed under seal filed by Appel-

lee US. [16-6001] (TS) [Entered: 04/30/2019
12:03 PM]
5/6/19

5/21/19

* * * * *
PLEADING tendered: Authorized Counsel’s Reply to Government’s Opposition to
File a Supplemental Opening Brief and Reply in Support of Motion for Leave to File a
Supplemental Opening Brief provisionally
filed under seal filed by Appellant Dzhokhar
A. Tsarnaev.
[16-6001] (TS) [Entered:
05/06/2019 02:13 PM]
* * * * *
ORDER entered by Juan R. Torruella, Appellate Judge; Rogeriee Thompson, Appellate Judge and William J. Kayatta, Jr., Appellate Judge:
Defendant’s Motion for
Leave to File a Supplemental Opening Brief
is allowed. The supplemental brief shall be
limited to 10 pages and shall be filed within
14 days following the issuance of this order.
Defendant’s Motion for Partial Reconsideration of Disclosure of Government Ex Parte
Transcripts Concerning Discovery Matters
is denied without prejudice to defendant reraising the issue, if necessary, within 30
days after the appeal is fully briefed.
[16-6001] (KPC) [Entered:
05/21/2019
11:36 AM]

9
DATE

5/29/19

5/31/19

6/5/19

PROCEEDINGS

* * * * *
PLEADING tendered: Authorized Counsel’s Motion to Disclose on Appeal Recordings of Ibragim Todashev’s Final Interview
with Law Enforcement provisionally filed
under seal filed by Appellant Dzhokhar A.
Tsarnaev.
Certificate of service dated
05/24/2019. [16-6001]. CLERK’S NOTE:
Docket entry was edited to modify the docket
text. (TS) [Entered: 05/29/2019 12:37 PM]
* * * * *
PLEADING tendered: Government’s Opposition to Authorized Counsel’s Motion to
Disclose on Appeal Recordings of Ibragim
Todashev’s Final Interview with Law Enforcement provisionally filed under seal filed
by Appellee US. [16-6001] (TS) [Entered:
05/31/2019 02:52 PM]
* * * * *
PLEADING tendered: Provisionally filed
under seal Authorized Counsel’s Reply in
Support of Motion to Disclose on Appeal Recordings of Ibragim Todahsev’s Final Interview with Law Enforcement filed by Appellant Dzhokhar A. Tsarnaev. [16-6001] (TS)
[Entered: 06/05/2019 12:01 PM]
*

*

*

*

*

10
DATE

PROCEEDINGS

6/13/19

SEALED OPENING SUPPLEMENTAL
BRIEF RESTRICTED TO AUTHORIZED COUNSEL filed by Appellant Dzhokhar A. Tsarnaev. Number of copies: 9
and 2 disks. Certificate of service dated
06/02/2019.
[16-6001] (TS) [Entered:
06/13/2019 12:10 PM]

6/27/19

6/28/19

* * * * *
APPELLEE’S REDACTED BRIEF filed
by Appellee US.
Certificate of service
dated 06/27/2019. Nine paper copies identical to that of the electronically filed brief
must be submitted so that they are received
by the court on or before 07/05/2019. [166001]. CLERK’S NOTE: Docket entry
was edited to modify the docket text. [166001]. (LIM) [Entered: 06/27/2019 04:11
PM]
* * * * *
APPELLEE’S SEALED BRIEF filed by
Appellee US. Number of copies: 2. Certificate of service dated 06/27/2019. Seven
paper copies identical to that of the brief
filed must be submitted so that they are received by the court on or before 07/05/2019.
Reply brief due 08/26/2019 for APPELLANT Dzhokhar A. Tsarnaev. [16-6001].
CLERK’S NOTE: Docket entry was edited to modify the docket text. [16-6001]
(LIM) [Entered: 06/28/2019 03:05 PM]

11
DATE

PROCEEDINGS

6/28/19

SUPPLEMENTAL APPENDIX filed by
Appellee US. Number of volumes: 1.
Number of copies: 5. Electronic Exhibit:
6 USB Drives. Certificate of service dated
06/27/2019.
[16-6001] (LIM) [Entered:
06/28/2019 03:19 PM]

7/24/19

7/31/19

* * * * *
SECOND SUPPLEMENTAL BRIEF filed
by Appellant Dzhokhar A. Tsarnaev. Certificate of service dated 07/14/2019. Nine
paper copies identical to that of the electronically filed brief must be submitted so
that they are received by the court on or before 07/31/2019. [16-6001] (TS) [Entered:
07/24/2019 10:14 AM]
* * * * *
ORDER entered by Juan R. Torruella, Appellate Judge: Authorized Counsel’s Motion
to Disclose on Appeal Recordings of Ibragim Todashev’s Final Interview with Law
Enforcement (the “Recordings”) is granted
as follows. The government shall produce
a single copy of the Recordings to defendant’s Authorized Counsel within three business days following the issuance of this order.
Authorized Counsel shall treat the Recordings as sealed and shall not make copies.
Only Authorized Counsel and Learned
Counsel (Clifford Gardner and Gail K. John-

12
DATE

PROCEEDINGS

son) shall be privy to the content of the Recordings and shall not share it with defendant or any other members of the defense
team. Authorized Counsel shall file any
supplemental brief relating to the Recordings under seal within ten calendar days after Authorized Counsel’s receipt of the Recordings. The government shall file any

responsive supplemental brief under seal
within ten calendar days after Authorized
Counsel files the supplemental brief. Any
reply brief shall be filed under seal within
three calendar days after the government
files its responsive supplemental brief. The

government shall file, on one or more electronic discs, a copy of the Recordings with
this court under seal at the same time as the
Recordings are produced to defendant’s Authorized Counsel. The court must be provided with six copies of the disc(s) which
should not be password protected. No extensions will be granted.
Authorized
Counsel shall return their copy of the Recordings to the government at the time they file
the reply.
[16-6001] (TS) [Entered:

07/31/2019 04:18 PM]
8/6/19

* * * * *
SEALED SUPPLEMENTAL APPENDIX
filed by Appellee US. Number of volumes:
Vol. 2 (sealed). Number of copies: 5.

13
DATE

8/16/19

8/26/19

8/30/19

9/25/19

PROCEEDINGS

[16-6001] (TS) [Entered: 08/06/2019 01:50
PM]
SEALED THIRD SUPPLEMENTAL
BRIEF filed by Appellant Dzhokhar A.
Tsarnaev. Number of copies: 9. Certificate of service dated 08/15/2019. [16-6001]
(LIM) [Entered: 08/16/2019 10:49 AM]
* * * * *
SEALED SUPPLEMENTAL BRIEF filed
by Appellee US. Number of copies: 9.
Certificate of service dated 08/26/2019..
[16-6001] (TS) [Entered: 08/26/2019 12:41
PM]
* * * * *
SECOND SUPPLEMENTAL BRIEF filed
by Appellee US.
Certificate of service
dated 08/30/2019. Nine paper copies identical to that of the electronically filed brief
must be submitted so that they are received
by the court on or before 09/03/2019. [166001] (DK) [Entered:
08/30/2019 02:43
PM]
* * * * *
ORDER entered by Juan R. Torruella, Appellate Judge: Authorized Counsel’s Unopposed Motion for Second Modification to
Protective Order is resolved as follows:
paragraph (5) of the Court’s October 3, 2018
Order, as modified by the Court’s October

14
DATE

PROCEEDINGS

25, 2018, Order is further modified as follows:
“(5) Only Authorized Counsel,
Learned Counsel (Clifford Gardner and Gail
K. Johnson), and Mia Eisner-Grynberg and
Daniel Habib of the Federal Defenders-NY
shall be privy to the content of the material
and shall not share it with defendant or
other members of the defense team, if
any[.]”
[16-6001] (TS) [Entered:
09/25/2019 02:09 PM]
* * * * *
10/18/19 REPLY BRIEF filed under seal by Appellant Dzhokhar A. Tsarnaev. Number of
copies: 9. Certificate of service dated
10/10/2019..
[16-6001] (DPO) [Entered:
10/18/2019 10:00 AM]
10/18/19 REDACTED REPLY BRIEF filed by Appellant Dzhokhar A. Tsarnaev. Certificate
of service dated 10/10/2019.
[16-6001]
(DPO) [Entered: 10/18/2019 10:02 AM]
* * * * *
12/12/19 CASE argued. Panel: Juan R. Torruella,
Appellate Judge; Rogeriee Thompson, Appellate Judge and William J. Kayatta, Jr.,
Appellate Judge.
Arguing attorneys:
Daniel Habib for Dzhokhar A. Tsarnaev and
William A. Glaser for US. [16-6001] (DJT)
[Entered: 12/12/2019 01:32 PM]
*

*

*

*

*

15
DATE

PROCEEDINGS

7/31/20

OPINION issued by Juan R. Torruella, Appellate Judge; Rogeriee Thompson, Appellate Judge and William J. Kayatta, Jr., Appellate Judge.
Published.
[16-6001]
(DPO) [Entered: 07/31/2020 02:56 PM]
JUDGMENT.
16-6001 Dzhokhar Tsarnaev’s convictions on Counts 13, 15, and 18
are reversed, and the district court is directed to enter a judgment of acquittal on
those counts. Dzhokhar Tsarnaev’s death
sentences on Counts 4, 5, 9, 10, and 14 are
vacated, and the matter is remanded to the
district court with directions to hold a new
penalty-phase trial consistent with the opinion issued this day and with Local Rule
40.1(k)(1) of the District of Massachusetts.
[16-6001] (DPO) [Entered:
07/31/2020
03:00 PM]

7/31/20

9/14/20

* * * * *
ORDER entered by Rogeriee Thompson,
Appellate Judge. Upon consideration of
the government’s assented-to motion to stay
mandate, the motion is granted. The issuance of the mandate is hereby stayed until
December 28, 2020. If within that period a
timely petition for writ of certiorari is filed,
the stay shall continue until final disposition
of such petition by the United States Supreme Court. Should any petition for writ
certiorari be denied, mandate shall issue

16
DATE

PROCEEDINGS

forthwith. Counsel for the government is
directed to promptly notify the Clerk of this
court both of the filing of any such petition
for writ of certiorari and its disposition.
[16-6001] (GAK) [Entered:
09/14/2020
03:44 PM]
4/6/21

* * * * *
ORDER entered by Rogeriee Thompson,
Appellate Judge:
Defendant-appellant’s
Motion to Seal and Limit Access to Authorized Counsel’s Unopposed Motion for Third
Modification to Protective Order is granted.
The motion for modification is accepted for
filing under seal. It is further ordered that
defendant-appellant’s Unopposed Motion
for Third Modification to Protective Order
is granted and paragraph (5) of the Court’s
October 3, 2018 Order is modified as follows:
“(5) Only Authorized Counsel, Learned
Counsel (Clifford Gardner and Gail K. Johnson), Mia Eisner-Grynberg and Daniel Habib
of the Federal Defenders-NY, and Ginger
Anders of Munger, Tolles & Olson LLP
shall be privy to the content of the material
and shall not share it with defendant or
other members of the defense team, if
any[.]”
[16-6001].
CLERK’S NOTE:
Docket entry was edited to modify the
docket text. (DPO) [Entered: 04/06/2021
09:32 AM]

17
DATE

5/12/21

PROCEEDINGS

* * * * *
ORDER entered by Rogeriee Thompson,
Appellate Judge: The joint motion for modification of protective order and defendantappellant’s motion to seal the joint motion
are granted. [16-6001] (DPO) [Entered:
05/12/2021 11:35 AM]
*

*

*

*

*

18
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
(BOSTON)

Docket No. 1:13-cr-10200-GAO-1
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS
JAHAR TSARNI, DEFENDANT
DOCKET ENTRIES
DATE

6/27/13

10/7/13

DOCKET
NUMBER PROCEEDINGS

*

* * * *
INDICTMENT as to Dzhokhar
A. Tsarnaev (1) count(s) 1, 2, 3,
4, 5, 6, 7, 8, 9, 10, 11, 12, 13, 14,
15-18, 19, 20, 21, 22, 23, 24, 25,
26, 27, 28, 29, 30. (Attachments:
# 1 JS45) (Catino3, Theresa)
(Entered: 06/27/2013)

*

* * * *
MOTION to Compel Discovery
(Redacted for Public Docket) as
to Dzhokhar A. Tsarnaev. (Attachments:
# 1 Exhibit A,
# 2 Exhibit B, # 3 Exhibit C)
(Fick, William) (Additional attachment(s) added on 10/9/2013,

58

112

19
DATE

DOCKET
NUMBER PROCEEDINGS

pursuant to the court’s order 114 # 4 Sealed Unredacted
Motion to Compel # 5 Sealed
Unredacted
Exhibit
A,
# 6 Sealed Unredacted Exhibit B) (Lyness, Paul). (Entered: 10/07/2013)
10/21/13

11/7/13

11/21/13

*

* * * *
MEMORANDUM in Opposition by USA as to Dzhokhar A.
Tsarnaev re 112 MOTION to
Compel Discovery (Redacted
for Public Docket) (Weinreb,
William) (Entered: 10/21/2013)

*

* * * *
REPLY TO RESPONSE to
Motion by Dzhokhar A. Tsarnaev re 112 MOTION to Compel Discovery (Redacted for
Public Docket) (Fick, William)
(Entered: 11/07/2013)

*

* * * *
Transcript of Status Conference and Motion Hearing as to
Dzhokhar A. Tsarnaev held on
November 12, 2013, before
Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 11/21/2013)

129

144

149

20
DATE

11/27/13

1/30/14

3/28/14

4/11/14

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Judge George A. OToole, Jr:
ORDER entered granting in
part and denying in part
112 Motion to Compel as to
Dzhokhar A. Tsarnaev (1)
(Lyness,
Paul)
(Entered:
11/27/2013)

*

* * * *
NOTICE Of Intent by USA as
to Dzhokhar A. Tsarnaev (Pellegrini,
Nadine)
(Entered:
01/30/2014)

*

* * * *
Second MOTION to Compel Discovery of Favorable Evidence as to Dzhokhar A. Tsarnaev. (Conrad, Miriam) (Entered: 03/28/2014)

*

* * * *
Opposition by USA as to Dzhokhar A. Tsarnaev re 235 MOTION to Compel Compliance
with Automatic Discovery Obligations, 233 Second
MOTION to Compel Discovery of
Favorable Evidence (Weinreb,
William) (Entered: 04/11/2014)

151

167

233

243

21
DATE

4/17/14

4/28/14

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Judge George A. OToole, Jr:
ORDER
entered
denying 233 Motion to Compel as to
Dzhokhar A. Tsarnaev (1);
denying 235 Motion to Compel
as to Dzhokhar A. Tsarnaev (1)
(Danieli,
Chris)
(Entered:
04/17/2014)

*

* * * *
Transcript of Motion Hearing
as to Dzhokhar A. Tsarnaev
held on April 16, 2014, before
Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 04/28/2014)

255

270

*
6/13/14

* * * *
Supplemental
MEMORANDUM in Support by Dzhokhar
A. Tsarnaev re 233 Second
MOTION to Compel Discovery
of Favorable Evidence (Attachments: # 1 Exhibit)(Conrad,
Miriam) (Entered: 06/13/2014)

367

*
6/18/14

376

* * * *
MOTION to Change Venue as
to Dzhokhar A. Tsarnaev.
(Clarke,
Judy)
(Entered:

22
DATE

DOCKET
NUMBER PROCEEDINGS

06/18/2014)
7/1/14

8/7/14

8/25/14

*

* * * *
Opposition by USA as to Dzhokhar A. Tsarnaev re 376 MOTION to Change Venue (Pellegrini,
Nadine)
(Entered:
07/01/2014)

*

* * * *
REPLY TO RESPONSE to
Motion by Dzhokhar A. Tsarnaev
re 376 MOTION
to
Change Venue (Attachments:
# 1 Affidavit
Declaration,
# 2 Exhibit,
# 3 Exhibit,
# 4 Exhibit,
# 5 Exhibit,
# 6 Exhibit,
# 7 Exhibit,
# 8 Exhibit,
# 9 Exhibit,
# 10 Exhibit, # 11 Exhibit,
# 12 Exhibit, # 13 Exhibit,
# 14 Exhibit, # 15 Exhibit,
# 16 Exhibit, # 17 Exhibit,
# 18 Exhibit, # 19 Exhibit,
# 20 Exhibit, # 21 Exhibit,
# 22 Exhibit, # 23 Exhibit,
# 24 Exhibit, # 25 Exhibit)
(Clarke,
Judy)
(Entered:
08/07/2014)

*

* * * *
SUR-REPLY to Motion by

405

461

512

23
DATE

DOCKET
NUMBER PROCEEDINGS

USA as to Dzhokhar A. Tsarnaev
re 376 MOTION
to
Change Venue (Weinreb, William) (Entered: 08/25/2014)
9/5/14

9/24/14

*

* * * *
Transcript of Status Conference as to Dzhokhar A. Tsarnaev held on August 14, 2014,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 09/05/2014)

*

* * * *
Judge George A. OToole, Jr:
OPINION AND ORDER entered denying 376 Motion for
Change of Venue as to Dzhokhar A. Tsarnaev (1); granting
in part and denying in
part 518 Motion to Continue as
to Dzhokhar A. Tsarnaev (1)
(Jury Trial set for 1/5/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..,
Final Pretrial Conference set
for 12/18/2014 10:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..); granting in part and denying in
part 529 Motion for Order as
to Dzhokhar A. Tsarnaev (1);

538

577

24
DATE

DOCKET
NUMBER PROCEEDINGS

granting in part and denying in
part 530 Motion to Compel as
to Dzhokhar A. Tsarnaev (1);
granting in part and denying in
part 245 Motion to Compel as
to Dzhokhar A. Tsarnaev (1)
(Lyness,
Paul)
(Entered:
09/24/2014)
*
10/10/14

602

* * * *
MOTION to Compel as to
Dzhokhar A. Tsarnaev. (Fick,
William) (Additional attachment(s) added on 10/20/2014:
# 1 Exhibit Sealed Exhibit A,
# 2 Exhibit—Letter
Re:
United States v. Dzhokhar
Tsarnaev, Crim. No. 13-10200GAO (July 25, 2014), # 3 Exhibit
Sealed
Exhibit
C,
# 4 Exhibit Sealed Exhibit D,
# 5 Exhibit Sealed Exhibit E,
# 6 Exhibit Sealed Exhibit F,
# 7 Exhibit Sealed Exhibit G,
# 8 Exhibit Sealed Exhibit H,
Unsealed pursuant to order
(docket no. 1749).
# 9 Exhibit Sealed Exhibit I) (Danieli,
Chris). Unsealed pursuant to
electronic order (docket no.
1627). Modified on 2/11/2016

25
DATE

DOCKET
NUMBER PROCEEDINGS

(Abaid, Kimberly). Modified
on 3/4/2016 (Danieli, Chris).
(Additional
attachment(s)
added on 9/26/2016: # 10 Redacted Discovery Letter from
Govt., # 11 Redacted ExhibitLetter from Defense, # 12 Redacted Exhibit-Letter from Defense, # 13 Redacted Exhibit
—Letter from Govt., # 14 Redacted Exhibit-Letter from
Govt.,
# 15 Redacted
Exhibit-Letter from Defense)
—pursuant to electronic order
(docket no. 1700) (Nicewicz,
Craig).
Modified
on
11/21/2018 (adminn,).
(Entered: 10/10/2014)
10/24/14

11/4/14

*

* * * *
Opposition by USA as to Dzhokhar A. Tsarnaev re 602 MOTION to Compel (Weinreb,
William) (Entered: 10/24/2014)

*

* * * *
REPLY TO RESPONSE to
Motion by Dzhokhar A. Tsarnaev re 602 MOTION to Compel (Fick, William) (Entered:
11/04/2014)

618

634

26
DATE

11/25/14

12/1/14

12/1/14

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Judge George A. OToole, Jr:
OPINION AND ORDER entered denying 602 Motion to
Compel as to Dzhokhar A. Tsarnaev (1) (Danieli, Chris) Unsealed pursuant to electronic
order (docket no. 1627). Modified on 2/11/2016 (Abaid, Kimberly). Modified on 3/7/2016
(Danieli, Chris).
(Entered:
11/25/2014)

*

* * * *
Second MOTION to Change
Venue as to Dzhokhar A. Tsarnaev.
(Fick, William) (Entered: 12/01/2014)

*

* * * *
MEMORANDUM in Support
by Dzhokhar A. Tsarnaev
re 684 Second MOTION to
Change Venue (Attachments:
# 1 Exhibit 1 (Smith Declaration), # 2 Exhibit 1a - search
terms, # 3 Exhibit 1b - Globe
log and articles, # 4 Exhibit 1c
- Herald log and articles, # 5
Exhibit 2 (Vidmar Declaration))
(Fick, William) (Attachment 1

675

684

686

27
DATE

DOCKET
NUMBER PROCEEDINGS

replaced on 2/19/2015) (Danieli,
Chris). Modified on 2/19/2015
(Danieli, Chris). Exhibit 1
(Smith Declaration) replaced
with paragraphs stricken and
Exhibit 2 (Vidmar Declaration)
stricken pursuant to Jan. 2,
2015 Opinion and Order (dkt.
no. 887). (Entered: 12/01/2014)
12/1/14

12/2/14

*

* * * *
Proposed Jury Instructions by
Dzhokhar A. Tsarnaev (Attachments: # 1 Agreed instructions, # 2 Agreed instructions)
(Bruck,
David)
(Entered:
12/01/2014)

*

* * * *
Motion for Leave to File Document Under Seal (Attachments:
# 1 Exhibit)(Danieli, Chris).
Unsealed pursuant to electronic
order (docket no. 1627). Modified on 2/11/2016 (Abaid, Kimberly). Modified on 3/7/2016
(Danieli, Chris).
(Entered:
12/03/2014)

688

702

*

*

*

*

*

28
DATE

12/8/14

12/8/14

12/22/14

12/30/14

DOCKET
NUMBER PROCEEDINGS

713

Juror Questionnaire Preliminary
Instructions (Danieli, Chris).
Unsealed pursuant to electronic
order (docket no.1627). Modified on 2/11/2016 (Abaid, Kimberly). Modified on 3/7/2016
(Danieli, Chris).
(Entered:
12/08/2014)
*

* * * *
Motion to Supplement AgreedUpon Questionnaire Under Seal
(Danieli, Chris). Unsealed pursuant to electronic order
(docket no. 1627). Modified on
2/11/2016 (Abaid, Kimberly).
Modified on 3/7/2016 (Danieli,
Chris). (Entered: 12/08/2014)

*

* * * *
Opposition by USA as to Dzhokhar A. Tsarnaev re 684 Second MOTION to Change
Venue (Weinreb, William) (Entered: 12/22/2014)

*

* * * *
SEALED MOTION (Danieli,
Chris) Modified on 4/17/2015
(Lyness, Paul). (Additional attachment(s) added on 9/20/2016:
# 1 Redacted
Government

715

796

867

29
DATE

DOCKET
NUMBER PROCEEDINGS

Motion in Limine re: Waltham
Triple Homicide)—pursuant to
electronic order (docket no. 1700)
(Nicewicz, Craig).
Unsealed
pursuant to order (docket no.
1749). Modified on 11/21/2018
(adminn,). (Entered: 12/30/2014)
12/31/14

1/5/15

*

* * * *
Judge George A. OToole, Jr:
ELECTRONIC ORDER entered denying 684 Motion for
Change of Venue as to Dzhokhar A. Tsarnaev (1); denying 829 Motion to Continue as
to Dzhokhar A. Tsarnaev (1).
Explanatory opinions will be issued shortly. (Lyness, Paul)
(Entered: 12/31/2014)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Day 1 of Jury Selection as to
Dzhokhar A. Tsarnaev held on
1/5/2015 at 9:00 AM and 1:00
PM. Jury selection begins in
Jury Assembly Room. Court
makes introductory remarks to
jury panels. Counsel and the
defendant introduced.
Jury

876

30
DATE

1/6/15

DOCKET
NUMBER PROCEEDINGS

Panels sworn.
Jury panels
complete
questionnaires.
* * *
(Lyness, Paul) (Entered: 01/06/2015)
Judge George A. OToole, Jr:
ORDER
entered
denying 715 Sealed Motion.
Unsealed pursuant to electronic
order (docket no. 1627). (Danieli,
Chris)
Modified
on
2/11/2016 (Abaid, Kimberly).
Modified on 3/2/2016 (Abaid,
Kimberly).
(Entered:
01/06/2015)

914

*
1/6/15

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Day 2 of Jury Selection as to
Dzhokhar A. Tsarnaev held on
1/6/2015 at 9:00 AM and 1:00
PM. Jury selection continues
in Jury Assembly Room.
Court makes introductory remarks to jury panels. Counsel
and the defendant introduced.
Jury panels sworn. Jury panels complete questionnaires.
* * *
(Lyness, Paul) (Entered: 01/06/2015)

31
DATE

DOCKET
NUMBER PROCEEDINGS

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Day 3 of Jury Selection as to
Dzhokhar A. Tsarnaev held on
1/7/2015 at 9:00 AM and 1:00
PM. Jury selection continues
in Jury Assembly Room.
Court makes introductory remarks to jury panels. Counsel
and the defendant introduced.
Jury panels sworn. Jury panels
complete questionnaires. * * *
(Lyness,
Paul).
(Entered:
01/07/2015)

*

* * * *
Sealed Motion to Seal Defendant’s
Proposed
Follow-Up
Questions Re Voir Dire. (Attachments:
# 1 Exhibit,
# 2 Exhibit,
# 3 Exhibit,
# 4 Exhibit,
# 5 Exhibit,
# 6 Exhibit,
# 7 Exhibit).
Unsealed pursuant to electronic
order (docket no. 1627). (Danieli,
Chris)
Modified
on
2/11/2016 (Abaid, Kimberly).
Modified on 3/2/2016 (Abaid,

1/7/15

1/13/15

951

32
DATE

DOCKET
NUMBER PROCEEDINGS

Kimberly).
01/13/2015)
1/15/15

1/16/15

1/21/15

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Day 4 of Jury Selection as to
Dzhokhar A. Tsarnaev held on
1/15/2015
* * *
(Lyness,
Paul) (Entered: 01/16/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Day 5 of Jury Selection as to
Dzhokhar A. Tsarnaev held on
1/16/2015, (Jury Selection set
for 1/20/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
01/16/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 1/21/2015.
Jury panel sworn. The court

963

973

978

(Entered:

33
DATE

DOCKET
NUMBER PROCEEDINGS

1/21/15

979

1/22/15

980

gives instructions. (Jury Selection set for 1/22/2015 09:00 AM
in Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
01/21/2015)
Defense Follow-Up Voir Dire
Questions (Third Request).
Unsealed pursuant to electronic
order (docket no. 1627). (Danieli,
Chris)
Modified
on
2/11/2016 (Abaid, Kimberly).
Modified on 3/2/2016 (Abaid,
Kimberly).
(Entered:
01/21/2015)
Third MOTION to Change
Venue as to Dzhokhar A. Tsarnaev.
(Watkins, Timothy)
(Entered: 01/22/2015)
*

1/22/15

982

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 1/22/2015.
The jury panel is sworn. The
court gives its instructions.
(Jury Selection set for 1/23/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)

34
DATE

DOCKET
NUMBER PROCEEDINGS

* * *
tered:
1/23/15

*

* * * *
Memorandum in Support of
Third Motion for Change of
Venue. (Attachments: # 1
Exhibit). Unsealed pursuant
to electronic order (docket no.
1627). (Danieli, Chris) Modified on 2/11/2016 (Abaid, Kimberly). Modified on 3/2/2016
(Abaid, Kimberly). (Entered:
01/23/2015)

*

* * * *
Transcript of Lobby Conference as to Dzhokhar A. Tsarnaev held on December 30,
2014, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Lobby Conference redacted by parties)pursuant to Order (docket no.
1749)) (Halley, Taylor). (Entered: 01/26/2015)
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar

985

1/26/15

988

1/26/15

989

(Lyness, Paul) (En01/22/2015)

35
DATE

DOCKET
NUMBER PROCEEDINGS

A. Tsarnaev held on 1/26/2015
Jury panel is sworn. The court
gives its instructions. (Jury Selection set for 1/29/2015 09:00
AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 01/26/2015)
1/28/15

1/29/15

*

* * * *
Opposition by USA as to Dzhokhar A. Tsarnaev re 980 Third
MOTION
to
Change
Venue (Weinreb, William) (Entered: 01/28/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 1/29/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 1/30/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 01/29/2015)

992

995

*

*

*

*

*

36
DATE

1/30/15

2/4/15

2/5/15

DOCKET
NUMBER PROCEEDINGS

997

ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 1/30/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/2/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 01/30/2015)
*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/4/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/5/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/04/2015)

*

* * * *
SEALED Transcript of Jury
Trial Day Four (Empanelment)
as to Dzhokhar A. Tsarnaev
held on January 15, 2015, before

1004

1006

37
DATE

DOCKET
NUMBER PROCEEDINGS

2/5/15

1007

2/5/15

1008

Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 2/5/2015 (Scalfani,
Deborah). Modified on 3/5/2015
(Scalfani, Deborah). (Additional
attachment(s)
added
on
12/6/2018: # 1 Transcript of
Jury Trial Day Four (Empanelment) redacted by parties pursuant to order (docket # 1749))
(Halley, Taylor). (Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Five (Empanelment)
as to Dzhokhar A. Tsarnaev
held on January 16, 2015, before
Judge George A. OToole.
* * * (Scalfani, Deborah) Modified on 3/5/2015 (Scalfani, Deborah).
(Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Five (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Six (Empanelment)
as to Dzhokhar A. Tsarnaev
held on January 20, 2015, before

38
DATE

DOCKET
NUMBER PROCEEDINGS

2/5/15

1009

2/5/15

1010

Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Six (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Seven (Empanelment) as to Dzhokhar A. Tsarnaev held on January 21, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Seven (Empanelment) redacted by parties pursuant to
order (docket # 1749) (Halley,
Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Eight (Empanelment) as to Dzhokhar A. Tsarnaev held on January 22, 2015,
before Judge George A. OToole.

39
DATE

DOCKET
NUMBER PROCEEDINGS

2/5/15

1011

2/5/15

1012

* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Eight (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Nine (Empanelment)
as to Dzhokhar A. Tsarnaev
held on January 23, 2015, before
Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day
Nine
(Empanelment)
redacted by parties pursuant
to order (docket # 1749)) (Halley, Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Ten (Empanelment)
as to Dzhokhar A. Tsarnaev
held on January 26, 2015, before
Judge George A. OToole.
* * *
(Scalfani, Deborah)

40
DATE

DOCKET
NUMBER PROCEEDINGS

2/5/15

1013

2/5/15

1014

Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Ten (Empanelment) redacted by parties pursuant to order
(docket # 1749)) (Halley, Taylor). (Entered: 02/05/2015)
SEALED Transcript of Jury
Trial Day Eleven (Empanelment) as to Dzhokhar A. Tsarnaev held on January 29, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Eleven (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor). (Entered: 02/05/2015)
SEALED Transcript of Jury
Trial Day Twelve (Empanelment) as to Dzhokhar A. Tsarnaev held on January 30, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:

41
DATE

2/5/15

DOCKET
NUMBER PROCEEDINGS

# 1 Transcript of Jury Trial
Day twelve (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/05/2015)
SEALED Transcript of Jury
Trial Day Thirteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 4, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Thirteen (Empanelment)
redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/05/2015)

1015

*
2/5/15

1018

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/5/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/6/2015

42
DATE

2/6/15

DOCKET
NUMBER PROCEEDINGS

09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/05/2015)
SEALED Transcript of Jury
Trial Day Fourteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 5, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Fourteen (Empanelment)
redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor). (Entered: 02/06/2015)

1019

*
2/6/15

1021

* * * *
Judge George A. OToole, Jr:
OPINION AND ORDER entered denying 980 Motion for
Change of Venue; denying 984 Motion to Amend;
denying 993 Motion for Leave
to File; denying 996 Motion
for Leave to File; denying 1003 Motion to Stay Jury
Selection and Trial Pending

43
DATE

DOCKET
NUMBER PROCEEDINGS

Disposition of Second Mandamus Petition as to Dzhokhar A.
Tsarnaev (1) (Danieli, Chris)
(Entered: 02/06/2015)
*
2/6/15

1023

2/8/15

1024

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/6/2015.
The jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/9/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/06/2015)
SEALED Transcript of Jury
Trial Day Fifteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 6, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Fifteen (Empanelment) redacted by parties pursuant to

44
DATE

DOCKET
NUMBER PROCEEDINGS

order (docket # 1749)) (Halley,
Taylor). (Entered: 02/08/2015)
*
2/11/15

1026

2/12/15

1027

* * * *
SEALED Transcript of Jury
Trial Day Sixteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 11, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Sixteen (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor). (Entered: 02/11/2015)
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/12/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/13/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/12/2015)

45
DATE

2/13/15

DOCKET
NUMBER PROCEEDINGS

1028

SEALED Transcript of Jury
Trial Day Seventeen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 12, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Seventeen (Empanelment)
redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor).
(Entered:
02/13/2015)
*

2/13/15

1030

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/13/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/17/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/13/2015)
*

*

*

*

46
DATE

2/13/15

DOCKET
NUMBER PROCEEDINGS

1034

SEALED Transcript of Jury
Trial Day Eighteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 13, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). Unsealed pursuant
to order (docket no. 1749).
Modified on 11/21/2018 (adminn, ). (Entered: 02/15/2015)
*

2/17/15

2/18/15

1040

1041

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/17/2015.
Jury panel is sworn and the
court gives its instructions.
* * *
(Lyness, Paul) (Entered: 02/18/2015)

* * * * *
SEALED Transcript of Jury
Trial Day Nineteen (Empanelment) as to Dzhokhar A. Tsarnaev held on February 17, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,

47
DATE

DOCKET
NUMBER PROCEEDINGS

Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Ninteen (Empanelment)
redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor). (Entered: 02/18/2015)
*
2/18/15

1048

2/19/15

1049

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/18/2015
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/19/2015
11:30 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 02/18/2015)
SEALED Transcript of Jury
Trial Day Twenty (Empanelment) as to Dzhokhar A. Tsarnaev held on February 18, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial

48
DATE

DOCKET
NUMBER PROCEEDINGS

Day Twenty (Empanelment) redacted by parties pursuant to
order (docket # 1749)) (Halley,
Taylor). (Entered: 02/19/2015)
2/19/15

2/20/15

*

* * * *
SEALED Transcript of Jury
Trial Day Twenty One (Empanelment) as to Dzhokhar A. Tsarnaev held on February 19, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Twenty One (Empanelment) redacted by parties pursuant to order (docket # 1749))
(Halley, Taylor).
(Entered:
02/19/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/20/2015.
Jury panel is sworn and the
court gives its instructions.
(Jury Selection set for 2/23/2015
09:00 AM in Courtroom 9 before

1052

1054

49
DATE

DOCKET
NUMBER PROCEEDINGS

Judge
George
A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 02/20/2015)
2/23/15

2/24/15

*

* * * *
SEALED Transcript of Jury
Trial Day Twenty Two (Empanelment) as to Dzhokhar A. Tsarnaev held on February 20, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified on 3/5/2015 (Scalfani,
Deborah). (Additional attachment(s) added on 12/6/2018:
# 1 Transcript of Jury Trial
Day Twenty Two (Empanelment) redacted by parties pursuant to order (docket # 1749))
(Halley, Taylor).
(Entered:
02/23/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/24/2015.
The jury panel is sworn and the
court
gives
its
instructions. 1069 is GRANTED to
the extent the defendant seeks
additional time to respond to

1058

1081

50
DATE

2/25/15

DOCKET
NUMBER PROCEEDINGS

the motions at issue. On or before February 28, the defendant
shall submit by email oppositions to any motions in limine
which the parties agree should
be resolved prior to opening
statements.
(Lyness, Paul)
(Entered: 02/26/2015)
SEALED Transcript of Jury
Trial Day Twenty Three (Empanelment) as to Dzhokhar A.
Tsarnaev held on February 24,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) Modified on 3/5/2015
(Scalfani, Deborah).
(Additional attachment(s) added on
12/6/2018: # 1 Transcript of
Jury Trial Day Twenty Three
(Empanelment) redacted by
parties pursuant to order (docket
# 1749)) (Halley, Taylor). (Entered: 02/25/2015)

1075

*
2/25/15

1082

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 2/25/2015.
The jury panel is sworn and the

51
DATE

DOCKET
NUMBER PROCEEDINGS

court gives its instructions.
* * *
(Lyness, Paul) (Entered: 02/26/2015)
2/26/15

*

* * * *
SEALED Transcript of Jury
Trial Day Twenty Four (Empanelment) as to Dzhokhar A.
Tsarnaev held on February 25,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) Modified on 3/5/2015
(Scalfani, Deborah).
(Additional attachment(s) added on
12/6/2018: # 1 Transcript of
Jury Trial Day Twenty Four
(Empanelment) redacted by
parties pursuant to order
(docket # 1749)) (Halley, Taylor). (Entered: 02/26/2015)

*

* * * *
Fourth MOTION to Change
Venue as to Dzhokhar A. Tsarnaev.
(Attachments:
# 1
Exhibit A)(Fick, William) Modified on 3/5/2015 (Lyness, Paul).
(Entered: 03/02/2015)
Opposition by USA as to Dzhokhar A. Tsarnaev re 1108 Fourth
MOTION to Change Ven-

1083

3/2/15

1108

3/2/15

1109

52
DATE

DOCKET
NUMBER PROCEEDINGS

ue (Weinreb, William)
tered: 03/02/2015)
3/3/15

3/4/15

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Selection as to Dzhokhar
A. Tsarnaev held on 3/3/2015.
Counsel exercise their peremptory challenges. The following
jurors are seated: #35, 41, 83,
102, 138, 229, 286, 349, 395, 441,
480, 487, 552, 567, 588, 598, 608,
638 (Jury Trial set for 3/4/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 03/03/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/4/2015.
The jury is duly empanelled and
sworn.
Opening statements
are made. Testimony of government witnesses’ Thomas
Grilk, Shane O’Hara, Colton
Kilgore, Rebekah Gregory,

1112

1114

(En-

53
DATE

DOCKET
NUMBER PROCEEDINGS

Sydney Corcoran, and Karen
McWaters given.
Evidence
presented.
Motion 1080 is
DENIED.
Motion 1108 DENIED.
Motion
1103
GRANTED. Substantive motion attached to 1103, which
does not yet have a docket number,
is
DENIED.
Motion 820 MOOT. Motion 728
MOOT.
Motion
866
GRANTED. Jury Trial set for
3/5/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) Modified on 3/4/2015
(Lyness, Paul). Modified on
3/5/2015 (Lyness, Paul). (Entered: 03/04/2015)
*
3/5/15

1119

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/5/2015 Testimony of government witnesses’ Frank Chiola, Jeff Bauman, Richard Claflin, James
Marinelli, James Tyre, Alan

54
DATE

DOCKET
NUMBER PROCEEDINGS

Hern, Lauren Woods, Roseanne Sdoia, Thomas Barrett,
William Richard given. Evidence presented. (Jury Trial
set for 3/9/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
03/05/2015)
*
3/9/15

1134

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/9/2015.
Testimony of government witness Jessica Kensky, Danling
Zhou, Matt Patterson,James
Bath, Anthony Imel, James
Hooley, William Gross, Katelin
Harper, Gregory Homel, Christopher Frias.
Testimony of
Stephen Kimball begins. Evidence presented. (Jury Trial
set for 3/10/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness, Paul) Modified on
3/10/2015 (Lyness, Paul). (Entered: 03/09/2015)

55
DATE

3/10/15

DOCKET
NUMBER PROCEEDINGS

1135

ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/10/2015.
Testimony of government witness Stephen Kimball concludes. Testimony of government witnesses’ Todd Brown,
Jeffrey Rolands, Kristen Koch,
Michael Macias, Jason Costello,
and Paula Ernst given. Testimony of government witness Sarah DeLair begins. Evidence
presented. (Jury Trial set for
3/11/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 03/10/2015)
*

3/11/15

1143

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/11/2015.
Testimony of government witness Sarah DeLair concludes.
Testimony of government witnesses’ Chad Fitzgerald, James
Eppard, John DiFava, David

56
DATE

3/12/15

DOCKET
NUMBER PROCEEDINGS

Sacco, Clarence Henniger,
Brendan O’Hurn, Matthew Isgur, and Nathan Harman given.
Evidence presented (Jury Trial
set for 3/12/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
03/11/2015)
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/12/2015.
Testimony of government witnesses Michael Cashman, Anthony Grassi, Renee Robinson,
Alan Mednick, Eddie Lakkis,
Dung Meng, Willilam O’Keefe,
Michael Nickerson, Joseph Sullivan given.
Evidence presented.
(Jury Trial set for
3/16/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 03/12/2015)

1144

*
3/16/15

1157

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:

57
DATE

DOCKET
NUMBER PROCEEDINGS

Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/16/2015.
The jury views the boat at an
off-site facility. Testimony of
government witnesses Joseph
Reynolds, John Macllelan,Jeffrey Pugliese, James Floyd, Andrew Kitzenberg, Heather
Studley, Francis Hughes given.
Evidence presented.
(Jury
Trial set for 3/17/2015 09:00 AM
in Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
03/16/2015)
*
3/17/15

1161

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/17/2015.
Testimony of government witnesses David Henneberry,
Stephan Silva, Michael Nealon,
Jessica Ulmer given.
Evidence presented. (Jury Trial
set for 3/18/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *

58
DATE

DOCKET
NUMBER PROCEEDINGS

(Lyness,
Paul)
03/17/2015)
3/17/15

1178

3/18/15

1179

3/19/15

1187

(Entered:

*

* * * *
Juror Questionnaire. (Danieli,
Chris) (Entered: 03/17/2015)
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/18/2015.
Testimony of government witnesses Robert McCarthy, Matthew Hess, Patrick Moynihan,
D.J. Fife, Stephanie Waite, Jennifer Montgomery given. Testimony of government witness
Brian Corcoran begins. Evidence presented. (Jury Trial
set for 3/19/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
03/18/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/19/2015,

59
DATE

DOCKET
NUMBER PROCEEDINGS

Testimony of government witness Brian Corcoran concludes.
Testimony of government witness Philip Christiano given.
Testimony of government witness Kevin Swindle begins.
Evidence presented. (Jury
Trial set for 3/23/2015 09:00 AM
in Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
03/19/2015)
*
3/23/15

1193

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/23/2015.
Testimony of government witness Kevin Swindle concludes.
The court denies #865 as to Dr.
Matthew Levitt. Testimony of
government witness Matthew
Levitt begins. Evidence presented.
(Jury Trial set for
3/24/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 03/23/2015)
*

*

*

*

60
DATE

3/24/15

DOCKET
NUMBER PROCEEDINGS

1195

ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/24/2015.
The court denies document
number 729.
Testimony of
government witness Matthew
Levitt conclude. Testimony of
government witnesses Colleen
Tanguay, David Cahill, Matthew
Riportella,
Timothy
Dowd, Christopher Donahue,
Miguel Colon, and Mark Preble
given. Testimony of government witness Kimberly Franks
begins. Evidence presented.
(Jury Trial set for 3/25/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul). (Entered: 03/24/2015)
*

3/25/15

1202

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/25/2015.
Testimony of government wit-

61
DATE

DOCKET
NUMBER PROCEEDINGS

ness Kimberly Franks concludes. Testimony of government witnesses Christopher
Derks, Christian Fierabend,
Kenneth Benton, Olga LaFond,
Muna Shishani, and Heidi Williams given. Evidence presented.
(Jury Trial set for
3/26/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 03/25/2015)
3/26/15

3/30/15

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/26/2015.
Testimony of government witnesses David McCollam, Edward Knapp and Jennifer Hammers given.
Evidence presented.
(Jury Trial set for
3/30/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 03/26/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before

1214

1224

62
DATE

DOCKET
NUMBER PROCEEDINGS

Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/30/2015.
Testimony of government witnesses Katherine Lindstrom,
Michelle Gamble, and Henry
Nieles
given.
Government
rests. Court reserves decision
on 1223.
Testimony of defendant witnesses Michelle
Gamble and Gerald Grant
given. Evidence presented.
(Jury Trial set for 3/31/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 03/30/2015)
*
3/31/15

1228

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 3/31/2015.
Testimony of defendants witnesses Mark Spencer and Elena
Graff given.
Evidence presented. Defense rests. The
defendant renews his Rule 29A
motion after the defendant
rested. Court reserved. The

63
DATE

DOCKET
NUMBER PROCEEDINGS

court reads a joint stipulation
into the record. After the jurors left, the defendant renewed his Rule 29A motion.
Court
reserved.
* * *
(Lyness, Paul) Modified on
4/1/2015 (Lyness, Paul). (Entered: 04/01/2015)
*
4/6/15

1242

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/6/2015.
The court gives the first part of
its charge. Closing statements
are given by the parties. After
the government rebuttal, defense moves for a mistrial which
is denied. The court concludes
its charge. Jury to begin deliberating. (Jury Trial set for
4/7/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) Modified on 4/7/2015
(Lyness, Paul).
(Entered:
04/07/2015)
*

*

*

*

64
DATE

4/8/15

4/14/15

4/16/15

4/21/15

DOCKET
NUMBER PROCEEDINGS

1261

JURY VERDICT as to Dzhokhar A. Tsarnaev (1) Guilty on
Count 1, 2, 3, 4, 5, 6, 7, 8, 9, 10,
11, 12, 13, 14, 15-18, 19, 20, 21,
22, 23, 24, 25, 26, 27, 28, 29, 30.
(Lyness,
Paul)
(Entered:
04/09/2015)
*

* * * *
Transcript of Jury Trial Day
Forty-Six as to Dzhokhar A.
Tsarnaev held on April 14, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 04/14/2015)

*

* * * *
SEALED Transcript of Motion
Hearing as to Dzhokhar A.
Tsarnaev held on April 13, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Unsealed pursuant to order
(docket no. 1749). Modified on
11/21/2018 (adminn,).
(Entered: 04/16/2015)

*

* * * *
SEALED Transcript of Lobby
Conference as to Dzhokhar A.
Tsarnaev held on April 17, 2015,
before Judge George A. OToole.

1287

1297

1306

65
DATE

4/21/15

DOCKET
NUMBER PROCEEDINGS

* * *
(Scalfani, Deborah)
Unsealed pursuant to order
(docket no. 1749). Modified on
11/21/2018 (adminn,).
(Entered: 04/21/2015)
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/21/2015.
Penalty phase begins.
The
court gives the jury instructions.
Government gives its
opening statements. Defense
to defer their opening statement until the presentation of
their case. Testimony of government witnesses Celeste Corcoran, Jillian Reny, William
Campbell III, William Campbell, Jr., and Nicole Gross
given.
Evidence presented.
(Jury Trial set for 4/22/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * * (Lyness, Paul) Modified
on 4/22/2015 (Lyness, Paul).
(Entered: 04/21/2015)

1307

*

*

*

*

*

66
DATE

4/22/15

DOCKET
NUMBER PROCEEDINGS

1315

ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/22/2015.
Testimony of government witnesses Andrew Collier, Joseph
Rogers, John DiFalva, Eric
Whalley, Adrian Haslet-Davis,
Gary Oliviera, and Jinyan Zhau
given.
Evidence presented.
(Jury Trial set for 4/23/2015
09:00 AM in Courtroom 9 before
Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 04/22/2015)
*

4/23/15

1324

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/23/2015.
Testimony of government witnesses
Mark
Fuccarile,
Heather Abbott, David King,
Michelle Gamble and Steven
Woolfenden given. Evidence
presented. Government rests.
(Jury Trial set for 4/27/2015
09:00 AM in Courtroom 9 before

67
DATE

DOCKET
NUMBER PROCEEDINGS

Judge George A. OToole Jr..)
* * *
(Lyness, Paul) (Entered: 04/23/2015)
4/24/15

4/27/15

*

* * * *
SEALED
DOCUMENT
re 867 SEALED
MOTION
(Attachments:
# 1 Exhibit)
(Danieli, Chris) Unsealed pursuant to order (docket no. 1749).
Modified on 11/21/2018 (adminn, ). (Entered: 04/24/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/27/2015.
Defendant gives its opening in
the death penalty phase. Testimony of defendant witnesses
Laith Albehacy, Loay Assaf,
Abderrazak Razak, Robert
Barnes, Gerald Grant, Judith
Russell, Gina Crawford, and
Robert Ponte given. Evidence
presented. (Jury Trial set for
4/28/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..)
* * *
Interpreter name: Bashier Doss-

1326

1347

68
DATE

DOCKET
NUMBER PROCEEDINGS

(781)
571-9510,
Language:
Arabic. (Lyness, Paul) (Entered: 04/27/2015)
4/28/15

4/28/15

*

* * * *
Transcript of Jury Trial Day
Fifty as to Dzhokhar A. Tsarnaev held on April 27, 2015, before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 04/28/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/28/2015.
Testimony of defendant witnesses Roger Franca, Mark
Spencer,
John
Curran,
Kendrick Ball, Brandon Douglas, Sonya Petri given. Testimony of defendant witness Sam
Lipson begins. Evidence presented.
(Jury Trial set for
4/29/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..)
* * *
Interpreter name:
Claudia F.
Azoff, Language: Portuguese.

1349

1353

69
DATE

4/29/15

DOCKET
NUMBER PROCEEDINGS

(Lyness,
Paul)
(Entered:
04/28/2015)
Transcript of Jury Trial Day
Fifty One as to Dzhokhar A.
Tsarnaev held on April 28, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
Modified the Day of trial (Day
51) on 4/29/2015 (Scalfani, Deborah). (Entered: 04/29/2015)

1354

*
4/29/15

1360

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/29/2015.
Testimony of defendant witness
Sam Lipson concludes. Defense
recalls Sonya Petri for additional readings. Testimony of
defendant witnesses Michael
Sullivan, Laura Lee, Cathryn
Charner-Laird, Tracey Gordon,
Rebecca Norris, Rachel Otty,
Brendan Kells,Tiarrah Dottin
given. Testimony of defendant
witness Alexa Guevara begins.
Evidence presented.
(Jury
Trial set for 4/30/2015 09:00 AM
in Courtroom 9 before Judge

70
DATE

DOCKET
NUMBER PROCEEDINGS

George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
04/29/2015)
4/30/15

4/30/15

5/4/15

*

* * * *
Transcript of Jury Trial Day
Fifty Two as to Dzhokhar A.
Tsarnaev held on April 29, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 04/30/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 4/30/2015.
Trial is temporarily suspended
due to an ill juror. Trial will
resume on 5/4/15. (Jury Trial
set for 5/4/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
04/30/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.

1362

1364

1382

71
DATE

DOCKET
NUMBER PROCEEDINGS

Tsarnaev held on 5/4/2015.
Testimony of defendant witnesses Raisat Suleimanova, Naida
Suleimanova, Patimat Suleimanova, Shari Suleimanova,
Nabeisat Suleimanova and
Rosa Booth given. Testimony
of defendant witness Alexa
Guevara concludes. Evidence
presented. (Jury Trial set for
5/5/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..)
* * *
Interpreter name:
Larisa Dorfman, Language:
Russian.
(Lyness,
Paul)
(Entered:
05/04/2015)
5/5/15

5/5/15

*

* * * *
Transcript of Jury Trial Day
Fifty Four as to Dzhokhar A.
Tsarnaev held on May 4, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/05/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/5/2015.

1383

1387

72
DATE

5/6/15

DOCKET
NUMBER PROCEEDINGS

Testimony of defendant’s witnesses Amanda Ranson, Elizabeth Zamparelli, Mirra Kuznetsov, Alexander Niss, Michael Reynolds, Henry Alvarez
and Roy Howard given. Evidence presented. (Jury Trial
set for 5/6/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
Interpreter name:
Larisa
Dorfman, Language: Russian.
(Lyness,
Paul)
(Entered:
05/05/2015)
Transcript of Jury Trial Day
Fifty Five as to Dzhokhar A.
Tsarnaev held on May 5, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/06/2015)

1388

*
5/6/15

1390

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/6/2015.
Testimony of defendant’s witnesses Elmirza Khuzhugova (by
video conference), Jay Giedd,
Jennifer Carr-Callison, Eric

73
DATE

DOCKET
NUMBER PROCEEDINGS

Traub, and Kevin Roche given.
Testimony of defendant witness
Mark Bezy begins. Evidence
presented. (Jury Trial set for
5/7/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 05/06/2015)
*
5/7/15

1391

5/7/15

1393

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/7/2015.
Testimony of defendant witness
Mark Bezy concludes.
Evidence presented. (Jury Trial
set for 5/11/2015 09:00 AM in
Courtroom 9 before Judge
George A. OToole Jr..) * * *
(Lyness,
Paul)
(Entered:
05/07/2015)
Transcript of Jury Trial Day
Fifty Six as to Dzhokhar A.
Tsarnaev held on May 6, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/07/2015)
*

*

*

*

74
DATE

5/7/15

5/11/15

5/13/15

DOCKET
NUMBER PROCEEDINGS

1398

Transcript of Jury Trial Day
Fifty Seven as to Dzhokhar A.
Tsarnaev held on May 7, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/07/2015)
*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/11/2015.
Testimony of defendant witness
Helen Prejean given. Defendant rests. The government begins their rebuttal case. Testimony of government witness
Michelle Nicolet and John Oliver given.
The government
rests. (Jury Trial set for
5/13/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 05/11/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/13/2015.

1406

1416

75
DATE

DOCKET
NUMBER PROCEEDINGS

The court begins its charge to
the jury. Closing arguments
are made by the parties. The
court concludes its charge to
the jury. Jury Begins deliberations.
(Jury Trial set for
5/14/2015 09:00 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 05/13/2015)
5/14/15

5/14/15

*

* * * *
Transcript of Jury Trial Day
Fifty Nine as to Dzhokhar A.
Tsarnaev held on May 13, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/14/2015)

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/14/2015.
Jury continues their deliberations.
(Jury Trial set for
5/15/2015 08:30 AM in Courtroom 9 before Judge George A.
OToole Jr..) * * * (Lyness,
Paul) (Entered: 05/14/2015)

1418

1421

76
DATE

DOCKET
NUMBER PROCEEDINGS

5/15/15

1433

5/15/15

1434

6/24/15

1480

*

* * * *
ELECTRONIC Clerk’s Notes
for proceedings held before
Judge George A. OToole, Jr:
Jury Trial as to Dzhokhar A.
Tsarnaev held on 5/15/2015.
Jury conclude their deliberations. Jury notes 1-5 are attached as a pdf document
* * * (Lyness, Paul). Modified on 5/18/2015 (Lyness, Paul).
(Entered: 05/18/2015)
Redacted Penalty phase JURY
VERDICT.
(Lyness, Paul)
(Lyness,
Paul).
(Entered:
05/18/2015)

*

* * * *
Judge George A. OToole, Jr:
ORDER entered. JUDGMENT
as to Dzhokhar A. Tsarnaev (1),
Count(s) 1, Upon the jury’s verdict, the defendant is sentenced
to death on Counts 4, 5, 9, 10, 14,
and 15. (See Judgment and
Commitment for additional imprisonment terms). No period
of supervised release. The defendant is assessed $3,000.00
which is due forthwith. The
determination of restitution is

77
DATE

DOCKET
NUMBER PROCEEDINGS

deferred until 9/22/15.
The
fine is waived.; Count(s) 10,
Upon the jury’s verdict, the defendant is sentenced to death on
Counts 4, 5, 9, 10, 14, and 15.
(See Judgment and Commitment for additional imprisonment terms). No period of supervised release. The defendant is assessed $3,000.00 which
is due forthwith. The determination of restitution is deferred
until 9/22/15.
The fine is
waived.; Count(s) 11, Upon the
jury’s verdict, the defendant is
sentenced to death on Counts 4,
5, 9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 12, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).

78
DATE

DOCKET
NUMBER PROCEEDINGS

No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 13, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 14, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 15-18, Upon the jury’s

79
DATE

DOCKET
NUMBER PROCEEDINGS

verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 19, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 2, Upon the jury’s verdict, the defendant is sentenced
to death on Counts 4, 5, 9, 10, 14,
and 15. (See Judgment and
Commitment for additional imprisonment terms). No period
of supervised release. The defendant is assessed $3,000.00

80
DATE

DOCKET
NUMBER PROCEEDINGS

which is due forthwith. The
determination of restitution is
deferred until 9/22/15.
The
fine is waived.; Count(s) 20,
Upon the jury’s verdict, the defendant is sentenced to death on
Counts 4, 5, 9, 10, 14, and 15.
(See Judgment and Commitment for additional imprisonment terms). No period of supervised release. The defendant is assessed $3,000.00 which
is due forthwith. The determination of restitution is deferred
until 9/22/15.
The fine is
waived.; Count(s) 21, Upon the
jury’s verdict, the defendant is
sentenced to death on Counts 4,
5, 9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 22, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,

81
DATE

DOCKET
NUMBER PROCEEDINGS

9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 23, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 24, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination

82
DATE

DOCKET
NUMBER PROCEEDINGS

of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 25, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 26, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 27, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judg-

83
DATE

DOCKET
NUMBER PROCEEDINGS

ment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 28, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 29, Upon the jury’s
verdict, the defendant is sentenced to death on Counts 4, 5,
9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until

84
DATE

DOCKET
NUMBER PROCEEDINGS

9/22/15. The fine is waived.;
Count(s) 3, Upon the jury’s verdict, the defendant is sentenced
to death on Counts 4, 5, 9, 10, 14,
and 15. (See Judgment and
Commitment for additional imprisonment terms). No period
of supervised release. The defendant is assessed $3,000.00
which is due forthwith. The
determination of restitution is
deferred until 9/22/15.
The
fine is waived.; Count(s) 30,
Upon the jury’s verdict, the defendant is sentenced to death on
Counts 4, 5, 9, 10, 14, and 15.
(See Judgment and Commitment for additional imprisonment terms). No period of supervised release. The defendant is assessed $3,000.00 which
is due forthwith. The determination of restitution is deferred
until 9/22/15.
The fine is
waived.; Count(s) 4, Upon the
jury’s verdict, the defendant is
sentenced to death on Counts 4,
5, 9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).

85
DATE

DOCKET
NUMBER PROCEEDINGS

No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 5, Upon the jury’s verdict, the defendant is sentenced
to death on Counts 4, 5, 9, 10, 14,
and 15. (See Judgment and
Commitment for additional imprisonment terms). No period
of supervised release. The defendant is assessed $3,000.00
which is due forthwith. The
determination of restitution is
deferred until 9/22/15.
The
fine is waived.; Count(s) 6,
Upon the jury’s verdict, the defendant is sentenced to death on
Counts 4, 5, 9, 10, 14, and 15.
(See Judgment and Commitment for additional imprisonment terms). No period of supervised release. The defendant is assessed $3,000.00 which
is due forthwith. The determination of restitution is deferred
until 9/22/15.
The fine is
waived.; Count(s) 7, Upon the
jury’s verdict, the defendant is

86
DATE

DOCKET
NUMBER PROCEEDINGS

sentenced to death on Counts 4,
5, 9, 10, 14, and 15. (See Judgment and Commitment for additional imprisonment terms).
No period of supervised release.
The defendant is assessed $3,000.00 which is due
forthwith. The determination
of restitution is deferred until
9/22/15. The fine is waived.;
Count(s) 8, Upon the jury’s verdict, the defendant is sentenced
to death on Counts 4, 5, 9, 10, 14,
and 15. (See Judgment and
Commitment for additional imprisonment terms). No period
of supervised release. The defendant is assessed $3,000.00
which is due forthwith. The
determination of restitution is
deferred until 9/22/15.
The
fine is waived.; Count(s) 9,
Upon the jury’s verdict, the defendant is sentenced to death on
Counts 4, 5, 9, 10, 14, and 15.
(See Judgment and Commitment for additional imprisonment terms). No period of supervised release. The defendant is assessed $3,000.00 which

87
DATE

DOCKET
NUMBER PROCEEDINGS

is due forthwith. The determination of restitution is deferred
until 9/22/15.
The fine is
waived. (Lyness, Paul) (Entered: 06/25/2015)
*
9/8/15

1512

9/8/15

1513

9/8/15

1514

9/8/15

1515

* * * *
Transcript of Jury Trial Day
One (A.M. Session) as to Dzhokhar A. Tsarnaev held on January 5, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
One (P.M. Session) as to Dzhokhar A. Tsarnaev held on January 5, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
Two (A.M. Session) as to Dzhokhar A. Tsarnaev held on January 6, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
Two (P.M. Session) as to Dzho-

88
DATE

DOCKET
NUMBER PROCEEDINGS

9/8/15

1516

9/8/15

1517

9/8/15

1518

9/8/15

1519

khar A. Tsarnaev held on January 6, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
Three (A.M. Session) as to
Dzhokhar A. Tsarnaev held on
January 7, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
Three (P.M. Session) as to
Dzhokhar A. Tsarnaev held on
January 7, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
09/08/2015)
Transcript of Jury Trial Day
Twenty-Five (Motion Hearing)
as to Dzhokhar A. Tsarnaev
held on March 2, 2015, before
Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 09/08/2015)
Transcript of Jury Trial Day
Thirty-Three as to Dzhokhar A.
Tsarnaev held on March 16,
2015, before Judge George A.

89
DATE

DOCKET
NUMBER PROCEEDINGS

OToole.
* * *
(Scalfani,
Deborah) (Entered: 09/08/2015)
9/25/15

1528

9/25/15

1529

9/25/15

1530

9/29/15

*

* * * *
Transcript of Jury Trial—Day
Twenty-Seven as to Dzhokhar
A. Tsarnaev held on March 4,
2015, before Judge George A.
OToole. * * * (Scalfani, Deborah) (Entered: 09/25/2015)
Transcript of Jury Trial—Day
Twenty-Eight as to Dzhokhar
A. Tsarnaev held on March 5,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) (Entered: 09/25/2015)
Transcript of Jury Trial—Day
Twenty-Nine as to Dzhokhar A.
Tsarnaev held on March 9, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 09/25/2015)

*

* * * *
Transcript of Jury Trial—Day
Twenty-Six as to Dzhokhar A.
Tsarnaev held on March 3, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 09/29/2015)

1533

*

*

*

*

*

90
DATE

DOCKET
NUMBER PROCEEDINGS

9/30/15

1537

9/30/15

1538

10/5/15

10/5/15

Transcript of Jury Trial—Day
Thirty as to Dzhokhar A. Tsarnaev held on March 10, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 09/30/2015)
Transcript of Jury Trial—Day
Thirty-One as to Dzhokhar A.
Tsarnaev held on March 11,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah)
(Entered:
09/30/2015)
*

* * * *
Transcript of Jury Trial—Day
Thirty-Two as to Dzhokhar A.
Tsarnaev held on March 12,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah)
(Entered:
10/05/2015)

*

* * * *
Transcript of Jury Trial—Day
Thirty-Four as to Dzhokhar A.
Tsarnaev held on March 17,
2015, before Judge George A.
OToole. * * * (Scalfani, Deborah) (Entered: 10/05/2015)

1544

1546

*

*

*

*

*

91
DATE

DOCKET
NUMBER PROCEEDINGS

10/13/15

1559

10/13/15

1560

10/14/15

10/16/15

Transcript of Jury Trial - Day
Thirty-Five as to Dzhokhar A.
Tsarnaev held on March 18,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah)
(Entered:
10/13/2015)
Transcript of Jury Trial—Day
Thirty-Seven as to Dzhokhar A.
Tsarnaev held on March 23,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah)
(Entered:
10/13/2015)
*

* * * *
Transcript of Jury Trial—Day
Thirty-Six as to Dzhokhar A.
Tsarnaev held on March 19,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah)
(Entered:
10/14/2015)

*

* * * *
Transcript of Jury Trial - Day
Thirty-Eight as to Dzhokhar A.
Tsarnaev held on March 24,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) (Entered: 10/16/2015)

1564

1566

92
DATE

10/16/15

10/19/15

10/26/15

10/28/15

DOCKET
NUMBER PROCEEDINGS

1567

Transcript of Jury Trial—Day
Thirty-Nine as to Dzhokhar A.
Tsarnaev held on March 25,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) (Entered: 10/16/2015)
*

* * * *
Transcript of Jury Trial—Day
Forty as to Dzhokhar A. Tsarnaev held on March 26, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 10/19/2015)

*

* * * *
SEALED Transcript of Lobby
Conference as to Dzhokhar A.
Tsarnaev held on March 31,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) Unsealed pursuant to
order (docket no. 1749). Modified on 11/21/2018 (adminn,).
(Entered: 10/26/2015)

*

* * * *
Transcript of Jury Trial—Day
Forty-Two as to Dzhokhar A.
Tsarnaev held on March 31,
2015, before Judge George A.

1569

1573

1575

93
DATE

DOCKET
NUMBER PROCEEDINGS

OToole.
* * *
(Scalfani,
Deborah) (Entered: 10/28/2015)
10/29/15

1580

10/29/15

1583

10/29/15

11/5/15

*

* * * *
Transcript of Jury Trial—Day
Forty Three as to Dzhokhar A.
Tsarnaev held on April 6, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 10/29/2015)
Transcript Jury Trial—Day
Forty Four as to Dzhokhar A.
Tsarnaev held on April 7, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 10/29/2015)

*

* * * *
Transcript of Jury Trial—Day
Forty Five as to Dzhokhar A.
Tsarnaev held on April 8, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 10/29/2015)

*

* * * *
Transcript of Status Conference as to Dzhokhar A. Tsarnaev held on April 9, 2015, before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 11/05/2015)

1587

1592

94
DATE

12/14/15

12/28/15

1/5/16

1/25/16

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Transcript of Jury Trial—Day
Forty-Seven as to Dzhokhar A.
Tsarnaev held on April 21, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 12/14/2015)

*

* * * *
Transcript of Jury Trial—Day
Forty-Eight as to Dzhokhar A.
Tsarnaev held on April 22, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 12/28/2015)

*

* * * *
Transcript of Jury Trial—Day
Forty-Nine as to Dzhokhar A.
Tsarnaev held on April 23, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 01/05/2016)

*

* * * *
Transcript of Jury Trial—Day
Forty-One as to Dzhokhar A.
Tsarnaev held on March 30,
2015, before Judge George A.
OToole.
* * *
(Scalfani,
Deborah) (Entered: 01/25/2016)

1603

1609

1611

1624

95
DATE

DOCKET
NUMBER PROCEEDINGS

*
5/10/16

1659

5/10/16

1660

5/10/16

1661

* * * *
Transcript of Jury Trial Day
Thirty-Three (Jury View) as to
Dzhokhar A. Tsarnaev held on
March 16, 2015, before Judge
George A. OToole.
* * *
(Scalfani, Deborah) (Entered:
05/10/2016)
Transcript of Jury Trial Day
Sixty as to Dzhokhar A. Tsarnaev held on May 14, 2015, before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/10/2016)
Transcript of Jury Trial Day
Sixty-One as to Dzhokhar A.
Tsarnaev held on May 15, 2015,
before Judge George A. OToole.
* * *
(Scalfani, Deborah)
(Entered: 05/10/2016)
*

* * * *
Sealed filing [not on public
docket]

*

* * * *
Transcript of Jury Trial—Day
Fifty Three as to Dzhokhar A.
Tsarnaev held on April 30, 2015,
before Judge George A. OToole.
COA Case No. 16-6001. * * *

1668

7/25/16

1679

96
DATE

DOCKET
NUMBER PROCEEDINGS

(Scalfani, Deborah) (Entered:
07/25/2016)
11/21/16

11/13/19

*

* * * *
Transcript of Jury Trial Day
Fifty-Eight as to Dzhokhar A.
Tsarnaev held on May 11, 2015,
before Judge George A. OToole.
COA Case No. 16-6001. * * *
(Scalfani, Deborah) (Entered:
11/21/2016)

*

* * * *
Redacted second search warrant. Released pursuant to EOrder 1778. (Halley, Taylor)
(Entered: 11/13/2019)

1701

1779

*

*

*

*

*

97
[Photos of 2013 Boston Marathon finish-line area]

98

99
[Tsarnaev’s computer records]

100

101

102

103

104
[al Qaeda magazine accessed by Tsarnaev]

105

106

107

108

109

110

FOLDOUT SUPP. APP. V 1 PAGE 46

111

FOLDOUT SUPP. APP. V 1 PAGE 47

112

FOLDOUT SUPP. APP. V 1 PAGE 48

113
[Tsarnaev’s pre-bombing text messages]

114

115

116

117

118

119

120

121
[Tsarnaev’s pre-bombing tweets]

122

123

124
[Photo of Tsarnaev taking bombing position]

125
[Photos of bombing aftermath]

126

127

128

129

130

131

132

133

134

135

136

137

138

139
[Photos of shrapnel fragments
from Martin Richard’s autopsy]

140

141

142

143
[Tsarnaev’s post-bombing tweets]

144

145

146
[Tsarnaev’s post-bombing text messages]

147
[Photos of Tsarnaev engaging law-enforcement
officers in Watertown and driving SUV toward them]

148

149

150
[Photo of boat where Tsarnaev hid]

151
[Photo of Tsarnaev’s boat carving]

152
[Photos of Tsarnaev’s boat message]

153

154

155
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Tues., Mar. 10, 2015
9:35 a.m.
JURY TRIAL—DAY THIRTY

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

156
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant

[30-48]

* * * * *

Q. Is this the blood that was kind of trailing down
from the top of the note down?
A.

Yes.

Q. Does it appear as if the blood was on top of the writing?

157
A.

Yes.

Q. So the writing was done before the blood came
down?
A.

Yes.

MR. CHAKRAVARTY: For convenience of
reading, can we go to 830, please?
Q. I’ll read this panel and ask if I read it correctly.
“I’m jealous of my brother who ha”—then there’s a hole
—“ceived the reward of the jannutul Firdaus inshallah
before me. I do not mourn because his soul is very
much alive. God has a plan for each person. Mine was
to hide in his boat and shed some light on our actions.
I ask Allah to make me a shahied (iA) to allow me to return to him and be among all the righteous people in the
highest levels of heaven. He who Allah guides no one
can misguide. A”—then there’s a hole— “bar!” Did I
read that correctly?
A.
826?

Yes.
MR. CHAKRAVARTY:

Can we go back to

Q.

Does that accurately reflect what’s here?

A.

Yes.
MR. CHAKRAVARTY:

Go to 827, please.

Q. Is this the part of the boat that separated the first
[30-49] portion of the writing with this portion?
A.

Yes.

Q. And is this similar to the first portion of the writing
that there’s some blood stains as well as some holes
throughout the note?

158
A.

Yes.

Page 2.

MR. CHAKRAVARTY:

Go to Exhibit 830,

Q. I’m going to read this transcription and ask if I
read it correctly. “I bear witness that there is no God
but Allah and that Muhammad is his messenger.”
Then there’s a hole. “R actions came with”—another
hole—“a”—another hole—”ssage and that is”—hole—
“ha illalah. The U.S. Government is killing our innocent civilians but most of you already know that. As a
M”—and then a hole—“I can’t stand to see such evil go
unpunished. We Muslims are one body, you hurt one,
you hurt us all, well at least that’s how Muhammad
(pbuh) wanted it to be”—hole—“ever. The ummah is
beginning to rise/awa,” and then there’s a hole. Did I
correctly read that portion?
A.

Yes.

please?

MR. CHAKRAVARTY:

Can we go to 828,

Q. In 828, does the first two lines that we just read
appear on Exhibit 828, so this is a continuation of the
same portion of writing?
Yes.
[30-50]
MR. CHAKRAVARTY:
Page 3, please?

Can we go to 830,

Q.

And shaded out are the two lines we just read?

A.

Correct.

159
Q. “ . . . has awoken the mujahideen, know you
are fighting men who look into the barrel of your gun
and see heaven, now how can you compete with that.
We are promised victory and we will surely get it. Now
I don’t like killing innocent people it is forbidden in Islam but due to said”—hole—“it is allowed. All credit
goes”—then there’s big hole. Did I read that correctly?
A.

Yes.

Q. After you cleared the boat, what did you do with
this information that you had learned from the—reading
the inside of the hull?
A.

I immediately told an FBI agent.

Q. What were you and the remainder of the EOD
teams doing after you exited the boat?
A. We continued to clear the backyard and surrounding areas.
Q.

Was that scene secured?

A.

Yes.

Q. And then did the FBI ultimately come over and
process that scene?
A.

Yes.
MR. CHAKRAVARTY:

Thank you.

CROSS-EXAMINATION BY MR. BRUCK:
*

*

*

*

*

160
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Mar. 4, 2015
9:16 a.m.
JURY TRIAL—DAY TWENTY-SEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

161
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[27-23]
* * * * *
With that, then, we’ll proceed to the next stage with
the opening statements. The government will begin.
MR. WEINREB:
THE JURORS:

Good morning.
Good morning.

162
MR. WEINREB: Nearly two years ago, on Marathon Monday, the defendant, Jahar Tsarnaev, rounded
the corner onto Boylston Street and began walking towards the Boston Marathon finish line. It was about
2:30 in the afternoon. The race had started about six
hours earlier, and the sidewalks were packed with spectators. The Red Sox game had just ended, and people
were pouring out of Fenway Park, making the crowds
even bigger. There were people from all over the
world and all walks of life—men, women, boys, girls—
all loudly cheering on the runners. And because Marathon Monday falls on Patriots’ Day, the school holiday,
there were plenty of families enjoying the special day
with their children.
But the defendant wasn’t there to watch the race.
He had a backpack over his shoulder, and inside that
backpack was a homemade bomb. It was the type of
bomb favored by terrorists because it’s designed to tear
people apart and create a bloody spectacle. It was a
sealed pressure cooker about this wide and this high,
and it was filled with explosive powder and [27-24] thousands of pieces of tiny shrapnel: nails, tacks, and little
BBs. The purpose of that type of bomb is to shred
flesh, shatter bone, set people on fire, and cause its victims to die painful, bloody deaths and permanent disfigurement.
The defendant’s goal that day was to my maim and
kill as many people as possible, so he took his time figuring out where to plant his bomb. He began walking
slowly down towards the finish line with his brother,
Tamerlan, who was also carrying a bomb in his own
knapsack. They walked a little ways together, and
then they split up.

163
Tamerlan continued all the way down to the finish
line and planted his bomb there in a crowd of people.
The defendant waited a bit and then started walking in
the same direction. He decided to stop in front of a
crowded restaurant called Forum, and to place his bomb
right behind a row of children who were standing on a
railing by a curb—the curb watching the race.
One of those children was an eight-year-old boy
named Martin Richard who was watching the race with
his family. No one noticed the defendant plant the
bomb because there was nothing out of the ordinary to
see. He just got there, slipped his backpack onto the
ground, and stood there looking at the backs of those
children. He pretended to be a spectator, but he had
murder in his heart, although you wouldn’t have known
it just to look at him.
[27-25]
The defendant looked and acted like a typical young
adult, but the evidence will show that he wasn’t. He
had a side to him that he kept hidden, even from his closest friends. When he was with his friends, he hung out
and played video games. But when he was by himself,
he read terrorist writings and listened to terrorist lectures. Those writings and lectures convinced him that
he should kill innocent Americans in order to punish the
United States for mistreating Muslims in other countries. And by doing so, he thought he would earn a
place in paradise, which explains what happened next.
The defendant stood there for nearly four minutes directly behind the row of children who were watching the
race. Dozens of people stood around him, and dozens
more were behind him in the Forum restaurant enjoying

164
a meal with friends, cheering on the runners, or just enjoying the day. Then when the defendant had given his
brother, Tamerlan, enough time to get into place, he
called Tamerlan on the phone and spoke to him for about
20 seconds. About ten seconds later, Tamerlan detonated his bomb. A few seconds after that, the defendant walked briskly back the way he had come, leaving
his own bomb behind him on the ground. When he was
a safe distance away, he detonated the bomb by remote
control.
The explosions from the two bombs were terrifying.
They made a defining roar and created fireballs several
stories high. The air filled with the smell of burning
sulphur and [27-26] people’s screams. Pieces of the
pressure cookers and thousands of pieces of tiny shrapnel were propelled with huge force in every direction.
Some of them landed hundreds of feet away.
The defendant’s bomb exploded in the middle of a
crowd of people. Pieces of the pressure cooker and bits
of shrapnel tore through them, shredding their flesh and
severing their arteries. The explosion deafened many
of them and set others on fire. Some of them were
blinded. Many had a leg or a foot blown off their bodies, and some bled to death on the pavement while the
defendant ran away.
One person the defendant murdered that day was
Martin Richard. As I said earlier, he was one of the
children standing on the railing watching the race.
Martin was eight years old. He was at the marathon
with his father, Bill Richard; his mother, Denise; his sixyear-old daughter [sic], Jane; and his 11-year-old
brother, Henry. They were all standing together waiting for a family friend to cross the finish line.

165
The bomb tore large chunks of flesh out of Martin’s
body. As the smoke cleared, Denise Richard found her
little boy lying on the ground and tried to comfort him.
She could only half see him because the bomb had permanently blinded her in one eye. Martin bled to death
on the sidewalk as she looked helplessly on. Bill Richard, who had been blown into the street, came back to
the curb and reached out to Jane to pick [27-27] her up
off the sidewalk. When she tried to stand up, she fell
down again because her leg was no longer attached to
her body.
Another person the defendant murdered that day is
Lingzi Lu, a student at Boston University. She was a
23-year-old known for her kindness and her passion for
music. She was at the marathon with her friend, Danling. They just happened to be walking by the Forum
restaurant when the bomb went off.
That blast
knocked Danling to the ground. When she opened her
eyes, she saw a man in front of her missing his leg. She
looked down to see if her own legs were still there, and
she saw that her insides were coming out of her stomach,
so she used her hands to push them back in. She
looked around to find her friend and saw her lying a few
feet away. Lingzi was screaming in pain and terror,
but Danling couldn’t hear her because the bomb had
deafened her. Danling never saw her friend again because Lingzi, like Martin Richard, bled to death on the
sidewalk.
A third person the defendant murdered that day was
Krystle Marie Campbell. Krystle was 29 years old.
She was at the finish line with her good friend, Karen
Rand. They were there to cheer on Karen’s boyfriend,
who was running the race. Krystle was killed by the

166
bomb that the defendant’s brother set off. It burned
her skin, filled her with shrapnel, and opened gaping
wounds in her legs and torso. It also knocked her
friend, Karen Rand, to the ground and blew off Karen’s
leg. [27-28] Karen held Krystle’s hand tight as the
life drained out of her body.
Now, even though the defendant’s brother set off the
bomb that killed Krystle Campbell, the defendant is still
responsible for her death. That’s because he and his
brother were partners in crime. They planned these
crimes together, and they carried them out together.
The defendant knew that his brother’s bomb was going
to kill people, just like he knew his own bomb was.
That’s exactly what he wanted to have happen.
As soon as those bombs went off, Boylston Street
erupted into chaos. The wounded lay on the sidewalk
in pools of their own blood, wondering if they were going
to live. Others fled the scene. But in the midst of the
chaos, some people sprang into action. Police officers,
medical personnel, family members and friends of the
dead and dying, many of them jumped in to offer aid.
There were a lot of heroes that day, and you’ll hear from
some of them.
What was the defendant doing while people were
frantically trying to save the wounded from bleeding to
death on the street? We know the answer because he
was caught on a surveillance tape. Just 20 minutes after he set off that bomb on Boylston Street, while paramedics were still giving CPR to Martin Richard in a futile attempt to try to save his life, the defendant drove
to the Whole Foods in Central Square and [27-29] purchased a gallon of milk. You’ll see him on the surveillance tape walking into the Whole Foods, going over to

167
the milk counter, shopping for the milk, choosing which
one to buy, going back to the counter, calmly paying for
it, and walking out of the store. You’ll even see him
come back a minute later and decide to exchange that
milk for a different type of milk.
And what did he do after that? While victims of the
bombing lay in the hospital and learned that they would
have to have their limbs chopped off to save their lives,
the defendant pretended that nothing had happened.
He went back to UMass Dartmouth, where he was enrolled as a sophomore. He hung out with his friends
and partied. He went to the gym and played video
games. He posted a message on Twitter that said, “I’m
a stress free kind of guy.” He acted like he didn’t have
a care in the world.
The defendant acted that way because he believed
that what he had done was good, was something right.
He believed that he was a soldier in a holy war against
Americans and that he had won an important victory in
that war by killing Martin Richard, Lingzi Lu, and
Krystle Campbell. And he also believed that by winning
that victory, he had taken a step toward reaching paradise. That was his motive for committing these crimes.
How do we know that? We know it in part because
the defendant wrote out an explanation of why he committed these [27-30] crimes. The police found that
writing when they arrested him, and you will see it later
on in court. This is part of what the writing said: “I
ask Allah to make me a shahied to allow me to return to
him and be among all the righteous people in the highest
levels of heaven. Allah Akbar.” “Shahied” means martyr, and “Allah Akbar” means God is great.

168
The defendant wrote, “The U.S. government is killing our innocent civilians, but most of you already know
that. I can’t stand to see such evil go unpunished. We
Muslims are one body. You hurt one, you hurt us all.
The ummah is beginning to rise. We are promised victory, and we will surely get it.” “Ummah” is a word
that people with the defendant’s beliefs use to describe
the Muslim people.
The defendant wrote, “Now, I don’t like killing innocent people. It is forbidden in Islam. Stop killing our
innocent people, and we will stop.”
The defendant carried out an attack on the Boston
Marathon because he believed that the United States
government is the enemy of the Muslim people. He believed that punishing America by killing innocent young
women and children would cause America to stop targeting Muslim terrorists overseas and help win him a
spot in heaven. And you will hear evidence of how he
acquired that belief. He acquired it by reading books,
listening to songs, and watching videos that were created by other terrorists, and they convinced him that he
should become [27-31] a terrorist too.
The defendant’s transformation into a terrorist took
place over a year or two. In 2011, he started reading
terrorist writings and posting online messages about the
persecution of Muslims. In 2012, he started listening
to terrorist lectures and songs. He told one of his
friends that he had a plan to reach paradise. In 2013,
he created an online identity that he used to spread radical Muslim ideas. He said that people don’t take notice when Muslims die over there, meaning overseas, but
if something happens over here, meaning in America,

169
then everybody takes notice.
how to make a bomb.

He also said that he knew

You will hear that the defendant had terrorist writings, videos, and lectures on his laptop computer, on his
iPod and on CDs in his car. We will show you many of
those writings and videos during the trial, and you’ll
hear evidence that reading those kinds of writings and
listening to those lectures, watching those videos, is a
common way that young adults like the defendant turn
into terrorists themselves.
One of the things the defendant had on his computer
was a virtually complete set of Inspire Magazine.
That is a magazine published in English by a group that
calls itself al-Qaeda in the Arabian Peninsula. The goal
of Inspire Magazine is to do just that: to inspire young
men like the defendant to become terrorists and to encourage them to attack [27-32] western countries, regardless of whether they’re associated with a terrorist
organization.
It’s filled with stories of terrorists who punished
America by killing innocent people, and it treats them as
glorious heroes. It gives instructions on the best way
to commit attacks so as to terrify people and kill as many
people as possible.
One of the issues in Inspire Magazine that the defendant had on his computer contained instructions for
making a bomb out of a pressure cooker filled with explosive powder and shrapnel. It recommends placing
it in a crowded area to maximize its deadly effect. The
defendant and his brother began accessing those instructions around Christmas of 2012. Later, the defendant’s brother bought pressure cookers to hold the

170
explosive powder and remote-control cars that were
turned into remote-control detonators. They filled the
bombs with explosive powder emptied from ordinary
fireworks, as well as nails, tacks, and BBs to make them
more deadly.
A few months before the marathon bombing, the defendant got a 9-millimeter handgun. He told a friend
of his named Stephen Silva that he needed a gun, so
Silva got him a Ruger semiautomatic pistol with the serial number filed off. Silva will be a witness in this
case, and he’ll testify about giving the Ruger to the defendant.
It is clear that the defendant intended to use the
[27-33] Ruger because on March 20th, 2013, just about a
month before the marathon attack, he and his brother
drove to the Manchester firing range in New Hampshire
to practice shooting. The defendant rented two 9-millimeter pistols, just like the Ruger, and purchased four
boxes of ammunition, and then he and his brother spent
about an hour on target practice.
After bombing the marathon on April 15th, the defendant maintained his double identity. He acted normal around his friends. He pretended to them that he
hadn’t even been at the Boston Marathon, and he continued reading the terrorist writings and listening to the
terrorist lectures on his computer. For example, you’ll
hear evidence that on April 16th, the day after the bombing, the defendant opened up the copy of Inspire Magazine on his computer that contained instructions for
building pressure cooker bombs and pipe bombs; and
then you’ll hear that a few days later, he and his brother
exploded several pipe bombs and another pressure
cooker bomb, this time in Watertown.

171
Now, I want to go back to April 15th and talk about
what happened after the bombings over the next few
days on Boylston Street. As soon as the bombs exploded, police officers halted the marathon midway and
everyone—made everyone leave the scene.
Bomb
technicians began checking for additional bombs. Ambulances came and took the wounded to hospitals. And
then the long, painstaking process of gathering [27-34]
evidence began.
Three consecutive blocks of Boylston Street were
roped off and treated as a crime scene. FBI agents and
hundreds of other federal, state, and local law enforcement officers donned special clothing and began scouring the area for evidence. Among all the blood and human remains, they found shredded cloth from the backpacks, pieces of the exploded pressure cookers, and
wires and batteries from the remote-control devices
used to detonate them.
And they found hundreds of pieces of shrapnel, little
nails, tacks, and BBs. They found them on the street,
they found them inside buildings, on the tops of roofs,
and ER doctors found them on the bodies of the victims
they were treating at the hospital, in their hair, in their
clothing, and in their bloody wounds. The police also
collected surveillance tapes from businesses on Boylston Street and elsewhere, and photos and videos from
members of the public who had been there watching the
race.
Now, as I said earlier, the defendant exploded his
bomb right in front of a restaurant called Forum, and
that restaurant has a surveillance camera that is right
over the door of the restaurant, and it happened to be
pointing directly at the place where the defendant

172
placed his bomb. The surveillance tape shows the defendant walk up to that spot. He’s got a backpack
slung over his shoulder. And the moment he [27-35]
gets there, he dips his shoulder, and after that, you
never see the backpack on his back again. But photographs show that it’s at his feet.
It shows him stop right behind Martin Richard and
the other children who are lined up on the railing watching the race. It shows him stand there looking at them
and looking over their heads at the runners. Then it
shows him make the phone call to his brother. A few
seconds later, everyone in the Forum snaps their head
to the left, towards the finish line, as the first bomb explodes. Almost immediately, the defendant begins
walking rapidly in the other direction. As soon as he
reaches a safe distance, his bomb explodes.
That video revealed that the defendant was one of the
bombers, but the FBI didn’t know who the defendant
was. They had a face but not a name. So they started
looking at all the other surveillance tapes, seeing if they
could find him walking up to that spot. And they did
find him, and they found him walking with another man,
who turned out to be the defendant’s brother, Tamerlan.
Tamerlan also had a backpack on. So now the FBI had
two suspected bombers. They had two faces but still
no names.
Three days passed while the FBI and other law enforcement officers worked around the clock trying to
identify who the two men in the video were. At the end
of three days, they decided it was time to ask the public
for help. So on [27-36] Thursday, April 15th [sic], at 5
p.m., almost exactly three days after the bombings occurred, the FBI published some of those surveillance

173
videos and still photos from the surveillance videos on
its website, and they had a press conference where they
asked members of the public to call in if they had any
idea who those two men were.
News stations broadcast those videos and those photos all around the country and around the world. A few
hours later, at 8:45 p.m., the defendant got a text from
his good friend, Dias Kadyrbayev.
Dias texted, “You saw the news?”
The defendant texted back, “Yeah, bro, I did.”
Dias texted, “For real?”
The defendant texted back, “I saw the news.
not text me, my friend. LOL.”

Better

Dias texted, “You saw yourself in there?”
The defendant didn’t answer directly.
He just
texted back, “If you want, you can go to my room and
take what’s there.” That’s exactly what Dias did. He
and two other of the defendant’s friends went to his
dorm room at UMass Dartmouth. They searched it,
and they found a backpack containing fireworks that
had been partially emptied of their explosive powder.
They took that backpack, and they threw it into a Dumpster to get rid of the evidence, but fortunately the police
later were able to recover it. They also took the defendant’s [27-37] laptop computer and brought it back to
their apartment in New Bedford.
Meanwhile, the defendant and his brother went out
in search of another gun. They drove by the MIT campus, which was close to their apartment, and they saw a
police officer sitting in his cruiser next to a building.
The police officer was named Sean Collier. He was a

174
27-year-old from Somerville. Students loved him because he was a friendly guy and took an active role in
campus life.
A surveillance video shows what happened next.
Now, unfortunately, the surveillance camera that took
this video was very far away. It was on top of a very
high building, the distance from where the car was, and
it was so far away that the human figures in it appear
tiny. It’s impossible to see their faces or exactly what
they’re doing with their hands. Even so, it shows
enough for you to be certain, in conjunction with other
evidence that I’ll tell you about, that the defendant and
his brother killed Officer Collier.
The video shows two men walk through the courtyard
and round the corner where Sean Collier is sitting in his
cruiser. So they round one corner, walk all the length
of the building, walk around the corner right to the
cruiser. As soon as they reach the car, they open the
door.
A few seconds later you can see a young man ride his
bicycle right by the cruiser. The man on the bike was
an MIT [27-38] graduate student named Nate Harman.
He’ll testify that as he rode by, he saw a man leaning
into the driver’s side of the cruiser, and he startled him.
The man looked up in surprise and looked directly into
Mr. Harman’s face, and Mr. Harman’s description of the
man matches the defendant exactly.
At the same time the video shows the two men standing by the side of the car, a student working in an office
that had a window right above where the cruiser was
parked called MIT’s version of 911 and reported hearing
six possible gunshots from below. Shortly after the

175
call was made, the video shows the two men, the defendant and his brother, run away from the car back the way
that they came. Five minutes later, fellow officers responded to the scene and found Officer Collier dead in
his cruiser.
The evidence will show that the defendant and his
brother used the defendant’s Ruger, the one that he had
gotten from his friend, to execute Officer Collier by
shooting him in the head at point-blank range twice in
the side of his head and once right between the eyes.
They also shot him three times in his right hand. Then
they tried to steal his gun from his holster, but they
couldn’t get the holster lock to open, so they gave up,
and they fled the scene.
You’ll know they tried to steal his gun from his holster because the holster had a two-stage lock to prevent
the gun from being pulled out by someone else. The
first stage is [27-39] easy to open, but the second one
isn’t, especially if you’re not the person wearing the holster. When other officers found Officer Collier in his
cruiser, they saw that the first stage of the lock had been
opened, but the second was still closed, and they also
saw that the gun and the holster were covered with
blood, as if somebody had been yanking at it, while the
rest of his utility belt was clean.
Now, because the surveillance camera was so far
away, you can’t see the defendant and his brother do the
actual shooting. So the video doesn’t reveal whether
the defendant pulled the trigger, whether his brother
pulled the trigger, or whether they both did, but it
doesn’t matter. They both murdered him. And other
evidence, which I’ll talk about in a few minutes, leaves

176
no doubt that they are the ones who killed Officer Collier
and that they did it with the defendant’s gun.
After murdering Officer Collier, the defendant and
his brother got back into their Honda Civic, which was
loaded with additional bombs, another pressure cooker
bomb, like the one that had exploded on Boylston Street,
and at least four pipe bombs. Their plan was to drive
to New York City, but they needed a different car, one
that couldn’t be traced back to them or the murder of
Sean Collier, so they drove in to Boston to find one.
About 20 minutes later, they found what they were
looking for: a young Chinese man named Dun Meng,
who was [27-40] sitting in a leased Mercedes SUV next
to the AutoZone in Brighton reading a text message on
his cell phone. The defendant and his brother drove up
in their Honda Civic, and the defendant’s brother got
out. He went over to the passenger side of Mr. Meng’s
car, and he knocked on the window, and he signaled to
Mr. Meng to roll it down. When Mr. Meng did, the defendant’s brother reached inside, opened the lock,
opened the door, and got into the car, and then he
pointed the defendant’s gun in Mr. Meng’s face.
He demanded that Mr. Meng give him all of his
money, and Mr. Meng did, but he only had $40 on him.
The brothers wanted more, so the defendant’s brother
told Mr. Meng to start driving, and the defendant followed in the Honda Civic. A nearby surveillance camera captured both cars driving away from the scene.
They kept driving until they got to a quiet block in
Watertown, and then they parked, one behind the other.
The defendant got out and transferred all of the bombs
from the Honda into the trunk of the Mercedes. Then

177
he, himself, got into the backseat of the Mercedes, and
the three of them drove to an ATM in—a Bank of America ATM in Watertown Square. When they got there,
the defendant took Mr. Meng’s ATM card, demanded his
password, and robbed him of $800 by using the ATM machine to withdraw it from Mr. Meng’s bank account.
That $800 was still inside the defendant’s wallet when he
was arrested [27-41] the next day.
After robbing Mr. Meng, the defendant and his
brother drove Mr. Meng to a Shell station on Memorial
Drive in Cambridge. They got there about 12:15 a.m.
The defendant and his brother had murdered Sean Collier less than two hours earlier, and their terrified carjacking victim was still inside the car. Even so, the
first thing the defendant did when they got to the gas
station was to leave his brother inside the Mercedes
with Mr. Meng and go inside the Shell station to buy
snacks. You’ll see him shopping for those snacks on
the Shell station video. He takes his time. He’s not
concerned. He makes sure he’s getting exactly what
he wants.
But then things took a bad turn for the defendant.
While he was inside the Shell station shopping for
snacks, Mr. Meng realized that this might be his last
chance to escape before the defendant and his brother
have no longer any use for him. So in a flash, while the
defendant’s brother’s hands were occupied programming the GPS, Mr. Meng undid his seatbelt with one
hand, opened the door with the other, jumped out of the
car, and sprinted across the street to the Mobil station.
You’ll see him on a surveillance camera springing across
the street and entering the Mobil station. And when

178
he gets there, you’ll see the terrified look on his face,
and you’ll hear it in his voice on the 911 tape.
After Mr. Meng called 911, the police responded to
the [27-42] Mobil station and they interviewed Mr.
Meng. They got all the information about the Mercedes, and they began tracking its location in real time
using the GPS system in the car. By that time, the defendant and his brother had driven back up to that block
in Watertown where they had left the Honda Civic.
The defendant had gotten back into the Honda Civic, his
brother remained in the Mercedes, and they had begun
driving back in the direction of Boston in the two cars.
The GPS tracking system in the Mercedes revealed
that it was moving south on Dexter Avenue, which is a
quiet, residential street in Watertown. A Watertown
police officer named Joe Reynolds heard on his police
radio that the Mercedes was wanted in a carjacking, and
he began driving north on Dexter Avenue. He had no
idea that the two people driving the cars were the Boston Marathon bombers.
As Officer Reynolds drove north on Dexter, the defendant and his brother were driving south. The defendant was in the Honda. He was in the lead. The
defendant’s brother was in the Mercedes. He was following. As the two cars drove past Officer Reynolds,
Officer Reynolds made a U-turn and began following
them.
The defendant decided to turn onto Laurel Street,
which is another quiet residential street in Watertown,
and his brother followed him. It was nearly one in the
morning. The houses lining both sides of the street
were dark and quiet. [27-43] The street wasn’t well lit.

179
The defendant stopped his car in the middle of the street
and got out, and his brother followed his lead and did the
same. As soon as Officer Reynolds turned onto Laurel
Street to follow them, they fired a bullet through his
windshield, trying to kill him. Officer Reynolds backed
up a short distance, got out of his car, and began shooting back.
Another Watertown police officer, Sergeant John
MacLellan, was on the street within seconds. As soon
as he turned onto Laurel Street, the defendant and his
brother tried to kill him too. They shot at him with the
defendant’s gun while he was still in his car. Rather
than back up, he put his car into drive, got out, and let it
roll slowly down the street towards the brothers so that
he and Officer Reynolds could take cover behind it.
And that’s what they did. They walked behind it,
shooting as they went.
The defendant and his brother did everything in their
power to kill those two officers. They shot at them with
the defendant’s Ruger, and they began throwing pipe
bombs at them. Two of those bombs exploded within
feet of the officers. Two others failed to detonate.
Eventually, the defendant hurled a pressure cooker
bomb at the officers. It exploded with a thunderous
boom and created a massive fireball. Shrapnel rained
down on the officers and blew in the homes on Laurel
Street where the residents were cowering in terror.
A third Watertown police officer, Sergeant Jeffrey
[27-44] Pugliese, arrived on the scene. He ran around
the backs of some houses to get as close to the defendant
and his brother as he could. The defendant’s brother
saw Sergeant Pugliese in the side yard of the house and
began shooting at him. Sergeant Pugliese just stood

180
there and shot back. Eventually, the defendant’s brother
ran out of ammunition. He began walking rapidly
down the street towards Officer Reynolds and Sergeant
MacLellan. Sergeant Pugliese ran after him. He
tackled him and tried to handcuff him. Officer Reynolds and Sergeant MacLellan jumped in.
While they were doing that, the defendant got back
into the Mercedes, which was pointing away down the
street, turned it around, and began driving at the three
officers at top speed trying to mow them down. He
must have known they were trying to arrest his brother,
but he cared more about killing them than he cared
about his brother’s life.
Officer Reynolds and Sergeant MacLellan saw the
car coming. They jumped off and took cover and told
Sergeant Pugliese to do the same, but Sergeant Pugliese
didn’t. He grabbed the defendant’s brother by his belt
and tried to drag him out of the way of the coming Mercedes. At the last possible second, when the Mercedes
was almost on top of him, Sergeant Pugliese rolled to the
side. The defendant ran right over his brother and
dragged his body about 50 feet down the street. He
sideswiped Officer Reynolds’ cruiser, which shook
[27-45] his brother’s body loose, and continued driving
away at top speed.
As he sped by, other officers who had responded to
the scene and were waiting down there at the end of the
street, began shooting at the Mercedes. One of them
was an MBTA officer named Richard Donohue. Officer Donohue was shot in the thigh by a stray bullet.
It severed an artery, and he began bleeding heavily.
Other officers tried to stanch the flow of blood, but it
was impossible. Officer Donohue lost so much blood

181
that he stopped breathing and nearly died. Fortunately, paramedics arrived, quickly got him to a hospital
where doctors were able to save his life.
The defendant drove a few more blocks and then
ditched the Mercedes in the middle of the street. He
made his way through the quiet, sleeping neighborhood
to a house with a dry-docked boat in the backyard. The
boat was a good size. It was about 22 feet long, about
8 feet wide, and it was up on a trailer, and it was covered
with a tarp. It was still the end of winter, and it was
covered with a tarp to protect it from the elements. It
must have struck the defendant as a good place to hide
out while the police searched for him.
Although the defendant had been shot and was bleeding, he still had his wits about him. He smashed the
cell phone that he had used to call his brother right before they detonated the bombs. He also smashed his
other cell phone. By [27-46] smashing those phones, he
destroyed some of the evidence of what he had done,
such as text messages between him and his brother that
were stored on his phone. He also made it impossible
for the police to use the GPS devices in the phones to
figure out his location. Once he had smashed the
phones, he took out Dun Meng’s ATM card, which he
still had, and he tried to hide it, along with the smashed
phones, in a kind of ditch by where the boat was. But,
again, the police searched the area and found it later.
Once he had destroyed and hidden the evidence, he
climbed into the boat and hid. Meanwhile, the police
cordoned off a whole section of Watertown where they
knew the defendant might be hiding, and they searched
all night and all the next day, but they couldn’t find him.
When they finally decided to call off the search for the

182
day, David Henneberry, the man who owned the boat,
went outside to check on it. Mr. Henneberry saw that
the tarp covering the boat was loose, and he climbed a
short ladder to investigate. When he lifted the tarp to
look inside, he saw the defendant lying there, so he went
back into his house and called 911.
The police showed up quickly and surrounded the
boat. Several officers saw what they considered suspicious movement and fired on it. That triggered a barrage of shots at the boat. Then hostage negotiators arrived and tried to talk the defendant into surrendering.
Eventually they succeeded. The [27-47] defendant
climbed out of the boat, and the police arrested him.
That’s when the police found the writing I mentioned
earlier, the one where the defendant explained that he
had bombed the marathon to punish America for mistreating Muslim people. He had written that explanation in pencil on an inside wall of the boat while he was
hiding inside of it, and you will see the writing itself, the
pencil he used to write it, and other evidence that was
found in the boat.
Meanwhile, officers had been combing Laurel Street
and Dexter Streets for evidence. One of the first places
they looked was the Honda Civic that the defendant had
been driving. When the defendant escaped from Laurel Street in the Mercedes, he left the Honda Civic behind. On the floor of the Civic, on the driver’s side,
right beneath the defendant’s feet where he had been
driving, officers found two bloody white gloves. DNA
analysis shows that the blood on those gloves came from
Officer Collier. That is one of the ways you will know
that the defendant and his brother are the ones who
killed Officer Collier.

183
Another piece of evidence found in the Honda was the
defendant’s key ring, which had a UMass Dartmouth tag
on it, and his car key, the same key he had used to drive
the Honda to Laurel Street. Those items also were
bloody, and once again, DNA analysis shows that the
blood came from Officer Collier. That’s yet another
way you’ll know that the defendant helped [27-48] kill
Officer Collier that night.
Officers also found the defendant’s Ruger, a BB gun
that looks exactly like a Ruger, and 54 spent Ruger casings, meaning shells from bullets that had been fired
from the Ruger. All of the Ruger casings were matched
by a ballistics expert to the defendant’s Ruger.
Now, six Ruger casings were also found at the MIT
crime scene, three inside the cruiser and three outside
of it. A ballistics expert examined those, and they also
matched the defendant’s Ruger. And that’s yet another way you will know that the defendant and his
brother murdered Officer Collier that night using the
defendant’s gun.
You’re going to see all of the ballistics evidence, you’ll
hear from the ballistics expert, and you’ll hear from the
DNA expert who examined the gloves and the key ring.
Shrapnel from the bombs the defendant used on Laurel Street and pieces of the pressure cooker were found
everywhere. They were inside people’s cars, on their
front lawns, in their backyards, on their roofs, even inside their homes. Slugs from the Ruger were also
found inside people’s homes, some of them embedded in
their—in their interior walls. We will show you maps,
diagrams, photographs of them.

184
Now, you’ve heard me talk a lot about the defendant’s
brother, Tamerlan, but you won’t be seeing him in the
courtroom. That’s because the defendant killed him by
running [27-49] him over with this Mercedes. Tamerlan’s bullet wounds also contributed to his death. But
even though Tamerlan won’t be in the courtroom, this
case involves him too. That’s because he and the defendant were partners.
They agreed to do these
crimes together, and they carried them out together.
The judge will instruct you that when two people
agree to commit a crime together, they’re guilty of conspiracy. And the defendant is charged with three
counts of conspiracy: conspiracy to use a weapon of
mass destruction, conspiracy to bomb a place of public
use, and conspiracy to destroy property with explosives.
The defendant is also charged with many substantive
counts of using a weapon of mass destruction, arming a
place of public use, and destroying property with explosives. And he’s charged with many counts of using
guns and explosives to commit violent crimes. Even
though he and his brother played different roles in each
of these crimes, they are both equally guilty of committing them because they carried them out as partners.
Now, what do I mean when I say they were partners?
I don’t mean that they did exactly the same thing.
That’s not required for the defendant to be guilty under
the law. What I mean is that each one played a role in
committing the crime. For example, the defendant—
the defendant planted one bomb at the marathon, and
his brother planted the other one. The [27-50] defendant got his—got a gun from his friend, Stephen Silva,
and his brother stuck it in Dun Meng’s face. The defendant took Dun Meng’s ATM card and password and

185
robbed him of $800. The defendant’s brother told Dun
Meng where to drive. The defendant threw bombs at
the police in Watertown and handled the ammunition
while his brother fired shots at the officers. And both
brothers together murdered Officer Sean Collier and
tried to steal his gun.
So even though Tamerlan Tsarnaev is not here, we
will be offering evidence about his role in these crimes,
but the focus is going to be on the defendant. That’s
because this is his day in court. He’s the one the government has to prove guilty, not his brother. It’s important for you to hear all the evidence against the defendant so that at the end of the trial you have what you
need to find him guilty. It’s far less important for you
to hear all the evidence against the defendant’s brother.
In the end, it doesn’t matter what role each of them
played, so long as you find that they were partners and
carried out these crimes together.
Now, as you can tell from what I’ve said, there’s a lot
of evidence in this case. Some of the witnesses are just
going to talk about how and where things were found.
Others will simply testify that things are what they appear to be. We need to call those witnesses because
you need to have confidence in the evidence, but we’ll do
our best to streamline [27-51] its—its introduction into
evidence and make that go as fast as possible, if we can.
I want to conclude just by telling you a bit about the
order in which we’re going to present the government’s
case. We’ll start with the marathon bombings and the
collection of evidence at the marathon crime scenes.
We’ll show you some of the surveillance video, photos
and—photos from the people who were at the—the marathon before the bombs went off that the FBI used to

186
identify the defendant and his brother as suspects in the
bombing.
Then we’ll put on evidence of what the defendant did
in the days after the bombings and of the manifesto he
wrote on the inside wall of the boat. Next we’ll put on
evidence of the events on April 18th and 19th, how the
FBI published photos of the defendant and his brother
on their website and held the press conference; how the
defendant and his brother then murdered Officer Collier, carjacked, kidnapped, and robbed Dun Meng, and
tried to kill police officers in Watertown with gun—with
a Ruger and with bombs.
After hearing about all the evi- —the events that led
up to the defendant’s arrest, you’ll hear about all the evidence that was collected from the Watertown crime
scene and analyzed by the experts, including the bloody
gloves, the bloody car keys, the Ruger, and all the ballistics evidence. You’ll also hear about evidence collected from the defendant’s [27-52] residence in Cambridge and from his dorm room at UMass Dartmouth.
One of the most important pieces of evidence is the
defendant’s laptop computer, the one that his friends
took from the dorm room. The police got that computer and analyzed it. As with a lot of people, the defendant’s computer is a window into his life, especially
into the part of him that he kept mostly hidden from his
friends.
You’ll hear a lot of evidence about all of the terrorist
materials that were on his computer and the other digital devices that he owned. And you’ll hear about other
things that the defendant said and wrote that shed light
on the sources of his terrorist beliefs. Some of those

187
are papers he wrote for school, and some are things he
wrote to friends and emails and text messages and
posted on social media.
You’ll also hear from the medical examiners who examined the bodies of the four people the defendant murdered.
MR. BRUENNER:
please.
THE COURT:

I’m sorry?

MR. BRUENNER:
THE COURT:

If you could choose number 4,

If you could choose 4, please.

Do you want a feed?

Jurors in the back row, just as you see monitors in
the front row, there are between your seats a console.
You can lift up the monitor, and—actually, it may not be
at the very end. I think you may have to look in front.
[27-53]
MR. WEINREB: Each of the medical examiners
who examined the people who died in this case will be
testifying. And they’ll tell you that Sean Collier was
killed by multiple gunshot wounds to the brain. Krystle
Campbell had blast injuries to her head, neck, body, and
limbs. Her back was burned red; and her head, body,
and legs were filled with shrapnel. There were gaping
wounds in her legs that had drained virtually all of the
blood from her body.
Lingzi Lu was cut, battered, and bruised. The
bomb that the defendant detonated blew large perforating holes in her legs that caused her to bleed to death.
Martin Richard was only 4 feet, 5 inches tall, and he
weighed only 70 pounds. Because of his size and

188
height, the bomb damaged his entire body. The defendant blew large holes into Martin’s chest and abdomen, exposing his ribs and organs and eviscerating his
bowels. He blew Martin’s arm nearly entirely off his
body, burned his skin, and drove BBs and nails into his
legs. Martin lost so much blood that he had virtually
none left in his body by the time he was brought to the
morgue. He died at the scene from his wounds.
In the end, the evidence will prove to you beyond a
reasonable doubt that the defendant committed all 30
crimes that he is charged with. He murdered Martin
Richard, Lingzi Lu, Krystle Campbell, and Sean Collier.
He used weapons of mass destruction at the Boston
Marathon to terrorize the [27-54] country and to influence American foreign policy.
He used guns and
bombs in Watertown to continue his campaign of terror,
and he did it all because he believed that America
needed to be punished for killing Muslims overseas.
He did it to advance a cause that he believed in. And
he did it because he thought it would help secure him a
place in paradise. That is why, at the end of the case,
we will ask you to find him guilty of all 30 counts in the
indictment. Thank you.
THE COURT:

Ms. Clarke?

MS. CLARKE: We meet in the most tragic of circumstances, tragedy in the lives of the victims of the
bombings, lives that were lost and torn and shattered:
the loss of a precious eight-year-old boy, whose smile
captured all of our hearts; a young woman who—with an
infectious laugh, who was always there for her friends
and her family; a young graduate student whose passion
for music was so clear, and she embraced Boston as her

189
home away from home; and a very fine young police officer whose lifelong dream was to protect and serve.
The circumstances that bring us here today still are
difficult to grasp. They’re incomprehensible. They’re
inexcusable. You just heard about the devastation, the
loss, and the unbearable grief, and we’re going to see it,
feel it, and agonize with every witness who comes to talk
about what they saw, they felt, and they experienced and
what happened to [27-55] them and to those that they
love.
For the next several weeks, we’re all going to come
face to face with unbearable grief, loss, and pain caused
by a series of senseless, horribly misguided acts carried
out by two brothers: 26-year-old Tamerlan Tsarnaev
and his younger brother, 19-year-old Jahar.
The government and the defense will agree about
many things that happened during the week of April
15th, 2013. On Marathon Monday, Tamerlan Tsarnaev
walked down Boylston Street with a backpack on his
back, carrying a pressure cooker bomb, and put it down
in front of the Marathon Sports near the finish line of
the marathon. Jahar Tsarnaev walked down Boylston
Street with a backpack on his back carrying a pressure
cooker bomb and placed it next to a tree in front of the
Forum restaurant. The explosions extinguished three
lives. They unalterably injured and devastated many
others.
After their pictures were on television and on the Internet, Tamerlan and Jahar went on a path of devastation the night of April the 18th, leaving dead in their
path a young MIT police officer and a community in fear

190
and sheltering in place. Tamerlan held an unsuspecting driver, Dun Meng, at gunpoint, demanded his money
and compelled him, commanded him, to drive while
Jahar followed behind.
The evening ended in a shootout. You’ve heard
about it. Tamerlan walked straight into a barrage of
gunfire, [27-56] shooting at the police, throwing his gun,
determined not to be taken alive. Jahar fled, abandoned a car, and was found hiding in a boat.
There’s little that occurred the week of April the
15th—the bombings, the murder of Officer Collier, the
carjacking, the shootout in Watertown—that we dispute. If the only question was whether or not that was
Jahar Tsarnaev in the video that you will see walking
down Boylston Street, or if that was Jahar Tsarnaev
who dropped the backpack on the ground, or if that was
Jahar Tsarnaev in the boat—captured in the boat, it
would be very easy for you: It was him.
So you might say, why a trial?
Now, you’ve heard several instructions, and when we
sat in this courtroom at the table—you may remember
that—the judge talked to you about how this is a capital
trial. The government has elected to seek the death
penalty, and in a capital trial there are two phases—
MR. WEINREB:
MS. CLARKE:
THE COURT:

Objection, your Honor.
—one in which—

Overruled.

Go ahead.

MS. CLARKE: —one in which the jury makes a determination of guilt and one in which the jury makes the
determination of the appropriate penalty.

191
The indictment in this case is not that simple. It’s
30 counts. You heard the counts described. It’s 74
pages [27-57] long. There are complicated federal
charges involved. And there will be much for you to
analyze and decide.
But the essence of the charges are four sets of criminal acts: the bombings at the marathon that killed
three people and injured many others, the murder of Officer Collier, the carjacking, and the shootout in Watertown.
We do not and will not at any point in this case sidestep—attempt to sidestep or sidestep Jahar’s responsibility for his actions, but the indictment alleges, and the
prosecutor talked with you about why, and we think the
question of why is important, and this is where we disagree.
We have a different answer to this question: What
took Jahar Tsarnaev from this (indicating), Jahar and
his brother—what took Jahar Tsarnaev from this (indicating) to Jahar Tsarnaev and his brother with backpacks walking down Boylston? What took Jahar Tsarnaev from this to this (indicating)?
The government has told you their answer to the
question of why, and we ask you to look further. Clearly,
Tamerlan Tsarnaev became obsessed with violent Islamic extremism. He became increasingly religious in
a radical way. He traveled to Russia in—for six months
in 2012 and explored violent jihad with people over
there. He became aggressively obsessed with talking
about Islam because of his radical views and his insistence that people accept them and agree with them.
[27-58] He disrupted services at the mosques here in

192
Boston where he once fit in. It was Tamerlan Tsarnaev
who self-radicalized. It was Jahar who followed him.
The evidence will show that Tamerlan planned and
orchestrated and enlisted his brother into these series
of horrific acts. Tamerlan Tsarnaev did the Internet
research on the electronic components, the transmitter
and the receiver you’ll hear more about, for the two
bombs, and he bought them. Tamerlan Tsarnaev had
the Russian-translated version of how to build a bomb
on his computer. Tamerlan bought the BBs that were
in the shrapnel that were in the pressure cooker and the
pipe bombs. Tamerlan bought the pressure cookers.
Tamerlan bought the fireworks that went into making
the bombs. Tamerlan bought the ammunition. Tamerlan bought both of the backpacks. Rubber gloves
with explosive residue on them were found in Tamerlan’s car. Tamerlan led the way down Boylston Street.
Tamerlan shot and killed Officer Collier. Tamerlan
pointed the gun at Dun Meng, demanded his money,
commanded him to drive away, telling him, “I just killed
a police officer.”
You’ll hear evidence about computers and the electronic devices, phones, hard drives that were seized in
this case, and it will show that Tamerlan spent much of
his time on the Internet in death and destruction and
images of carnage in the Middle East. Make no mistake, Jahar Tsarnaev’s computer had many of the materials that the prosecutor told you [27-59] about: Inspire Magazine, “Join the Caravan,” a number of extremist materials that you’ll hear about. But there will
not be any evidence that Jahar downloaded those materials as if he were searching the Internet to find them.

193
The earliest traces of any extremist materials go
back to a thumb drive, a jump drive. You know what
I’m talking about? You stick in the computer and you
transfer files. The earliest traces of the extremist materials traced back to this thumb drive that has never
been found, but forensics can tell you about it. The last
traces of attachment—when you stick it into the computer and pull it out, the attachment into the computer
—were into Tamerlan’s laptop, Jahar’s laptop, and a
desktop computer that was at the Norfolk Street apartment where Tamerlan and his wife and daughter lived,
where the family had lived. The last known attachment was, then, the day that Tamerlan left for Russia
for six months in 2012.
So as you hear the computer evidence, please ask:
What’s the source of the document? Where else was it?
Who else had it? Where did it come from? Can I
know by the fact that it’s on there who put it there and
why?
An analysis of the computer evidence will, at baseline, show that both Tamerlan and Jahar’s computers
had this library of extremist materials, but the evidence
will also show you that, while Tamerlan Tsarnaev was
looking and immersed in death and destruction and carnage in the Middle East, Jahar [27-60] spent most of his
time on the Internet doing things that teenagers do:
Facebook, cars, girls. The evidence will also help point
you in the direction of understanding the flow of the materials: who got what first, who got the most, and who
had the most.
The evidence will not establish, and we will not argue,
that Tamerlan put a gun to Jahar’s head or that he

194
forced him to join in the plan, but you will hear evidence
of the kind of influence that this older brother had.
MR. WEINREB:
MS. CLARKE:
THE COURT:
ahead.

Objection, your Honor.
During the period of time—

Very limited evidence, if that, but go

MS. CLARKE:

Thank you, your Honor.

During the period of time when Tamerlan was becoming more radical and traveling to Russia and identifying with violent jihad, the evidence will show you what
was happening with Jahar. His parents: his dad,
Anzor; his mother, Zubeidat—
THE COURT: I think this is—yeah, I think the
family history is not appropriate, as I previously indicated.
MS. CLARKE: His parents left and moved back to
Russia. He was a student at UMass Dartmouth, but
things were not going very well. His grades were
plummeting; he wasn’t going to class; and he was in danger of failing out of school. [27-61] And Jahar, in one
of those tough times of adolescence, as we all know, became much more vulnerable—
MR. WEINREB:
MS. CLARKE:
THE COURT:

Objection, your Honor.
—to the influence—

No, go ahead.

MS. CLARKE: —of someone that he loved and respected very much: his older brother.
You’ll see from the evidence that Tamerlan had a special kind of influence dictated by his age, their culture,

195
and Tamerlan’s sheer force of personality. They committed the acts in April of 2013 that led to death and destruction, and they are inexcusable and for which Jahar
must be held responsible. But he came to his role by a
very different path than suggested to you by the prosecution: a path born of his brother, created by his brother,
and paid by his brother. And unfortunately and tragically, Jahar was drawn into his brother’s passion and
plan, and that led him to Boylston Street.
The government talked to you about writings that
were in the boat where Jahar was found hiding and
where he had found a pencil, and those writings are very
important to read in their entirety. And you’ll see
them. You’ll get to read them. But essentially what
Jahar wrote was, first, he expressed that he was jealous
of his brother who had achieved martyrdom and his wish
that he would as well. He wrote that he perhaps
[27-62] guessed that he was alive so that he could shed
some light on their motives, and he wrote words that he
had read and heard—read and heard—that the United
States was responsible for the suffering of Muslims
around the world.
We ask you to carefully evaluate the testimony—and
there will be testimony about these writings, not just the
writings themselves—but about the writings inside the
boat, where they came from, and how deeply rooted they
may or may not be.
And at the end of this first phase of the case, we think
that you will have the evidence that you need to make
the decisions about the 30 counts, about the four sorts
of—essence of the criminal charges. We think that you
will have the evidence that you need to weigh and analyze and make the decision in the first phase. But there

196
will be questions that we cannot answer now. There
will be questions that we ask you to carry over to the
second phase, as the judge has explained.
When we talked to you in voir dire around this table
centered in the courtroom, the government, the defense,
the Court was here. Most of you acknowledged that
you knew something about this case. And most of you
said—or many of you said that you had seen images of
devastation, and many of you knew about certain
events—
MR. WEINREB:
MS. CLARKE:

Objection, your Honor.
—and people whose lives—

[27-63]
THE COURT:
MS. CLARKE:

Go ahead.
—were changed.

But none of you would be sitting here today, right
now, had you not convincingly and with conviction told
us that you can remain open through this phase, that you
can hold your questions throughout the trial, and that
you can remain open—your hearts and minds open to
thinking about the evidence all the way.
Witnesses—many witnesses are about to start to be
called, some who work in forensics, some police officers
who risked their lives, a number of first responders who
cared for victims, a number of victims who were injured,
and survivors, eyewitnesses, people that lost loved ones.
We’re all going to see and listen to their testimony with
heavy hearts.
Holding your assurances to us that you can hold your
minds open to not only listening to the who, what, where,

197
and when, but to the how and why, those assurances are
going to be tested and going to be very difficult promises
to keep. Holding the questions that you have that can’t
be answered in this phase, holding them open—your
hearts and minds open until the second phase will not be
an easy task, but that’s what you promised when you
swore your oath as jurors. That’s what the judge expects. That’s what our system of justice expects. It’s
going to be a lot to ask of you to hold your minds and
hearts open, but that is what we ask.
[27-64]
Thank you.
* * * * *

198
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Mon., Apr. 6, 2015
9:59 a.m.
JURY TRIAL—DAY FORTY-THREE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

199
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant

[43-51]

* * * * *
* * * * *

We’re now going to turn to the closing arguments, or
closing statements, by the lawyers. And as I say, when
they’re finished we’ll have some more to say to you about
how to deliberate on the evidence.

200
The order of presentation of the closing statements
is the government goes first, followed by the defendant.
And if the government wishes, it may have the opportunity for a brief rebuttal. So we’ll begin with the government’s closing.
Mr. Chakravarty.
MR. CHAKRAVARTY:
your Honor?

Just a moment to set up,

THE COURT: For the convenience of the reporter,
we’re going to take a five-minute break. Please, of
course, no discussion of any of the matters.
THE CLERK: All rise for the Court and jury.
The Court will take a five-minute break.
(The Court and jury exit the courtroom and there is
a recess in the proceedings at 11:15 a.m.)
THE CLERK:

All rise for the Court and the jury.

(The Court and jury enter the courtroom at 11:31
a.m.)
[43-52]
THE CLERK:

Be seated.

THE COURT:

Mr. Chakravarty.

MR. CHAKRAVARTY: Thank you, your Honor.
The defendant brought terrorism to backyards and to
main streets. The defendant thought that his values
were more important than the people around him. He
wanted to awake the mujahidin, or the holy warriors,
and so he chose Patriots’ Day. He chose marathon
Monday. He chose a family day of celebration. He

201
chose a day when the eyes of the world would be on Boston, a sporting event celebrating human achievement.
He chose a day where there would be civilians on the
sidewalks. And he and his brother targeted those civilians, men, women and children, because he wanted to
make a point. He wanted to terrorize this country.
He wanted to punish America for what it was doing to
his people.
So that’s what he did. He and his brother killed two
young women that day. They killed a little boy. They
maimed and permanently disfigured dozens of people.
At least 17 amputees. At least 240 were injured. And
after they did it, he coolly, not 20 minutes later, went to
the Whole Foods to make sure he got the half gallon of
milk that he wanted. The next day he went back down
to college, joked with his friends, got a workout in. He
even went back to Twitter, and he decided to tweet so
that everybody knew what he was feeling.
The defendant and his brother did this together.
He [43-53] planted one bomb, his brother planted the
other. It was a coordinated attack to maximize the terror. Because that was the purpose. And after they
did, they went back and they laid low. But three days
later, when their faces were all over the news, they
sprung back into action, and again in a coordinated style,
they went back and they said they needed to build more
bombs. They needed to continue with their campaign.
But they needed a gun. So they went to MIT and there
they saw Officer Sean Collier. They targeted him and
they killed him. They tried to get his gun. They
couldn’t.
Now that their car was captured on camera, now that
they couldn’t get that extra gun, what did they decide to

202
do? They needed a new car. So they drove over the
bridge from Cambridge into Brighton, and there they
found Dun Meng who was on the side of the road. Dun
Meng in his Mercedes SUV. And Tamerlan approached
from the passenger’s side and brandishes the gun and
carjacked the vehicle.
Dun Meng didn’t even know that the defendant was
following closely until they got to Watertown. And in
Watertown they transferred some things into the car.
The defendant gets into the car. What they didn’t realize was that the police would track down that Mercedes so fast. And so where they had been planning to
go to New York with all of their bombs, all their guns,
they were instead encountered by the Watertown police.
And when they did, they made their last [43-54] stand.
And in their last stand—you heard about it and you’ll
hear more about it today—eventually Tamerlan had run
out of bullets and he went and charged at the police.
He was subdued. And then the defendant was all
alone. And he had choices to make: He could surrender; he could keep driving—get back into the car and
keep driving; he could do what his brother did and
charge at the police.
But he chose a different path altogether. He chose
to get back into the Mercedes, turn it around, use it as
a weapon and try to mow down the police officers who
had apprehended his brother. He hit his brother. He
dragged him. He almost hit Officer Colon. And then
he made his escape.
A short while later, about half a mile down the road,
he abandoned the Mercedes and he was on foot. He
was alone. He was injured. He made his way down a

203
hill looking for a place for refuge. You heard that there
were some blood marks where he was trying to find
some place to hide.
Eventually he found the winterized boat with a tarp
on it in Dave Henneberry’s backyard. When he saw
that, he found a place for refuge. But before he
climbed into that boat he took his phones, he went behind the shed right next door, and he had the presence
of mind to smash his phones, including the phone that he
had coordinated the attacks with his brother with. The
phone that he had used to talk to his brother after the
[43-55] attacks, he smashed that phone. He ditched it
behind the shed with his other phone and Dun Meng’s
bank card. And then without the help of a ladder even
he pulls himself up into the boat that you all saw—he
pulls himself up into the boat and he lies down and he
thinks about what he did and what he was going to do in
that boat.
And ultimately, he did what terrorists do after they
commit terrorist acts: He wanted his actions to stand
for more than what people might think, so he wanted to
tell the world why he did what he did. He wanted to
take credit. He wanted to justify his acts. And in that
boat, when the helicopters were overhead, the sirens
were blaring, there were police canvassing, looking for
him, he was all alone, and in his voice he chose to write
something to the American people.
“I’m jealous of my brother who has received the reward of jannatul Firdaus (inshallah—” remember, that’s
the highest levels of paradise. “— God willing) before
me. I do not mourn because his soul is very much alive.
God has a plan for each person. Mine was to hide in his
boat and shed some light on our actions. I ask Allah to

204
make me a shahied—” martyr “—inshallah, to allow me
to return to him and be among all the righteous people
in the highest levels of heaven.
“He who Allah guides, no one can misguide.
Akbar!

Allah

“I bear witness that there is no God but Allah and
[43-56] that Muhammad is his messenger. Our actions
came with a message and that is La illaha illalah.”
That’s the statement of faith you heard.
“The U.S. government is killing our innocent civilians, but most of you already know that. As a Muslim,
I can’t stand to see such evil go unpunished. We Muslims are one body. You hurt one, you hurt us all.
Well, at least that’s how Muhammad (peace be upon
him) wanted it to be forever.
“The ummah,” which we know is the Muslim nation,
“is beginning to rise and awaken . . . has awoken
the mujahideen,” the holy warriors, “know you are
fighting men who look into the barrel of your gun and
see heaven. Now, how can you compete with that?
“We are promised victory and we will surely get it.
Now, I don’t like killing people innocent people. It is
forbidden in Islam. But due to said, it is allowed. All
credit goes to Allah.”
You’ve all sat through the evidence in this case. You
know it better than anyone. The evidence here speaks
for itself, and so I’m going to simply present that evidence to you. Some of it. Because pictures speak
louder than words, I’m going to direct you to some of the
images on your screens. I have a screen here when I
want to point something out to you. The evidence I’m

205
going to show you will give you the confidence to conclude that the defendant did indeed commit each of the
[43-57] crimes that are charged in the indictment.
THE COURT: Jurors in the back row, you should
get your monitors ready.
They’re active now.
MR. CHAKRAVARTY: We’ll start with a video of
the crime itself, at least the first crime, the marathon
bombing.
(Video recording played.)
MR. CHAKRAVARTY: You remember this clip
from the timeline video. It was about 2:37 in the afternoon when cameras first captured footage of the defendant and his brother turning onto Boylston Street the day
of the marathon. They calmly strolled down the street,
each transporting the deadly contents of a pressure
cooker bomb concealed in a backpack.
You can tell by the defendant’s expressions, by the
casual way he walks, that he is entirely untroubled by
what he is about to do. That’s because the terrorist literature and the lectures and the songs that he had been
consuming for over a year had convinced him that what
he was going to do was just.
His brother takes position down by Marathon Sports
and he waits to coordinate. He’s checking his phone.
The defendant, on the other hand, is still up by the Forum. After all their planning and preparation, they
were looking for the right place to make the impact that
they wanted to make. The defendant slung his bomb
over his right shoulder, appearing very much like a college student. But that day they felt they [43-58] were

206
soldiers. They were the mujahidin and they were
bringing their battle to Boston.
This is the defendant finally approaching his target.
Compared to the crowd at Whiskey’s, the crowd was
much more dense here. There’s a bar behind him, a
restaurant. People are having fun. There’s cheering,
there’s clapping. People are egging on the runners.
There’s a cow bell behind them. There are people coming and going. And in front of him, you can’t help but
see them, there’s a row of children on the barricade.
He puts the bomb down as soon as he gets there right
behind that tree. So he’s on the grate. Between the
tree and him there’s no place for people to walk. Nobody was accidentally going to step on his bomb. And
there he hovers over it, surveying the crowd, seeing the
children again, seeing the Richard family. He’s contemplating. He’s waiting for his brother to get in position. He’s thinking about what he’s right about to do,
about the plan that he and his brother have set in motion.
It’s about this time, 2:48, that he checks his bomb for
one last time, and then he gets ready to make his phone
call to his brother to tell him that things are a go. He’s
making his call. Remember, ladies and gentlemen, this
was a 19-second call. It coordinates with his phone records. We don’t know exactly what he said, but we know
what he told his [43-59] brother. He told him he was in
position. He told him it was go time.
He thought his cause was more important than the
people around him so he picked this place because it
would cause massive damage. Look at how thick the
people are there. It would cause memorable damage.

207
He picked this place. And he was waiting for his
brother. He’s waiting. He knows it’s coming. And
there it is. He waits for a moment, and then like a
salmon upstream, he’s on his way up, and right before
he leaves the screen he turns his head. This is the defendant running away, pushing people out of the way.
He’s got places to go.
The fact that he exploded the bombs was devastating.
His bomb we have the devastation on video. We didn’t
dwell on it during the trial but I’m going to play a short
clip for you now. I’d just ask you to focus on where the
Richards’ family is, and I’d ask you to focus on what happens after the explosion.
(Video recording played.)
MR. CHAKRAVARTY:
The defendant is over
here. He puts down his phone. Bill Richard is here,
Denise Richard is over here, and Martin and Jane and
Henry are in front.
(Video recording played.)
MR. CHAKRAVARTY: Remember the video that
Colton Kilgore shot? Remember, he was the photographer. He [43-60] reflexively just started hitting “record” after the bomb blew up at Scene A. He captured
some of the sights and sounds of the chaos and the terror
that everybody was experiencing that day. So we’re
going to play some of that so you can hear it for yourself
and bring yourself back to it.
(Audio and video recording played.)
MR. CHAKRAVARTY: That’s Rebekah Gregory.
Remember how she said she was hoisted into the air,
thrown back? She immediately began searching for

208
her son, despite the fact that bones were sticking out of
her hands. Clearly you see her leg. She saw terror
on everybody’s faces. Finally she heard her son’s
cries. She was placed into a medically induced coma as
a result of the blast. She’s had 18 surgeries. Foreign
objects are still in her body.
Remember Shane O’Hara? He was the manager at
the Marathon Sports right there? He said all he could
do was hear screaming and cries. He heard someone
say, “Stay with me. Don’t leave me.” He and others
rushed to find materials for tourniquets. He said he
never thought he would have to choose who to help,
whose life to try to save.
That’s Rebekah Gregory right there. And that’s
Krystle Campbell screaming in pain. She lies dying on
the sidewalk.
You’ll recall Sydney Corcoran, the young lady who’s
now a sophomore in college. She was there with her
family like [43-61] so many others. She told you what
it feels like to feel the lifeblood slipping out of your body.
She said she started feeling cold, but peaceful, as the
blood left her body.
Karen McWatters, who spent the afternoon with
Krystle Campbell, described what a beautiful day it was.
She posted a photo on Facebook that she and Krystle
took in the public garden a short time earlier. When
the bomb went off, Karen saw the smoke, the chaos, confusion. She asked herself whether she was dreaming,
if this nightmare was a reality. That’s Karen and
Krystle.
Officer Frank Chiola was one of the first to respond
to Krystle Campbell. He described her injuries in two

209
words: Complete mutilation. When the explosion
happened there was complete silence, he said, and then
the screaming began.
And then there was Jeff Bauman. Bauman lost both
of his legs. You could see him here with his body torn
apart. And as he lay there with what remained of his
legs in the air he thought very clearly, “We’re under attack.” And when he later woke up in the hospital, he
remembered the man who placed the bomb that blew
him up. It was the defendant’s brother, Tamerlan
Tsarnaev.
But nobody was able to remember the defendant at
Scene B, at the Forum. That’s because he blended in.
To be successful, he had to lie in wait trying not to draw
attention to himself. This image shows the moment after the defendant [43-62] called his brother to say that
they were a go a moment after this. He checked on his
bomb and then he made his escape. He swiveled his
head around right at the last second, once he was right
outside of the blast radius. This is him turning his head
just to make sure he has enough space, and then the
bomb goes off.
Alan Hern, the teacher from California, recalled how
he and his family had been lined up near Martin Richard
and Jane Richard and the other children. He said the
injuries that he saw were something out of a war zone.
He recalled finding his 11-year-old son Aaron on the
ground, eyebrows singed. His legs were black. His
left thigh was mangled and bloody. “It really hurts,
daddy. It really hurts,” he said. Aaron was put on a
breathing tube. And he had zipper-like wounds down
his legs, BB marks on his abdomen. They found bone
fragments of someone else inside his body.

210
This is the defendant hiding behind the tree looming
over the row of children behind whom he placed his
bomb. It was a heavy bag. The decision must have
weighed on him. But these children weren’t innocent
to him; they were American. He knew what the bag
contained and what it was designed to do. And of all
the places that he could have placed this bomb, he placed
it right here.
He stood behind it for four minutes. We cut some of
that out when we played it a moment ago. Four
minutes. He [43-63] watched people come and go.
You heard that these children never left. He decided
to place it here. Bill Richard then told you what happened to his family. He told you about that morning.
He told you about the fact that the marathon was a family tradition and everyone hurriedly left the house in excitement. The children had participated in the youth
relay, and they were looking forward to the marathon
and the ice cream.
Jane was six years old when the defendant tore her
leg from her body. His bomb injured her all the way
up from her head, behind her ear, her back, her torso,
down to her legs. Bill Richard saw her through the
smoke, he smelled a vile smell. He just wanted to get
it off his body. You can see her on that video we just
saw trying to stand but not having a leg to stand upon.
Bill grabbed her and his son Henry. And then do you
remember what he told us? He saw his other son
through the smoke. He saw Martin Richard. He
knew he was dead. He could tell just by looking at him.
The defendant had killed him. He could not bear to
lose Jane as well, and so he grabbed Jane. And with
the help of Matt Patterson, they went to try to stop

211
Jane’s bleeding. They saved her life. Patterson,
you’ll recall, described Jane’s leg looking as though it
had just been put through a meat grinder. The defendant blinded Denise Richard, Jane’s mother, in one eye.
Of course he took Martin.
Jessica Kensky was a nurse. You’ll recall she was a
[43-64] newlywed who wheeled herself up onto that witness stand. She said the medical tent where she was
taken looked like it was treating soldiers on a battlefield.
They were war wounds. All she could feel was terror.
Sheer terror. She heard animalistic screams. Bomb
parts, pieces of steel and dirt had been blown into her
body.
She explained that parts of her body had been blown
off and she had unbearable burns. Her husband Patrick also lost a leg. Shrapnel had ripped through him,
tearing apart his skin and causing infection.
Danling Zhou was Lingzi Lu’s friend. They were
also at Scene B. They were both international students
who had come from China to come to Boston to study at
graduate school. They chose to go to the marathon
that day to experience something that was classic Boston but had the eyes of the world on it. They made a
day of it, shopping, having lunch on Newbury Street,
trying to get over to the Prudential Building to get Danling’s phone fixed at the Apple store. And as they
made their way up Boylston Street, the defendant’s
bomb went off.
This is Lingzi Lu with her hands over her face. This
is Danling Zhou, whose abdomen was ripped apart.
She’s leaning against the railing. There’s Bill Richard,

212
Henry, Jane, Aaron, Roseanne Sdoia over here.
there are other victims.

And

Danling told you that her internal organs were spilling out of her body. She had to hold them in. She told
[43-65] you that the man she saw in front of her seemed
like he was yelling in slow motion. He didn’t have a leg
anymore. She looked to her friend, Lingzi Lu, who was
flailing her arms. Danling thought that she was going
to make it, but she didn’t. The defendant killed her too.
Dr. Bath said it looked like people had dropped like
puzzle pieces in front of the Forum. He tried to help
whoever he could but it was too late for Lindsay. Her
leg had been flayed open. They tried CPR. You
heard Officer Woods and others cleared her airway and
she vomited, but by the time the paramedics arrived, it
was too late.
Dr. Bath was surrounded by screams, parts of limbs,
tissue, burned clothing. Eventually he was able to get
a tourniquet on one victim. And that’s how others
saved others that day. First responders and others
were able to get tourniquets on people and they were
rushed to the hospital. EMS Director James Hooley
told you that 30 people were given red tags.
Do you remember the red, green and yellow tags?
The red tags meant that they had life-threatening injuries, that if they didn’t get to the hospital in an hour,
then they would die. Fortunately, except for Krystle
Campbell, Lingzi Lu and Martin Richard, all of them did
make it to the hospital. And even so, the defendant and
his brother maimed 17 more and injured at least 240 others.

213
[43-66]
After they fled the scene they decided to lay low for
a while. In fact, the defendant acted as if nothing had
happened. He bought milk at the Whole Foods, calmly
walking up and down the aisles, and he even came back
a little later to replace this milk because he didn’t get
the one that he wanted.
You’ll recall his demeanor, his strut walking up and
down those aisles. He was just blending back in. He
returned to UMass Dartmouth and decided to go to the
gym, get a little workout in. This is him joking, laughing with his friend. About an hour later he finishes his
workout, just hanging out with his friend.
After the bombing he decided to tweet about it. Remember this one? “Ain’t no love in the heart of the
city. Stay safe, people.” How about this one? “I’m
a stress-free kind of guy.” Why did he choose to post
these things at this time after what he had done?
In the days after the bombing, along with these
tweets, the computer evidence and the online social media materials show you that the defendant was publicly
pretending to be just like everyone else while inside, in
fact, back on his computer, he was accessing the same
jihad materials that he had looked at before the bombings: Inspire magazine.
In fact, on April 16th, the day after the marathon
bombings, he accessed this Inspire magazine. This is
the one that talks about how to make the pressure
cooker bombs and how [43-67] to make pipe bombs.
This picture down here is a clip from that portion that
you saw that shows how to make the pipe bombs. He
opened it up, and a few days later you all know that they

214
had assembled five pipe bombs, another pressure cooker
bomb and the Rubbermaid device.
Also on April 16th, the day after the bombing, the
computer evidence shows that the defendant accessed
the “Effects of Intention” document. Dr. Levitt talked
about that document and he told you that the essence of
that document was that if you’re going to engage in jihad, you have to be sincere about it. You have to do it
for God; you can’t do it for some other reason. If you
want to get the rewards, you have to be sincere.
That same day he also accessed the fall issue of Inspire magazine, the second issue. And in that one, among
other tips about what to do in jihad, it included a declaration of Anwar al-Awlaki who Dr. Levitt told you about.
And Dr. Levitt read this excerpt as he went through the
writing on the boat. And this is what he said:
“According to these scholars, we the Muslims are not
allowed to terrorize the Israelis or the Americans or the
British who are living in safety and security while millions of Muslims are being terrorized by them. We are
told to never mind the insecurity of the Palestinian or
the Chechen or the Kashmiri. Never mind them. We
are simply never allowed to [43-68] terrorize, period.
No. We do not agree with that. We say that whoever
terrorizes us, we will terrorize them and we will do what
we can to strip them of their safety and security as long
as they do the same.”
And that’s precisely what the defendant wrote in the
boat a few days later: “Stop killing our innocent people
and we will stop.”
These were deliberate choices. These were political
choices. He thought his values were more important

215
than everyone else. He was making a statement: An
eye for an eye. You kill us, we kill you. That’s what
he read, that’s what he said, and that’s what he did.
Witnesses described the 12-block radius that was
carved out of the Boylston Street crime scene, the lockdown. The FBI and other agencies gathered evidence.
They gathered pieces of pressure cookers, cloth from
backpacks, shrapnel from the bombs. They also gathered photographs, surveillance video. The photos in
the videos revealed that the defendant and his brother
had, in fact, exploded the bombs, although the FBI
didn’t know who the defendant was, who his brother
was. So on Thursday, three days later, April 18th, the
FBI released some of the images and asked for the public’s help in identifying the bombers.
The photos and the videos were broadcast all over the
world. They were accessed millions of times on the
FBI’s [43-69] website. A few hours later the defendant
picks up the phone. He speaks with his brother, and
then he returned to Cambridge from UMass. Remember, he went back down to his dorm room with his friends
in the intervening three days.
And you know that he came back because Chad
Fitzgerald—he was the FBI agent from Atlanta, who
was the cell site location specialist—he showed you that
the defendant’s cell phone pinged down in Dartmouth at
first and then came back to Cambridge.
And when he came back, he had this text message exchange with one of his friends, Dias Kadyrbayev. And
in it Dias asks him whether he saw the news. And he
says, “Yeah, bro. I did.” And Dias says, “For real?”
The defendant says, “I saw the news. Better not text

216
me my friend, LOL,” or laugh out loud. “You saw yourself in there?” Dias asks. “If you want, you can go to
my room and take what’s there. Salaam alaikum.”
Now that their faces were all over the news, they decided to move on with the rest of their plan. He knew
he wasn’t going back. He gave Dias his computer and
stuff in his dorm room, including the backpack with the
fireworks in them. He and his brother loaded the pipe
bombs and explosive powder and the pressure cooker
bomb, the CD with the jihad songs on it. They took
Tamerlan’s computer, that external hard drive that you
heard so much about, the remaining transmitter and
[43-70] some identifying documents.
They needed
these things for what they planned to do next. They
were going to go to New York to continue setting off
bombs.
Most importantly, they brought the gun that the defendant acquired from his friend Stephen Silva. But
there were two of them and they needed two guns.
And they only had a Ruger and that pellet gun, which
you know looked real. It would probably work to stick
somebody up. It couldn’t kill like a real gun. So they
decided to go over to the MIT campus. It’s a short
drive away from their house in Cambridge.
Chief DiFava told you about Sean Collier that
morning—that day—excuse me—that evening, how
they chatted that evening and the chief told him to be
safe. Officer Collier was working the night shift, and
Sergeant Henninger had checked in with him earlier
that evening. About 10:20 p.m. the 911 call came in.
Some gunshots, some hitting of trash cans.

217
And you know through surveillance video that the
brothers were driving their Honda Civic that night.
They may have actually seen Officer Collier parked next
to the Koch building as they drove by.
There’s the Koch building. They decided to walk all
the way around the Koch building and approach him
from the rear. They had a plan, they knew exactly
what they were going to do, and they just had to execute
it.
[43-71]
(Video recording played.)
MR. CHAKRAVARTY: They get to the car. They
immediately force open the door. They stick their gun
at Officer Collier, then about ten seconds you’ll see Nate
Harriman come by on his bicycle. There he is.
(Video recording played.)
MR. CHAKRAVARTY: The brake lights go off,
then they go back on. The defendant and his brother
run away.
This was a purposeful mission. They needed that
gun. They had already agreed on how to assassinate
him and they did.
We can’t tell who shot Officer Collier. That’s what
we know. We know he was shot in the hand, possibly
as he was reaching for the microphone, on the radio.
We know he was shot twice in the head at close range.
Remember Dr. Robinson explain that there was stippling in the head wounds? He was shot between the
eyes. They assassinated him.

218
You also know that the brothers tried to get the gun
from Officer Collier’s gun belt but they couldn’t. Remember when the officers arrived on the scene, they saw
the gun belt. The gun itself had been smeared with
blood. And they saw that the first stage of that threepart safety system had been undone. But they didn’t
know how to get the second and the third stage out, so
they left without the gun. They had failed. They had
risked being detected, they risked being caught just to
get that gun because they needed it for what [43-72] they
were going to go do next. They wanted to go out and
use the remainder of the bombs that they had built.
They wanted to go out in a blaze of glory.
So we don’t know who shot Officer Collier but we
know that Officer Collier’s blood was found on the defendant’s car keys in the Honda Civic in the ignition with
the UMass Dartmouth fog. We know that Officer Collier’s blood was found on the gloves that were found in
the floor well of the driver’s seat of that same Honda
Civic that the defendant was driving that night. We
know that Officer Collier was shot with the Ruger that
the defendant procured from his friend Stephen Silva.
And we know that Nate Harriman, as he passes them in
front of the Koch building that day, makes eye contact
with the defendant. And you saw the defendant had
been leaning in and he comes out and he makes eye contact and then he leaves.
Officer Collier didn’t have a chance. You heard his
injuries were incompatible with life. Just think about
what Nate Harriman told you. He saw the defendant
leaning in. So in those few seconds the defendant probably felt Officer Collier’s last breaths. He probably
heard the gasping or the gurgling that his fellow officers

219
heard a little while later. That didn’t deter him any
more than seeing what happened on Boylston Street deter him, because he felt what he was doing was right.
He felt he was standing up for others.
They knew their time was short. Frustrated by
their [43-73] failure to get the gun, the brothers knew
they needed another car, and they went across the
bridge and found Dun Meng. Remember how terrified
Dung Meng was but how clear-headed he was, how
clearly he thought through how was he going to get
through this.
And when they got to Watertown, he’d noticed the
defendant had been following him the whole way and
that both of the brothers moved things from the Honda
Civic into the Mercedes SUV. And then they went
back into town to try to go get gas and money. Meng
describes them talking to each other, like partners, in a
foreign language. They were communicating. It was
a team.
They went to the ATM in Watertown and the defendant demands Meng’s PIN number. He saw the defendant coolly walk into the ATM, take out the money,
money he still had in his wallet when he was arrested
the next day. The defendant and his brother asked if
the car can go out of state, go to New York. And Meng
said that it could, in fact, go to New York. He had gone
there a couple of times—a few times.
But first, before they made that long drive to New
York, they went back to Watertown where the Honda
Civic was so they could get that CD, a CD containing
those jihad nasheeds on it. Meng said it was a style of
music that he had never heard before. And Dr. Levitt

220
told you what it was.
full of songs, chants.

It was portable inspiration, a CD

[43-74]
Finally, they go back towards Boston. They need to
go to a gas station, so they stop at a gas station that the
defendant knew very well. He knew it because it was
across the street from Stephen Silva’s house. You’ll recall that he and Stephen Silva would go there and get
smokes occasionally.
He asked Meng how much gas the Mercedes could
hold, and they were going to go pay in cash. And then
the defendant goes into the store to get some snacks for
the long drive to New York.
Now, the snacks seem trivial but they show the defendant and his brother were on their way to New York
for purposes of doing something. Not running away.
That’s Red Bull in his hand. Those are snacks in his
hands. They needed their energy for the long drive
and for what they were going to do when they got there.
They had more bombs and they were going to use them.
They were a team. You’ll also notice that this hat, it
was the same hat the defendant was wearing a little
while earlier. They were a team. That’s how they
rolled.
But Tamerlan turned his attention to the GPS while
they were waiting in the car, and that’s when Meng
acted. He got up—and you saw the terror in his face,
you’ll see it in a second. And he ran across the street
from one gas station to another. This is him pleading
to call 911. And that was more significant than we
might know because Meng’s escape was more [43-75]
than just a setback for the defendant and his brother.

221
Now the police would know the car—the new car that
they were driving. So they had to go back to Watertown, they had to ditch the Mercedes, they had to get
back into the Civic and then head back off to New York.
And they must not have expected that the police
would have reacted as quickly as they did. In Watertown, Officer Joseph Reynolds was the first on-scene.
Remember, he passes first the Honda that the defendant was driving, who was in front—he was leading—and
behind him was the Mercedes. And they were driving
slowly around Dexter Ave. in Watertown.
Officer
Reynolds passes them, calls it in, and they say, “Wait for
backup before you light him up,” before you hit the
flashing lights.
But he turns around, he doesn’t light them up yet, he
turns around, he starts to approach, and that’s when
Tamerlan greets him with gunfire around through the
windshield. What did the defendant do then? He
didn’t keep going like he didn’t know what was happening. He then stopped, he got out of his car, he got in
front of the Mercedes with his brother, and he took his
position. They had planned this.
It was the brothers’ last stand. They go into the
bag, they pull out bombs, they pull out backpacks, the
ammunition, the extra magazines, they pull out their
lighter, even the pellet gun. And the police saw two
sets of muzzle [43-76] flashes. While one was shooting,
the other was lighting and throwing the bombs. Since
we know that Tamerlan was shooting many of the
rounds of the Ruger, we know that the defendant was
the one lighting the fuses for at least two of the pipe
bombs.

222
Sergeant MacLellan saw the defendant throw the
second and the third bomb. Remember, he said he
threw it like a hook shot as opposed to like a baseball
like Tamerlan threw it. He said he threw the second
bomb like a hook shot and then, remember, the pressure
cooker bomb? He heaved it like this. And you all felt
how heavy those are.
The officers probably saw the flashing of the lighter
as that second muzzle flashed, but whatever the point,
the defendant hurled that pressure cooker bomb, he
hurled the pipe bombs. And they were in this together.
Officer Reynolds screamed to Sergeant MacLellan to
look out. And then Sergeant MacLellan described that
explosion. He described how it shook him to his knees.
How the explosion was horrendous. The plume of
smoke went up about two stories. There was debris being scattered everywhere.
And you saw what happened to the pressure cooker
bomb. It shot like a missile, embedded into that Honda
where MacLellan had just been standing, where his
cruiser had been crashed into that Honda. The lid of
the pot had gone two stories up, into a house and into
the neighbors’ yard.
There were several pauses in the shooting, and now
we [43-77] know that they also had to reload. You’ll recall the ballistics evidence, Lieutenant Cahill. The Ruger
shot 56 rounds that they collected, the casings that they
collected. And the three magazines that they had with
them, the extended-capacity magazine and the other two
magazines, between them could hold 38 rounds. That
means they were refilling these magazines and reloading the gun. And it also explains why the defendant’s
fingerprints are on the ammunition box and also why

223
there was a half-filled magazine in the Mercedes that
they—that the defendant used to escape.
They were partners. Each one was doing their part.
This shows the defendant either crouching or getting
ready to throw one of the pipe bombs. James Floyd:
Remember, he was one of the neighbors there? He was
the one with the newborn. He had to take the newborn
to the back of the house for safety. And he comes back
and he looks out the window. And he said they were—
both of the brothers were ducking in and out. You
could barely distinguish the two. But he did know that
it was the defendant who pulled something out in a bookbag and he threw it. And he showed us.
Sergeant Pugliese, who had been flanking, came from
this direction.
He felt the debris falling on him.
When he emerged from that house, behind that fence,
he took aim and he shot at Tamerlan, first directly and
then he tried to skip shot him underneath to try to get
him at the ankles.
[43-78]
He got Tamerlan’s attention, and Tamerlan turned to
him and tried to shoot him, and he missed him every
time. And after he ran out of bullets, he threw the gun
and he charged up the street at the police officers.
Tamerlan at that point was done. He wanted to commit suicide by cop. He was ready to get to heaven.
While the defendant—while Tamerlan was ready, the
defendant had other plans. He was still behind the
Mercedes. And like I said, he didn’t go with Tamerlan.
He didn’t go the other way. He didn’t just give up.
He got back into the car, he turned it around, and then
James Floyd told you what he saw and what he heard.

224
Despite the fact that there was no one in front of him
and he could have escaped, Floyd said that he floored it.
He turned around and he floored it. He really floored
it—the engine roaring—and he made a beeline for
where Tamerlan and Sergeant Pugliese and Sergeant
MacLellan and Officer Reynolds were.
The defendant drove from the right side of the road
straight for them. They got out of the way just in time,
as you saw. The defendant hit the brother, he dragged
him down the street. When he hit Officer Reynolds’
cruiser, almost striking Officer Colon, Officer Colon saw
him. Remember, he saw him driving like this. The
defendant still had the presence of mind to avoid the
gunfire as he was making his escape and as he was aiming for the police.
[43-79]
Now, at some point during that escape, the defendant
got shot. We know because he was bleeding sometime
later. And as the police finally subdued Tamerlan,
they realized that Officer Donohue had also been shot.
Remember Dr. Studley described that he had lost all of
his blood by the time that she was treating him. Amazingly, she and others brought him back, and but for the
defendant’s actions, carjacking this vehicle, the defendant and his brother, that chain of events would not have
happened and Officer Donohue would not have been
shot.
He would not have been seriously injured.
That’s why it’s charged in the indictment, as a result of
the carjacking caused serious bodily injury. And that’s
what happened here.
The defendant abandoned the Mercedes, leaving the
Rubbermaid bomb and the other items in it as he fled.

225
And since he made the decision to drive the police [sic],
he knew now that he was all alone. His brother was
gone. He was injured. He made his way down that
hill.
The blood marks you heard, there were some on a
bathroom door, on a shed, on a car, and then on the boat
itself. David Henneberry’s boat, the Slip Away II.
The defendant could not have imagined that this was
where he was going to write his prophetic statements to
the world.
But before climbing in, he wanted to do that one last
thing. Remember, he had two phones. He had that
burner phone, we call it, which he had just activated that
SIM card on that [43-80] Sunday before. He put the
SIM card in and he used that phone to talk to his brother
about planning the bombing, executing it and then what
happened after.
His other phone was the phone he used all the time.
It was the phone he was using to talk to his friends. It
was the phone that he was using to surf the Internet, to
read documents. At his age, he lived on that phone.
Even in the video you see him, you see him always fumbling with his phone.
So he had the presence of mind at that stage to smash
those phones beyond recognition.
He knew those
phones could track him, and he knew by smashing those
phones neither the FBI, the state police, the Boston police or Watertown nor anybody was going to be able to
extract the data that would be useful in the investigation. He takes Dun Meng’s card and he throws it down
there. That’s Dun Meng’s card, that’s the phone, both
phones pulverized.

226
He was in the boat for a while. And after pulling
himself in, he pulled out a life preserver. You saw some
of the pictures and you saw the boat. He tried to get
comfortable. And he laid there probably thinking he
wouldn’t survive. He had been hurt. And in those
moments of all of the things in the world to say, he chose
to write that declaration we saw. He chose to justify
what he did.
But even after writing those words, that well thought
out, cohesive narrative, he still was angry. People
were [43-81] looking for him, he was hiding in this boat,
and he was still angry. He was so angry he had to get
something. And he had etched into boards on the slat.
As if his note wasn’t clear enough, he had to emphasize
it. “Stop killing our people and we will stop.”
He was negotiating the terms of death with America.
This is what the defendant was thinking after all he had
done that week. In the evening, David Henneberry noticed the blood on his boat. He investigated and saw
the defendant lying in it. Minutes later, he was surrounded. At one point the police shot at the boat, not
knowing whether the defendant was armed, whether he
still had any bombs on him. They threw flash bangs
then, hoping—convincing him to give up, and eventually
he was arrested.
The investigation of the defendant and his brother
lasted two years. You saw that he first started accessing the Inspire magazine when they were in—
approximately Christmas of 2012. We know both the
defendant and his brother were radicalized to believe
that jihad was the solution to their problems.

227
We know that both of them participated in the bombing, the murder of Officer Collier, the carjacking, the
robbery of Dun Meng, the standoff with the police in
Watertown. The fingerprint evidence showed the defendant’s prints in many places that you would expect
them: On the driver’s side of the [43-82] Honda that he
was driving, on the radio where he was listening to his
nasheeds. His prints are on the gas tank of the Mercedes where he tried to fill it up with gas. They are also
on the front passenger quarter where he, as you see in
that picture, was holed up, taking cover in the shootout.
They’re also on the nasheed CD that was found in the
radio of the Mercedes. His prints are on the ammo box
that were found on Laurel Street. They’re on the Rubbermaid bomb that was found in the back of the Mercedes. They’re also on that pellet gun. Tamerlan also
left prints where you would expect them.
But the defendant was more careful. Unlike Tamerlan, the defendant had led a double life. To the outside world he showed one face and inside he harbored
another. He was careful, just like Inspire magazine
had taught him to be.
Explosive technicians examined every piece of evidence found in Watertown and on Boylston Street and
tried to re-create how the devices were made. You saw
that. Who knew that making a bomb was so easy?
Well, the terrorists. The publishers of Inspire magazine. That’s who knew. And they were just hoping,
they were wanting, they were asking for some young
terrorist to come by and to use their instructions. And
that’s what the defendant and his brother did.
You heard how there was no explanation for how and
where all the pounds of explosives that were necessary

228
to build all these bombs, where they were purchased or
where they were [43-83] built. You heard that there
was some trace explosives in the apartment in Cambridge, at 410 Norfolk Street, and there were intact fireworks down at the dorm room in Dartmouth. But
given how much explosives were necessary, much more
was expected.
Many of the materials that were consistent with
those that were used to construct the devices were found
at the Norfolk Street apartment where Tamerlan and
his family lived and the defendant would visit from time
to time, where he had grown up. Some of those materials were found conspicuously in the defendant’s bedroom there, where he had spent the weekend before the
bombing.
There was the construction paper—the red construction paper, the caulk gun, the gun-cleaning equipment.
You also know that from the swipe card data from
UMass Dartmouth that he hadn’t been down at UMass
for days before the bombing.
It’s clear that both the defendant and his brother
were partners. They both handled the bombs. The
evidence shows that the defendant and his brother
transported, placed and exploded the bombs on Boylston Street and in Watertown. In addition to the eyewitness testimony, people like James Floyd and Sergeant MacLellan, we know that the defendant committed these crimes, threw the pipe bombs, the big pressurecooker bomb in Watertown.
The brothers prepared for their attack. They also
[43-84] coordinated with each other, as partners do.
The investigation revealed that the pressure cookers

229
were probably bought at Macy’s; for the January 31st,
purchased from the Square One Mall in Saugus. It was
probably Tamerlan although there is no video and it was
a cash purchase. But who was he texting just before
making that purchase? Who was he talking to earlier
that day? The defendant.
Tamerlan bought the backpacks on that Sunday afternoon, the day before the bombing. That same afternoon the defendant went somewhere else to buy that
SIM card for his phone. It may have been Tamerlan
who bought BB’s up in New Hampshire, but there was a
box of BB’s in the defendant’s dorm room down at Dartmouth.
Tamerlan bought the remote control car parts on the
Internet, first from Flysky, and then at the other—RC
Hobby Car shop for the Spectrum set. And that was a
week before the bombings. By that time, a week before the bombings, the defendant and his brother were
fully engaged in their conspiracy to plant these bombs.
They knew what they were going to do. In fact, the
same day as that transmitter purchase, the defendant
tweeted this: “If you have the knowledge and the inspiration, all that’s left is to take action.”
They each had their roles. Around the same time
that Tamerlan was ordering that first transmitter, the
defendant was [43-85] ordering up a gun from his friend
Stephen Silva. Stephen Silva had just come in to a gun,
and he said he could let the defendant borrow it for what
the defendant said, so he could rob a couple of University of Rhode Island students.

230
Remember Silva’s testimony? Silva had known him
since he was a kid. Silva couldn’t imagine that the defendant was capable of doing something like this, but he
didn’t know the jihadi side of the defendant. He took
the defendant at his word when in January or February
he asked for the gun for the robbery. The defendant
also had asked him for the food for the dog, which was a
reference to the ammunition for the gun.
And obtaining this gun was the key that the defendant and his brother needed for what happened after the
bombings. Without this gun, they wouldn’t have been
able to kill Sean Collier.
Without this gun, they
wouldn’t have been able to hold up Dun Meng. Without
this gun, they wouldn’t have been able to shoot at police
officers in Watertown. The defendant had done his job
well.
Silva didn’t know that in March, spring break, the defendant and his brother went back up to New Hampshire to go to the gun range up there. There they practiced shooting 9 millimeters. The defendant paid, and
for an hour the two of them spent about $170 just shooting. It’s easy to wonder what they were imagining
were targets as they were shooting.
But in this case, ladies and gentlemen, we don’t have
[43-86] to wonder. We know that they were imagining
police officers because that’s what they used—that’s
what they used the gun to actually shoot at.
We’ve seen other evidence of the defendant’s double
life. There were sides of himself that he did not show
to his friends. Around them, Stephen Silva told you, he
was well liked, he would smoke pot, he was cool, he was
laid back, but there were signs of another side to him.

231
Silva mentioned one time the defendant called him an
infidel or a kafir, another where the defendant got
pissed off when Silva called him a Russian refugee.
Silva rarely visited him at his house. The defendant
spent most of his other life, the other side, the jihadi
side, in the privacy of his bedroom, sometimes with his
brother, sometimes with his headphones on. There he
descended into violent Islamist extremism.
The computer evidence showed you that since 2011,
well before the missing thumb drive that you heard
about, he had been accessing these jihad nasheeds and
other inspirational media on his laptop. The defendant
got the stuff, he read the stuff, he believed the stuff, and
he acted on it. That’s what the computer evidence
shows. He assembled a library. Some of it Tamerlan
gave him; some of it he gathered himself. The defendant would put his headphones on and lose himself in the
chants, the lectures, the music of jihad. He escaped when
he put that music on. And that’s why he put it on all of
his [43-87] phones, his iPods, his computer, all without
his brother.
In fact, even after his brother left for Russia, the defendant was accessing jihadi materials on his computer.
He was accessing Anwar al-Awlaki. That’s why he
went back to Watertown to grab that CD of jihad—
nasheeds CD—nasheeds on that CD before they headed
to New York. They were doing this together, just like
other terrorists. They had decided that justice for
them meant they were becoming holy warriors.
The defendant’s radicalization started years before,
perhaps even in high school. But you saw that no matter when it started, by the time it was Patriots’ Day of

232
2012, the year before the marathon bombings, the defendant had completely internalized Anwar Awlaki’s
message. He posted this quote: “They will spend
their money, and they will regret it, and they will be defeated.” Now, none of his friends would know what this
means unless they, too, had listened to Anwar Awlaki.
That day, he went to the marathon with his friend.
Later, he accessed some of the jihadi materials on his
computer.
And on Christmas break of 2012, the
Christmas before the bombings, he accessed the Inspire
magazine with the bomb-making instructions on the
desktop computer in his bedroom at 410 Norfolk. The
computer evidence shows that this complete file, which
is the file of that first Inspire magazine, was accessed on
December 23rd, again on December 26th, and we know
he was accessing his own email on that computer.
[43-88]
Of course we also know that he and his brother were
planning something then because he said so. This—
sorry. The cell site location also showed that he was at
the dorm room—excuse me, at the 410 Norfolk Street
around Christmas of 2012. This is Chad Fitzgerald.
He even said that he was doing something with
Tamerlan—this is Christmas Day back in 2012—doing
something with Tamerlan. “I’ll hit you up in a bit, bro.”
Later, talking to that same friend, he explains that he
wants to bring justice for his people. This is his mindset at that time.
Later, talking with the same friend in January, he
says, “There’s one other option, bro. Get the highest
level of Jannah.” His friend asks whether it’s jihad.
He says that he’s really down with the jihad way of life,

233
and the defendant said, “Don’t be hot over the phone.
LOL. Be for that, man.”
Then finally he says here, January 28th, “I got a plan.
I’ll tell you later about it.”
He was conscious of the fact that law enforcement
may have actually picked up on his conversation. He
was careful. That’s what you do when you live a double
life. What they were doing together was starting their
plan to bomb the Boston Marathon. What they were
doing together was planning to get a gun. What they
were doing together was getting ready for what unfolded.
[43-89]
During that time, the defendant starts accessing
more websites related to this extremist material, and he
creates another alter ego online. He creates this—
another Twitter account called Ghuraba. You heard
that means stranger. In fact, he says it right here.
“Ghuraba means stranger. Out here in the West, we
should stand out among the non-believers.”
He talks about the infidels and getting victory over
them. He talks about the weapons of the believers.
And he talks about Anwar al-Awlaki, and he encourages
people, his followers, to listen to Awlaki’s Hereafter series. It worked on him. He said he strives to reach
Jannah, or paradise.
We saw from the defendant’s computer witness that
around March of 2013 it was the defendant who was accessing Awlaki files on that portable hard drive that was
found in Watertown. He wished the Silva twins a
happy birthday at the beginning of April, he picked up
some pot and then he retreated to the place where he

234
found comfort, with his headphones on, with his brother,
in his bedroom at 410 Norfolk, his black flag on the wall.
He had found the solution for his failures. He had opportunities to make different choices along the way.
These are the choices that he made, and that’s why we’re
here.
Now, you won’t be surprised to know, as the judge
already explained to you, that blowing up bombs at the
Boston Marathon and the other places is a violation of
several federal laws. And the more bombs, the more
charges. And while the [43-90] verdict slip may be long
and sometimes confusing, you should not be intimidated.
Each of the elements are straightforward, and the
crimes are, in the end, pretty simple.
Although the defendant’s charged with 30 counts, 30
different crimes, many of them overlap. You heard
from the instructions how some of them overlap, and
they interrelate to each other. There are really only
six sets of charges. They involve different crime scenes
and different acts.
Many of the charges are interrelated, so that, for example, using a bomb with a firearm together might be a
separate charge than just using the bomb or just using
the firearm. And using either of those, the bomb,
which is technically called a firearm, in the course of one
of the conspiracy charges, the conspiracy to use a weapon of mass destruction, conspiracy to bomb a place of
public use, and the other conspiracy charge, that each of
those is—also constitutes a crime.
Some of the charges involve a conspiracy, and the
judge explained that to you, and it’s basically when two

235
or more people agree to do something that the law forbids. That itself is a crime. You don’t actually have
to go through with it. If you plan to do it, then just that
agreement becomes the crime.
In this case, there are three sets of crimes—conspiracy crimes. And they relate to the entire chain of
[43-91] events, from the beginning to the end, because
this was a terrorist conspiracy; they were trying to inflict terror. The agreement was between the defendant and his brother to engage in this terrorist bombing
campaign.
And this chart helps you explain—helps kind of
graphically represent how you might want to think
about this. I’d suggest to you the best way—the best
tool that you’re going to have as you deliberate is the
verdict slip itself. It lays things out in a step-wise manner. You can answer one question, then move to the
next. And it tracks the language in the indictment.
And you can use that as a guide.
But just so you have a graphic representation on how
to compartmentalize from 30 charges down to about six,
put them in this mode. The last conspiracy was maliciously destroying property.
The first set of counts involves the marathon bombing. Judge O’Toole told you that the conspiracy is one
way to find liability, and the other way is to find through
something called aiding and abetting. When two people who do a crime together, where each has a different
goal but they both intend to do the same crime and act
in accordance with that plan, that they’re equally guilty
in the eyes of the law. And that’s why the defendant is

236
guilty for the crimes in front of Marathon Sports just as
much as he is for those in front of the Forum.
Each of the two bombs at the marathon killed and
[43-92] caused grave risk of harm. Each were weapons
of mass destruction and technically constituted what are
called firearms.
There’s one other element that may not be selfevident, and the judge touched on it, and that’s that the
place of public use must affect interstate commerce.
Clearly the stores, Marathon Sports and Forum, affects
interstate commerce. The marathon itself interstate—
affects interstate commerce. And “interstate commerce” basically means that they’re in the stream of
commerce. And that, as you can imagine, is an element
because this is federal court.
For some of the other crimes, the interstate commerce element will also come in. That’s why—one of
the reasons you heard that there was a stipulation that
the Mercedes, Dun Meng’s Mercedes, that that too had
traveled in interstate commerce, because as part of the
carjacking you have to find that that had traveled in interstate commerce.
You also heard that the Ruger, the gun, was manufactured out of state, so that too traveled in interstate
commerce, again because of one of these elements.
And then finally, the ATM card, going in and taking
money out of Dun Meng’s ATM bank account, which was
connected to all the other banks in the country and
around the world, that too affected interstate commerce.
That’s why that information was presented to you.

237
[43-93]
So the first set of charges, the overall conspiracy;
then scene A, these are the substantive counts; then
scene B, these are the substantive counts at the Forum.
Then there are the charges of the murder of Sean
Collier, Counts 16 through 18. Those involve using the
firearm in order to commit the crime of violence.
They’re based on the fact that in the course of the conspiracy they used that gun so that they could continue
their campaign of terror. And since we’ve said from
the beginning it doesn’t matter who pulled the trigger,
both the defendant and his brother are equally guilty of
committing this crime.
Third, you have the use of the—to skip over the robbery for a second, you have the use of the gun and the
bombs in Watertown. These are the charges related to
how this defendant and his brother tried to kill the police
officers in Watertown. It’s hard to imagine how Officer Donohue actually survived and how more officers
weren’t injured, but for each pipe bomb that had exploded, the pressure cooker bomb and the use of the
Ruger—each of those provides a basis for another criminal charge.
And you’ll see that these crimes, as you’ll see in the
verdict slip, they’re couplets. So when you use one of
these device—a firearm in the course of commanding
another crime of violence, then that itself is a crime, and
that’s why you’ll see two pairs of charges for each of
those for [43-94] Watertown.
And then finally, the robbery of Dun Meng. He was
charged with carjacking Dun Meng’s car, and the fact

238
that Officer Dick Donohue was seriously injured as a result of that carjacking.
Many of the charges involve the use of a firearm, one
of the bombs and the Ruger, in conjunction with the
other charges that I mentioned. Because of this, you’ll
have to go through and assess whether each of the
bombs that exploded was used and whether the Ruger
was carried, brandished—which the judge explained
means shown—or discharged, because the evidence in
this case is that all of those things happened. Even
though these charges capture similar conduct, they involve different elements, and for that reason, the defendant is guilty of those crimes as well.
The defendant and his brother teamed up to terrorize
a region in 2013. They bought bags full of bombs,
planned to kill even more, and by the end, they had murdered four people, they had maimed 17, and they wounded
hundreds, more than 240 others. Martin William Richard, Krystle Marie Campbell, Lingzi Lu, and Officer
Sean Collier are no longer with us. This is the result of
the defendant’s choice to be a terrorist hero, to make a
statement. These were choices that he was proud of,
and it devastated the lives of those who survived.
This is how the defendant saw his crimes.
[43-95]
(Audio and video recording played.)
MR. CHAKRAVARTY: But this is the cold reality
of what his crimes left behind.
(Photographs displayed.)
MR. CHAKRAVARTY: Officer Collier was shot
five times, at least three shots in the head, two from

239
close range. One shot was between the eyes.
of his gunshot wounds.

He died

Krystle Campbell received massive blast injuries to
her lower extremities. Parts of her body were shredded from the bomb. She lived for up to a minute while
the blood seeped out of her body onto the pavement.
She told her friends that her legs hurt, and she died
from loss of blood.
Lingzi Lu received mass injuries all over her body.
She didn’t even plan to be there on that day. Her leg
was torn open, transecting her blood vessels. She bled
out as emergency responders performed CPR on her.
And Martin Richard. His entire body was shattered. It was broken, eviscerated, burned.
There
wasn’t a part of this boy’s body that wasn’t destroyed.
You’ll probably never forget Bill Richard. At one
point he said, as only he could, “I guess we were just
unlucky that day.” But there was nothing about this
day that was a twist of fate. This was a cold, calculated,
terrorist act. This was intentional. It was blood
thirsty. It was to make a point. It was, “Tell America
that we will not be terrorized by [43-96] you anymore.
We will terrorize you. We will punish you.”
The Richard family happens to pass—their path happened to cross the defendant’s that day, and the defendant made them pay. He was there to punish.
Each of the 30 criminal charges capture the criminal
conduct that the defendant and his brother did. The
defendant ran away from Boylston Street. He ran
away from Officer Collier’s killing at MIT. He fled the
scene in Watertown, and he hid in that boat, and he

240
penned his last justification, taking credit and being
proud of what he had done.
Now, ladies and gentlemen, finally, it’s the time to
hold him accountable, to find him responsible for each of
the charges in the indictment. We ask you to do that
now.
THE COURT: I think, in light of the hour, we’ll
take a lunch recess at this point.
So, jurors, we’ll take the lunch recess as normal.
We’ll resume, I guess, at two o’clock to give everybody
comfortable time.
Please, no discussion of the case, obviously, until
you’ve heard the rest of what we have to present today.
And I’m sure you’ll find other things to talk about and
engage your interest during the lunch. Enjoy the
lunch, and we’ll see you at two o’clock to continue the
matter.
THE CLERK: All rise for the Court and the jury.
The Court will take the lunch recess.
[43-97]
(The Court and jury exit the courtroom and there is
a recess in the proceedings at 12:53 p.m.)
THE CLERK:

All rise for the Court and the jury.

(The Court and jury enter the courtroom at 2:14 p.m.)
THE CLERK:

Be seated.

THE COURT: All right.
with the defendant’s closing.

We’re ready to continue

Ms. Clarke.
Are you using the CART computer?

241
MR. FICK:
Thank you.

I think it’s all set up, your Honor.

MS. CLARKE:

Good afternoon.

THE JURORS:

Good afternoon.

MS. CLARKE: In the past few weeks, we have
come face-to-face with tragedy, suffering and grief in dimensions that none of us could imagine possible. We
would never have thought that this devastation would
touch our lives so directly.
We’ve heard words, we’ve heard screams, and we’ve
heard cries. We’ve seen shocking videos; we’ve seen
horrific photos; we’ve seen the clothes of young Martin
Richard. We’ve seen the faces of people who live daily
the pain and devastation that we only witnessed.
For this destruction, suffering and profound loss,
there is no excuse. No one is trying to make one.
Planting [43-98] bombs at the Boston Marathon one
year and 51 weeks ago was a senseless act.
Jahar Tsarnaev followed his brother down Boylston
Street carrying a backpack with a pressure cooker bomb
in it and put it down in front of the Forum restaurant,
knowing that within minutes it would explode. Three
days later, Tamerlan Tsarnaev murdered Officer Collier, and Jahar was right there with him.
Within a half an hour or so, Tamerlan—this is giving
me feedback—Tamerlan Tsarnaev held a gun to Dun
Meng’s head, demanded him to drive, and Jahar followed in the Honda. He took the ATM card, he took
the code, and he stole $800 from Dun Meng’s ATM account. Jahar was part of a shootout in Watertown.
We know that his brother had the Ruger P95 because he

242
was shooting at the police.
BB gun.

We know that Jahar had a

Still, he hurled explosives at the police, and when he
saw his brother walk into a hail of gunfire shooting,
clearly determined to go out in a blaze of glory, he ran
to the Mercedes and escaped as police riddled the Mercedes with bullets. And he ran over his older brother,
the brother that he loved, and the brother that he followed.
When I talked with you almost—just over a month
ago, I said to you the evidence would bear out all of the
events that I just talked about and that they just talked
[43-99] about. And it has. I said to you that we would
not disagree with this evidence or dispute it, challenge
it, and we haven’t. I said to you that it was inexcusable,
and it is. And Jahar Tsarnaev stands ready, by your
verdict, to be held responsible for his actions.
I also told you that while we agreed with the prosecution on a lot, mostly the big questions in this case—
the who, what, where and when—we very much disagreed about the why. In order to fully understand
what happened on April the 15th, 2013, and the four days
that followed it, it’s important to know who did what and
why it was done. Tamerlan and Jahar were brothers,
but they’re both individual people who thought differently, acted differently and had a very different role in
the conspiracies charged.
The prosecution must believe that this is important
to understand their varying roles because they made an
issue of it and attempted to bring you evidence that
Jahar Tsarnaev was an equal partner with his brother

243
and that he self-radicalized himself.
true.

This is simply not

What you heard from the government, and you heard
it again today—they made the bombs, they killed Officer
Collier, Tamerlan didn’t always lead down Boylston
Street, they said to Dun Meng certain things—when the
evidence is that Tamerlan built the bombs, Tamerlan
murdered Officer Collier, Tamerlan led and Jahar followed, and Tamerlan talked always to [43-100] Dun
Meng. You remember his testimony.
So let’s talk a little bit about what the evidence does
show in terms of roles. Who researched building the
bombs? Who bought the necessary materials? Who
planned this series of horrific events? And I see you
don’t have notes, so I won’t give you exhibit numbers,
but I want to show you some exhibits and talk with you
about some of the exhibits.
We know that Tamerlan did Internet research about
the electronic parts. And you can see it here. The radio transmitter receiver, the radio transmitter, the transmitter receiver, the radio, all on April the 7th. You can
see it; I think it’s—is it on your screens? The fireworks
firing system. Tamerlan did that research.
Tamerlan’s computer—and if we could pull up the
next one.
Tamerlan’s computer had a Russian translation of
the Inspire magazine. Remember that, the Inspire
magazine, bomb-making instructions. He had a sort of
value-added Russian translation on his computer which
advised search the Internet with the terms “radio detonator” and “mobile detonator.” There was a Russian

244
language set of instructions on Tamerlan’s computer,
and this is in evidence with the translations.
The second document was telling people how to construct these bombs without blowing themselves up.
Also, when you’re making the bomb, get rid of all the
metal things, [43-101] as they might detonate the powder. Work only with wooden and plastic things; for example, you should not use a metal bucket and all that is
connected to it. That was on Tamerlan’s computer.
Those bomb-making instructions were not on Jahar’s
computer.
Tamerlan bought the pressure cookers. Now, we
heard evidence and I think we saw the GPS maps of the
January 31st purchase of pressure cookers. Today the
prosecutor suggested to you that perhaps Tamerlan
bought them. Of course Tamerlan bought them because here’s what we know: Tamerlan is at the—he
stops at 7:45 p.m. up north of—here’s Saugus, but up
north, and then he comes back and he stops at 8:13 p.m.,
and the pressure cookers are purchased at 8:38 p.m.
So he’s on the road at 7:45, stopping at 8:13 and buying
the pressure cookers at 8:38 p.m.
Where was Jahar? He was in Dartmouth during
those time periods. It’s not that it might have been
Tamerlan buying the pressure cookers; it was Tamerlan
buying the pressure cookers. Jahar was in Dartmouth.
Well, his telephone was in Dartmouth. Now, I don’t
know too many 19-year-old folks who leave their phones
and go without them. In fact, the prosecutor made the
point of that, how they always carry their phones. And
here’s Jahar with an outbound text and data usage on
his phone making it impossible for him to have been

245
where the pressure cookers were bought and when the
pressure cookers [43-102] were bought.
Tamerlan bought the—you saw with Agent Knapp’s
testimony that the agent that brought us the mock-up of
the pressure cooker bombs, and he showed you the car—
how the car would be used—the parts of the radiocontrolled car would be used. Tamerlan brought—
bought a radio—the Rally Monster truck. On February the 8th, it was shipped to his house. And we can
show what he purchased at the bottom of the receipt.
Can you pull it up?
MR. FICK:

No.

MS. CLARKE: Well, the bottom of the receipt
shows—there we go—purchasing the Rally Monster—
Off-Road Rally truck. It has rechargeable batteries
being purchased and transmitters being purchased.
Tamerlan bought those.
Tamerlan bought the BBs that were loaded into the
bombs. Now, that was another one of those series of
GPS maps, and then Jerry Grant, who testified, showed
where Jahar’s phone was.
Here is the GPS that shows Tamerlan’s journey that
day, and I want you to hang on in your head for a moment, if you can. The first stop was at Keller Street in
Manchester, New Hampshire.
Walmart in Keller
Street in Manchester, New Hampshire. There’s a receipt for the purchase of BBs at 3:22 p.m. Keller Street.
And then there’s a stop at Bedford, New Hampshire,
and then there’s a stop in Amherst, New [43-103] Hampshire, and another purchase of BBs at the Amherst, New
Hampshire, stop. The purchase was in the—at 5:36
p.m. And then there’s another stop in Hudson. So

246
there’s a stop on Keller Street, Bedford, Amherst, and
Hudson.
Now, you remember Tamerlan Tsarnaev’s wallet that
was found in the back of the Honda on Watertown. In
his wallet were a variety of receipts that we helped put
into evidence. And one of the documents in his wallet
was this, with Walmart and telephones, Hudson, New
Hampshire; Keller Street; Bedford. He had his notes
in his wallet of where he had gone to purchase the BBs.
Where was Jahar? Again, he was in Dartmouth.
Data usage on his phone, an outbound text on his phone
at about the same times that the purchases were being
made.
It’s not that possibly Tamerlan bought these items;
he did. Jahar wasn’t with him.
Tamerlan bought the additional electronics on April
the 8th. There’s a receipt, RC Cars of Boston, that was
found in one of the cars parked on Norfolk Street. And
it’s in Tamerlan’s name, RC Cars of Boston. And I
think it was Agent Knapp who again told you that that
was a purchase of an additional transmitter and receiver. Tamerlan did that.
Tamerlan searched online for the Boston Marathon.
The prosecution argued to you that Jahar selected the
marathon. Tamerlan did. Tamerlan searched the
Boston Marathon before the [43-104] Boston Marathon.
There are no such searches on Jahar’s computers.
This is Tamerlan’s Samsung laptop.
Tamerlan bought the backpacks. He—again in that
wallet, there’s a Target receipt for purchase of the backpacks.

247
Have you got that, Bill?
Here’s the—it’s in the wallet. You’ll see a picture of
all of the items that were in the wallet, and you’ll have
the wallet as well, but in the wallet is the Target backpack purchase. And here’s the picture of Tamerlan
leaving the store. He was alone.
Now, the prosecution introduced a lot of evidence
found at the Norfolk Street apartment, and you would
think that they gave it to you because it’s related in some
way to bomb making. But what didn’t they bring to
you? Whose prints were all over those items?
Now, the cross-examination of Elena Graff, who was
—it’s a first for her. She’s an FBI fingerprint analyst
called by the defense to testify about fingerprints, and
the cross-examination [sic] is some fingerprints disappear. So all of Jahar’s fingerprints disappeared, and
Tamerlan’s stayed on there. You know who made
these bombs. It was Tamerlan.
We know from Elena Graff that Tamerlan’s prints
were on the glass jar with the nails in it. Tamerlan’s
prints were on the caulk gun. Tamerlan’s prints were
on—well, you’ll find this caulk gun in several places. I
think actually [43-105] physically in evidence, but you
won’t be able to find fingerprints on it. I wouldn’t be
able to. But prints were on it. And it’s also in the interactive. Remember that exhibit that you can click on
and see the room and click on a button and it shows you
what was found where? It’s also in that exhibit. Tamerlan’s prints were on the tape. Tamerlan’s prints
were on the solder gun. In fact, in Tamerlan’s wallet
was a Home Depot receipt for the purchase of that solder gun.

248
Tamerlan’s prints were on the tape inside the toolkit.
Tamerlan’s—and this is just a larger picture. You can
see the little ring of tape where they found Tamerlan’s
prints and the toolkit. Tamerlan’s prints are on a set
of pliers in the toolkit. Tamerlan’s prints were on the
gun-cleaning kit. And Tamerlan’s prints were on the
wiring book.
So the items of evidence that the prosecut- —and the
government—that the investigation seized from Norfolk, those items were seized because somebody thought
they were relevant to bomb making. And whose prints
were on them all? Tamerlan’s. Whose prints were
not? Jahar’s.
Elena Graff, though, FBI fingerprint analyst, also
told you that Tamerlan’s prints were found on two items
of evidence seized on Boylston Street. The cardboard
was seized from what they called Scene A, the first
bomb, and the paper inside an exploded backpack seized
at what they call Scene B, the second bomb; and Tamerlan’s prints were found on the [43-106] cardboard, and
Tamerlan’s prints were found on the paper. Whose
prints were not found? Jahar’s.
There was a transmitter found at Watertown that
Elena Graff also analyzed, and this was the lab photo of
it sort of dismantled. Tamerlan’s prints were found on
the transmitter.
There was a pressure cooker lid. And you may remember the picture. It’s like it landed far away and in
somebody’s backyard, the pressure cooker lid. Tamerlan’s prints were found on it.
We know that explosive residue was found on a set of
rubber gloves found in Tamerlan’s car. Remember the

249
agent testified about that being residue?
Tamerlan’s car.

Found in

And notably missing was any residue found in Jahar’s
dorm room where he did live. There was some explosive residue found in Norfolk where he didn’t live. And
contrary to what Agent Imel—you may remember his
testimony early in the days of this case—contrary to his
suggestion that Tamerlan didn’t always lead down
Boylston, he did.
So let’s be honest about what the evidence actually
shows. We are not asking you to excuse the conduct,
but let’s look at the varying roles. Tamerlan shot and
killed Officer Collier. The prosecution argued they
didn’t know who did that murder. We know. We
know. Let’s look at the evidence of what we know.
First, he confessed to Dun Meng that “I just killed a
[43-107] policeman.” He confessed. You probably remember this video, and I don’t think we have to play it
again. The prosecution played it for you. This is that
—that—you’ve got the distant surveillance and then the
up-close surveillance. Oh, they’re playing it.
(Video recording played.)
MS. CLARKE:
Bill.

Very clearly—if you can stop it,

Very clearly, two people walk up to the driver’s side
of Officer Collier’s car. Two people. Very clearly. I
mean, to the extent anything is very clear, but you can
see two figures, one in front of the other, walking up to
Officer Collier’s car.
Now, Nate Harman, the MIT student who came in,
rides by on his bicycle not long after this. He rides by

250
on his bicycle. Remember, he’s going home. It’s a little late, and he’s going to bike on home. And what Nate
Harman said is, “I only saw one person.” And that one
person was who? Jahar. And that one person stood
up—had the yellow on his sweatshirt and stood up, and
they locked eyes for a moment. That was the only person that Nate Harman saw.
So where was Tamerlan? If Jahar is standing up
and looking at Nate Harman, where is Tamerlan? As
the door opens—you know, here’s the car, and the door
opens—there’s a V. Here’s Jahar standing, looking at
Nate Harman. Where is Tamerlan? He’s got to be
squatted down trying to get [43-108] Officer Collier’s
gun. And getting Officer Collier’s gun would put blood
on your hands or blood on the gloves that you were wearing.
Now, remember those gloves were found in the
driver’s side floor with blood on them? Whose blood?
Officer Collier’s blood. Officer Collier’s blood was found
on the keys, so the gloves were used to start the car.
Where were the—where was Tamerlan’s personal
belongings found?
And I don’t know if we have it.

Exhibit 879.

Where was Tamerlan’s personal items found?
Right behind the driver’s seat in the Honda. The
bloody gloves are found on the driver’s side. Tamerlan’s wallet was found on the backseat driver’s side.
Now, the prosecution put on Stephen Silva to say that
Jahar asked him for a gun. But pretty clearly that gun
went to who? Tamerlan.

251
In addition to the confession that he gave to Dun
Meng, Tamerlan did what? He searched the Ruger
P95 on the Internet. He had the gun at Watertown.
He shot at the police at Watertown. He threw the gun
at the police at Watertown. Tamerlan had that Ruger
the entire time. Tamerlan is the one who murdered Officer Collier. Whose prints were found on the magazine that went in that gun? Tamerlan’s.
Now, what does any of this matter when we know that
[43-109] Jahar walked down Boylston Street with a
bomb in a backpack and put it down in front of the Forum restaurant? When he was beside his brother when
his brother murdered Officer Collier? When we know
that when Tamerlan held Dun Meng hostage, Jahar took
money out of his account; and we know that Jahar hurled
bombs at the police? What does any of what I just discussed with you matter?
It matters because you’re entitled to know the full
picture. It matters because it’s important for us at this
stage to tell you as much as we could. We don’t deny
that Jahar fully participated in the events, but if not for
Tamerlan, it would not have happened.
There’s some other things that we should talk about,
and one is radicalization. The government wants you
to believe that Jahar was self-radicalized essentially
from high school; that he was a young extremist in the
making; that he was a young jihadi in high school in the
making; that his tweets were jihadi; and that he attended the 2012 marathon, I guess, because he was planning it that much in advance.

252
They brought you Stephen Silva to suggest that there
was a debate in the world history class and Jahar took
some extreme position. He didn’t.
They continued to flash up onto the screen but when
going through the computers a paper called “The Predator War”—you’ll see it—in which there was a discussion of the [43-110] use of drones. And what they seemingly just simply deny is that was a class assignment,
and instead use it to try to promote that Jahar was a
young jihadi in the making.
The government introduced the black Islamic flag
and a picture of Jahar in front of it suggesting selfradicalization and suggesting perhaps a connection to a
terrorist group. They just played, to tug on your heartstrings, some nasheeds while looking at the flag, suggesting that there’s something ominous or wrong about
that flag. Their own expert, their own expert, Matthew
Levitt, said there’s nothing radical about that flag.
Some groups have adopted it, but there is nothing radical about the flag. It is a religious flag.
The government argued to you through Stephen
Silva, again, that Jahar went to the 2012 marathon.
Now, going back that far, it’s hard to convince somebody
you weren’t where they say you were that long ago.
But we did the best we could to provide you circumstantial evidence, and I think the circumstantial evidence is
pretty strong that he wasn’t there.
There is, in evidence, again, one of the swipe card
sheets from UMass Dartmouth on April 15th in the afternoon, about four o’clock. Jahar goes in to Maple
Ridge Hall, which was the dorm he was in first year.

253
At about five o’clock, he tweets, “I’m about to sleep for
20 hours.” That sounds like a 19-year-old to me.
April 16th, the next day, the day of the 2012 [43-111]
marathon, at 6:42 in the morning he tweets—and you’ve
seen this tweet quite a lot, actually—“They will spend
their money, and they will regret it, and they will be defeated.” Now, that—everybody debated the source of
that and what that meant and the context of it.
At 8:38 in the morning, Jahar tweets, “Hmm. Get
breakfast or go back to sleep? This is always a tough
one.” It sounds like a teenager. At 8:45 he tweets,
“Sleep after breakfast is so much sweeter.” At 8—at
10:56, he uses his access card to come back into the
dorm. At almost—12:46, almost one o’clock, he’s tweeting again.
At 1:30 in the morning—again, only the teenagers
can do it—he uses his access card to enter his dorm
again. The likelihood that this kid, who was sleeping
and eating breakfast and going back to sleep and about
to sleep for 20 hours, drove to Boston and went to the
2012 marathon is slim. I don’t know what it means if
he did, but it sure doesn’t look like he did.
The government suggested to you deep and selfradicalization by the—remember the Al_Firdausia account, the seven tweets over a two -day period of time?
Look at them. There is no promotion of violence in
there. There’s no promotion of extremism in there.
Looking back, somebody can always say that you must
have been thinking something evil at the time. There
isn’t. And regardless, it went for two days [43-112] and
ended. Jahar lost interest in it.

254
The government then suggested that Jahar’s regular
Twitter account—and you may remember the agent that
testified and Ms. Conrad who cross-examined him about
the tweets. And they’re suggesting that all of these
tweets had some ominous, evil context to them. The
agent didn’t bother to investigate rap songs, to investigate Nas’ and Eminem and Lil Wayne and to investigate
that the quotes from poems, from horoscopes, from
Comedy Central, instead telling you that this is some evidence of a jihadi in the making. The entire tweet is in
—it’s Exhibit 3,000. It’s a thick document. And it’s in
evidence, and you can look.
And the government really cherry-picked the tweets
that they showed you and left out the ones where it was
pretty much teenage, adolescent sort of tweeting about
girls and missing class and not doing homework and
sleeping.
If we look in the context of the allegation of selfradicalization, let’s look at Jahar’s Internet-browsing
history. Remember Mark Spencer, the computer guy
that came in and testified? And here’s Jahar’s browsing history. The leading candidate is—not candidate,
the leading browsing search was Facebook. The next
one was VK, which is the Russian Facebook. This is a
kid doing kid things. This is an adolescent—this is a
teenager doing teenage things.
The government suggested to you that a representative [43-113] sample of the documents on Jahar’s computer were all jihadi, and they selected a few files from
500,000 items and thousands of files on a computer and
brought them to you. We do not deny that he had these
extremist materials on his computer. But let’s be honest about how prominent they were in his life and when.

255
The library of extremist materials—you remember
the hard drive found in Watertown—we called it the
Laurel hard drive—and it was found inside a computer
bag that had Tamerlan’s high school graduation certificate, a travel document that—for Tamerlan. It had
Tamerlan’s computer in it. That computer bag had the
hard drive in it.
And what we brought to you was very clear evidence
through Mark Spencer that that hard drive was formatted by Tamerlan’s Samsung; that hard drive was loaded
—all of those documents on that hard drive came from
Tamerlan’s Samsung laptop.
There was a lot of discussion about complete Inspire.
That’s the one that has “How to Build a Bomb in the
Kitchen of Your Mom” in it. A lot of discussion about
that. A lot of times you were shown that document.
But we tried to trace the history of it for you. We
know that Tamerlan got his—activated Windows on his
laptop. I hope you’re computer friendly, but after listening to how much you know about people from computers, I think we may want [43-114] to never use one
again.
But complete Inspire was on—let me start this way:
Tamerlan’s laptop opened Windows on December the
21st.
Have you got that, Bill?
MR. FICK:

Hang on.

MS. CLARKE: Do you remember Mark Spencer
showed you a PowerPoint-slide-looking thing that had
Tamerlan’s laptop, the Sony and the HP? And it

256
showed when Windows was opened on all of those. Essentially what that means is that’s when the computer—
somebody got it and started it up and began to use it.
And Tamerlan’s laptop was—Windows was loaded—
Have you got it here?
Windows was loaded on Tamerlan’s laptop on December 21st, 2011. The complete Inspire went onto Tamerlan’s laptop on December 21st, 2011, almost immediately. And then we can show you the flow of this complete Inspire magazine because it goes from Tamerlan’s
laptop, which is the Samsung—there’s an attachment of
the Patriot—the now-missing Patriot thumb drive—to
the laptop on January 21st. And remember, January
21st is the day that Tamerlan left for Russia.
The file was created—complete Inspire was created
on that Patriot thumb drive from the Samsung, and then
it attached—the Patriot attached then to the Sony, and
the file was created on the Sony. So it came from Tamerlan’s laptop to the Patriot thumb drive to Jahar’s laptop. That is the course [42-115] of the complete Inspire
magazine. It does not mean that Jahar did not have it,
but we need to understand who was leading and who was
following.
The government made a—well, we also have a chart
of the other Inspire magazines, you know, because the
one was how to build a bomb in the kitchen of your mom,
and then there were these other Inspire magazines, and
they follow essentially the same path. The Samsung
attaches to the missing Patriot thumb drive on January
the 21st, the complete Inspire is created, and the attachment also creates the remaining Inspires, and they go
onto the Sony, and you can see the time, 6:22, 6:24, 6:24,

257
25, 25.
Sony.

They go from the Samsung to the Patriot to the

Now, the government made a big deal about the HP
desktop at Norfolk and, in fact, today said that Jahar
accessed jihadi materials over the Christmas break on
that HP. I have no idea where that evidence comes
from or where that suggestion comes from. We do
know that at, like, two in the morning on January the
1st, Jahar accesses his email on that. He’s clearly
home for Christmas break. The testimony that we
heard about that HP was that everybody in the household used it, that it was open, and that it was clear there
were multiple users. And I don’t know why we would
suggest today that it was Jahar accessing those materials and not Tamerlan.
Two thumb drives were found, one in the dorm room
and one in the Crapo landfill.
Remember those?
They both had [43-116] extremist materials on them.
But what else did they also both have on them? Katherine Tsarnaev, Tamerlan’s wife’s paycheck stub and a
rental application in her name. Those thumb drives,
fairly clearly, came from Tamerlan.
Let’s talk for just a minute about Jahar’s actions after the bombing because the government makes a big
deal about buying the milk and going to the gym. It is
bizarre. It’s about as bizarre as going back into the
Mobil station to put the Doritos back down when Tamerlan comes and says, “Hurry up.” It’s about as disconnected as that.
I think what it really shows is that, overall, he bought
into his brother’s plan and his brother’s actions and, as

258
the boat writing suggests, was convinced they were
right.
We should talk about the writings in the boat. We
should talk about these. You won’t find them on the
verdict form, but you will find them in the evidence.
The prosecution sort of paints the picture of calm reflection inside the boat and that Jahar had time to think and
plan out what he was doing.
Remember how he got there? He had gotten into
the Mercedes, fled into a hail of gunfire, the windshield
bullet-riddled. There’s a series of these Mercedes pictures. But you can see the bullets right at the driver’s
—you can see a picture where the bullets lodged into the
headrest. There wasn’t time for calm reflection.
[43-117]
You’ve seen the boat. He’s in the boat, and he’s
bleeding, and you’ve seen the pictures in the boat of the
blood all over. And what does this 19-year-old do?
He tries to tell why they did what they did. It wasn’t
like it was written out and ready to be distributed. It
wasn’t like it was a message to the world. It was this
19-year-old’s attempt to write about why they did what
they did.
And what does he say? “I’m jealous of my brother
who has received the reward of paradise. He’s gone.”
And he tries to explain why they did what they did.
What he doesn’t write in here is what you might think a
violent jihadi might write: “Death to America.” He
doesn’t write that. He doesn’t write—he doesn’t write,
“Curse to America.” He knew it all along that it was
wrong to take innocent lives, and he says that. But he

259
expressed the very twisted belief, the very twisted belief, that his actions would make a difference.
The government tried to tie these writings to Inspire
magazine and some of the other extremist materials.
It’s not on your verdict form to find, but if you look at
those other materials, maybe some of the ideas expressed are in there, but the language is not. That’s up
to you to judge. And we don’t know whether he got
that, those ideas, from Inspire magazine or from his
brother.
Finally, I’d like to talk with you for just a few minutes
about the four minutes on Boylston. The government —
[43-118]
Is that in your way?
THE COURT:
of the lawyers.
MS. CLARKE:
THE COURT:

It’s blocking my view of the—some
How’s that?
That’s much better.

Thank you.

MS. CLARKE: The government argued to you in
opening statement, and again now, that there were four
minutes, and Jahar could have changed his mind. They
argued to you that Jahar went to that location to target
children. They argued to you in opening that after
reaching—after talking with his brother, he reached a
safe distance and detonated the bomb. There were
families there.
And who got killed and who got hurt and who escaped
was inexplicable, and Jahar’s actions inexcusable, but
for what he saw when he arrived at that tree—and I’m
going to play that video again for you to see if there was

260
any indication that he walked up to that spot and targeted children. I think you’ll see on the clip on the
video that Jahar walks up and the selection was made
because it was a tree. So let’s . . .
(Video recording played.)
MS. CLARKE:

You see him walking up.

(Video recording played.)
MS. CLARKE:

Okay.

Thank you, Bill.

You can judge for yourselves, but the video appears
that he walks up and he stops at the tree, not at the children. [43-119] The backpack was already down by
the time of the 2:48 p.m. photo that the government has
shown us several times. There was movement by people going and coming. It does not make it better, but
let’s not make his intent any worse than it was.
The government told you in opening statement that
Jahar was—when he got a safe distance away, he detonated the bomb. We heard no evidence of how the second bomb was detonated and by whom. The evidence
does not show that he was a safe distance away. You’ve
watched it again a couple of times in the prosecution’s
argument. What the evidence does show is that he was
dangerously close when the bomb exploded.
I’m going to stop in just a couple of minutes. And
the prosecutor has an opportunity to get back up here
and to hammer home their story again. We spent our
time in this phase of the case trying to correct misimpressions and trying to complete the picture as best we
could, given the issues that you have to decide in this
phase.

261
You now have to answer a whole lot of questions.
There are 30 complicated charges. The judge spent
over an hour instructing you about them. The indictment is long. The instructions are long. The verdict
form is 30 pages—31 pages long with a lot of questions
for you to answer, for you to discuss, for you to hear
from each other about, for you to express your opinions
about. And we know that you will do that thoughtfully
and truthfully because it’s your job and it’s your [43-120]
responsibility to do it.
You’ve heard just a very little bit about who Jahar
was before April the 15th, 2013. You’ve heard a very
little bit of evidence in this phase of the case about that.
He was 19. You’ve seen that while he bought into the
plan and bought into the beliefs and passion that drove
the plan and has now changed many, many lives forever,
including his own, he was an adolescent and also doing
adolescent things. He was searching Facebook. He
was tweeting his friends. He was texting his friends.
The prosecution says this was a double life. He was an
adolescent drawn into a passion and belief of his older
brother and still living a teenage life. He was flunking
out of school, and he was making up lame excuses about
why he was failing.
You also know from the one person who testified in
this phase, Stephen Silva, the one person who knew
Jahar before April 15, 2013, testified and told you that
he never met Tamerlan, but he was controlling and
strict, and Jahar never would introduce him to Tamerlan.
In the next phase of this case, you’ll learn a lot more.
We ask you to hold your minds open. We asked you
that in the beginning of this case, to hold your minds

262
open to what more there is to hear, to what more there
is to learn, and to what more there is to understand.
We know that in the face of the heartbreak you’ve
[43-121] watched and listened to and felt, and the horrific crimes that you’ve been exposed to over the last
month, that that is not an easy task, but we ask you to
do it.
And now when you go back to the jury room, we are
not asking you to go easy on Jahar. We are not asking
you to not hold him accountable and responsible for
what he did. The horrific acts that we’ve heard about,
the death, destruction and devastation that we’ve heard
about deserve to be condemned, and the time is now. I
know, and we know, that by your verdict, you will do
what is right and what is just, and your verdict will
speak the truth.
Thank you very much.
THE COURT: The government has the opportunity for a brief rebuttal.
MR. WEINREB: So now you’ve heard the defense
all spelled out for you. The defendant may be guilty,
but his brother is even more guilty. The thing is, that’s
not a defense. That’s just the defendant’s effort to
dodge full responsibility for what he did.
Ms. Clarke told you in her opening statement that the
defendant wasn’t going to try to sidestep responsibility
for what he did in this case, but that is exactly what he
is trying to do. His defense is that his brother was the
real criminal and he was just going along to get along;
that his brother did mostly everything, he was just present.

263
[43-122]
Now, there’s nothing wrong with him making that argument. He’s entitled to try to pin the blame on somebody else if that’s what he wants to do. But you should
see that for what it is. It’s an attempt to sidestep responsibility; not to take responsibility.
It’s up to you to hold the defendant fully responsible.
You should find him guilty because he is guilty. His
own actions make him guilty. And the things that his
brother did on his behalf also make him guilty. Don’t
be distracted by arguments about what the defendant
did versus what his brother did. It makes no difference. They were partners in crime. These crimes
were a two-man job. Each one of them had a role to
play, and each one of them played a critical role in each
of the crimes. They were co-conspirators. They were
partners. And that makes them equally guilty of what
they did.
Let’s take the death of Officer Collier. Ms. Clarke
said that Tamerlan Tsarnaev is the one who shot him.
But there’s no evidence of that in this case. That is a
perfect example of an effort to sidestep responsibility;
not to take responsibility.
The video doesn’t show who fired the fatal shots, but
it does show that the defendant and his brother walked
right up to that car. They approached it from behind,
they walked right up to the door, and they yanked it
open. They knew exactly [43-123] what they were going to do. They must have planned it ahead of time.
It was a cold-blooded execution. And they couldn’t
have done it without the defendant’s Ruger.

264
The defendant leaned his whole body into the car, and
that’s what Nate Harman saw less than ten seconds
later when he rode by on his bicycle. He said he saw
the defendant leaning all the way inside, as if he were
trying to get something. The defendant had either
shot Officer Collier or was trying to get his gun or both.
Officer Collier’s blood was on the defendant’s keychain, the one he was using to drive the car that night,
and the gloves with Officer Collier’s blood on them were
at his feet, the feet of the driver’s side where he had been
driving the car.
There should be no doubt in your mind that the defendant and his brother are equally guilty of shooting
Officer Collier, no matter who pulled the trigger.
Ms. Clarke says that Tamerlan Tsarnaev confessed
to the killing when he said to Dun Meng, “You heard
about the—you know about the murder at MIT? I did
that.” Well, what else was he going to say? He was
the only one talking to Dun Meng. Dun Meng didn’t
even know there was another person in the picture.
She points out that Tamerlan Tsarnaev’s prints were
on the cartridge in the gun, as if that proved that he’s
the one [43-124] who shot Officer Collier. But Dun
Meng told you that when Tamerlan pointed the gun at
him, he pulled the cartridge out of the gun to show it to
him, to show him that the gun was loaded, and that happened after the murder of Officer Collier, that’s when
his fingers were on that cartridge, that you know about.
She also pointed out that he searched the word
“Ruger” on the Internet, but he didn’t search that until
March of 2013, and the defendant had already gotten the
gun in January or February.

265
My point here isn’t to try to prove to you that Jahar
Tsarnaev pulled the trigger, because as we told you candidly from the beginning, we don’t know who pulled the
trigger. My point is simply to point out that this is all
an effort to dodge responsibility; not to take responsibility. It’s an effort to keep trying to point the finger
at somebody else, even if there’s no evidence of it, because the truth is the defendant isn’t here—isn’t trying
to accept responsibility for what he did; he’s trying to
avoid full responsibility for what he did.
Let’s take Watertown as an example. According to
Ms. Clarke, the evidence shows that Tamerlan Tsarnaev
fired every bullet out of that Ruger at the police in Watertown. But is that really what the evidence shows?
It seems unlikely. After all, the Ruger belonged to the
defendant. He, just a month or two earlier, had paid
$150 up at the Manchester firing [43-125] range with his
brother to practice firing a 9-millimeter pistol. And
when he did that, he listed himself as an intermediatelevel shooter. He helped kill Officer Collier in order to
get a second weapon. It’s obvious that both of them intended to be firing guns that night. That was the whole
point of killing Officer Collier. That’s the whole point
of training to use the Ruger.
Sergeant MacLellan, and James Floyd, the civilian
you heard from, both testified they were 100 percent
sure that both the defendant and his brother were
throwing bombs, and it makes sense that when one of
them was throwing bombs, the other one was providing
cover with the Ruger.
But does it really matter? Does it really matter
whether both of them were shooting the gun? Even if
Tamerlan Tsarnaev was holding the Ruger the entire

266
time, the defendant was clearly doing his part. He was
lighting bombs and throwing them in an effort to kill the
police officers, or at least to keep them at bay. He
threw the pressure cooker bomb. Have no doubt about
that. He was getting ammunition out of the bag to reload the Ruger, and you know that because his fingerprints were found on the ammunition box. In Watertown, just like at the marathon, just like during the kidnapping of Dun Meng, the defendant and his brother
were full partners. They are equally guilty.
And think about—more about Watertown, something
[43-126] that Ms. Clarke didn’t even mention to you.
The three-point turn the defendant made after his brother
had already been tackled and was on the ground. He
tried to kill three police officers by running over them.
The Mercedes was pointed in the other direction, away
from the officers. He could have just driven that way
and escaped. But instead, he made a U-turn, and he
floored it, driving directly at those officers.
And why did he do it? He did it in the hopes of killing three more police officers and almost doubling their
body count. Once again, the defense doesn’t want you
to believe that. They don’t want you to focus on that
because it doesn’t fit in with their portrait of the defendant as just a passive follower. But when the defendant
attempted those murders, Tamerlan was out of the picture. The defendant was acting entirely on his own.
It shows you how independent he was. It shows you
how personally committed he was, so committed that he
was willing to run over his own brother in order to kill a
few more police officers before it was all over.
Let’s talk about the carjacking and the robbery.
It’s true, according to Dun Meng, Tamerlan Tsarnaev

267
did most of the talking in the car, but the defendant, as
always, played a crucial role. When the time came, he’s
the one who demanded Dun Meng’s ATM card and robbed
him of $800. That money was still in his wallet the next
day. And it wasn’t until the [43-127] defendant left the
car that Dun Meng was able to escape. Like all the
other things the brothers did that night, this was a twoman job. They needed both of them to pull it off, and
the moment the defendant was out of the picture, the
plot fell apart. Tamerlan wasn’t able to do it on his
own. He needed his brother’s help. And the defendant, he needed Tamerlan’s help. That’s what it means
to be partners.
Who built the pressure cooker bombs and the pipe
bombs? The defense says it was entirely Tamerlan,
but the evidence suggests otherwise. Both brothers
had the instructions for building the bombs on their
computers. You heard that a lot of explosive powder
was needed to build those bombs, and you know that a
bunch of emptied-out fireworks were found in the defendant’s backpack that his friends removed from his
dorm room and threw out that night.
There certainly is evidence that the bombs may have
been built, at least in part, at 410 Norfolk Street, and it’s
true that Tamerlan lived there full-time in 2013, but the
defendant stayed there on holidays and during the summer. He didn’t have to spend a lot of time there to help
build those bombs.
It’s also true that Tamerlan’s fingerprints were
found on things all over his own apartment, but that’s
what you would expect from somebody who lived in an
apartment full-time. And you wouldn’t expect to see

268
the same thing from somebody who was [43-128] just
there on holidays and on weekends.
Also, as you heard from the fingerprint expert, the
presence of somebody’s fingerprint on something means
that they touched it, but the absence of somebody’s fingerprint on something doesn’t mean that they didn’t
touch it. It may just mean that they didn’t have sweaty
fingers when they touched it.
Or, more likely in this case, it could simply mean that
the defendant was wearing gloves when he touched
these things. Inspire magazine specifically advises
that you wear gloves when you are building bombs.
And you wear gloves for a couple of reasons. One is not
to leave fingerprints. One is because of all the messy
powder that comes out of the fireworks before you put
them in the bomb.
And you heard that surgical gloves with powder on
them were found on the passenger side of Tamerlan
Tsarnaev’s CR-V, his car, the place where the defendant
would have sat if they were using that car to help build
the bombs.
But more important, really, is how they used the
bombs.
They decided to explode the bombs on
Boylston Street. The defendant had been there the
year before. He knew how crowded it would be. He
decided where to plant his own bomb. He chose the
place where it would do the most damage. Ms. Clarke
has suggested to you that when he walked up there, he
planted it there because there was a tree. But as you
could see from the video, he passed numerous trees on
his way to that [43-129] spot. It wasn’t just that there

269
was a tree. He was looking for the most crowded spot
he could find, one where he would do the most damage.
And even if he didn’t plant it there because there was
a line of kids along the railing, you know for an absolute
certainty that he was well aware that those children
were there. He’s staring straight at them in the picture you saw, and he looks at them many, many times in
the video you saw. He could, at any time, have picked
up that knapsack and moved it somewhere else, but he
didn’t, because that wouldn’t have fit in with the plan.
The plan was to make this bombing as memorable as it
could possibly be, and he succeeded.
He’s the one who called Tamerlan Tsarnaev to give
him the go-ahead. The defense struggled mightily in
cross-examination of the witnesses to try to suggest to
you that the 19-second phone call that’s from the defendant to Tamerlan Tsarnaev isn’t the call that took place
right before the bombings, but you didn’t hear Ms.
Clarke talk about it in her closing argument because it’s
obvious that that’s the call that took place right before
the bombings.
You didn’t hear about it because, again, it doesn’t fit
in with the narrative of the defendant just being the passive, go-along-to-get-along guy.
What you heard during the trial was a perfect example of trying to sidestep full responsibility for what the
[43-130] defendant did, but this one failed so clearly that
it wasn’t worth mentioning in closing argument, from
their point of view. It’s an inconvenient fact for them.
It’s something they don’t want you to believe. And you
should view all their other claims about the defendant’s

270
lack of involvement with the bombs with the same skepticism that you bring to that claim and some of these
other claims.
The defense argues that Tamerlan is the one who
chose the marathon as the site for the bombing. Where
is the evidence of that? There’s no evidence of that.
The fact that he searched for it a few days ahead of time
on the Internet doesn’t tell you anything. He may have
typed in the search on his computer, but you have no
idea whose idea it was in the first place. There’s no
need to research the marathon if you’ve been there before, and Stephen Silva testified that his own twin
brother and the defendant were at the marathon the
year before. And you have no reason to doubt that he’s
telling you the truth. And he told you part of the reason he knew that was that the defendant told him he had
been at the marathon.
Now, the defense has tried, again mightily, to convince you that he couldn’t have been there because he
tweeted several times during that day, and he didn’t
tweet that he was going to the marathon. If you were
going down to the Boston Marathon to case it out for a
possible bombing, would you tweet that? Of course
not.
[43-131]
Once again, there’s no evidence that Tamerlan Tsarnaev picked the marathon as the site of the bombing.
But it’s important for them that you think that because
they don’t want you to hold the defendant accountable
for everything that he actually did in this case.
Ms. Clark argued that the defendant wasn’t actually
radicalized. So how deep did his jihadi beliefs go?

271
What’s the actual evidence in the case about that?
Well, he had terrorist writings and songs and lectures
not just on his computer but on every electronic device
he owned: his iPods, his thumb drives, the CD that he
drove all the way back to Watertown to get before their
trip to New York. He had been reading and listening
to them for well over a year.
And you know that he had absorbed their teachings.
He had absorbed them well enough to tweet them to others. He had absorbed them well enough to summarize
them on the inside wall of that boat. When he wrote
that message in the boat, he didn’t have any books to
crib from. He didn’t have anyone whispering in his ear
what to say. He wrote about them like somebody who
had read and listened to and studied the material over
and over and over again until he really had fully absorbed its lessons and was convinced of it. And you
know that he had absorbed his lessons and was convinced of it because he believed in it enough to murder
people. He believed in it enough to execute a police officer in cold blood. His actions [43-132] speak louder
than words.
Same thing about the defendant’s tweets and his
searches. What do they show you? They show you
the defendant had two sides. Yes, he was a young man
with a young man’s interests and beliefs and habits.
That’s the side that he revealed to his friends. But he
was also a true believer in violent extremism. That’s
the side that he kept mostly hidden. The fact that he
borrows quotes from songs that he’s heard to express
his beliefs doesn’t mean he doesn’t have those beliefs;
just the opposite. He’s just finding a creative way to
express them.

272
And of course we didn’t show you every single file on
his computer. We didn’t show you the thousands and
thousands of files that—operating system files or some
random thing he might have downloaded from the Internet. We showed you the ones that are relevant to the
charges in this case. The jihadi materials on his computer weren’t any less convincing to him because they
were outnumbered by other files on his computer, and
you know that because he actually carried out the bombings that are recommended in those writings.
Ms. Clarke suggested to you that you shouldn’t pay
much attention to what the defendant wrote in the boat
because of his state of mind. So what do you think was
his state of mind when he wrote that message to the
world? Well, think about it. Two days earlier, three
days earlier, he had pulled [43-133] off an extremely successful terrorist attack, an attack that received worldwide attention. After the attack, he had escaped. He
had then been able to hide in plain sight until the time
was right to attack again.
But by the time he snuck into that boat, things were
different. He had been shot, and he was bleeding. He
knew the police were looking for him. He knew it was
just a matter of time before they caught him, if he didn’t
die first. So he knew this could be his last chance to
voice his true beliefs. He revealed his true self when
there was no longer any reason to keep it a secret.
The whole point of committing a terrorist attack is to
send a message, and the defendant wanted to send a
message to America that Americans are destined to lose
the fight against violent extremism. And he wanted to
send a message to his fellow jihadis. He wanted to inspire them with his words and with his actions. You

273
know that these words, the ones he wrote that night as
he lay there in that boat, are his deepest and truest beliefs. He thought they were his final words. They are
how he wanted to be remembered. They are the words
that he thought would give meaning both to his life and
to his death.
You know he was clear-headed and strong when he
got into that boat. He was clear-headed enough to
smash his cell phones first and to hide them. He was
clear-headed enough to pick the boat as a hideout. He
was strong enough to climb into [43-134] it without a ladder, despite how high it was off the ground. He was
strong enough to carve words into the planks of the boat
that you saw.
The message he wrote on the wall of that boat is perfectly clear. It’s grammatical. It doesn’t wander. It
makes sense. He probably wrote it as soon as he got in
there. You can be confident that those words are his
truest beliefs because when he wrote them, he had no
reason to tell anything other than the truth. But now
that he’s survived and he’s on trial for his life, he has
every reason to back away from the truth.
And you’ll note in that message, he didn’t write “we.”
He didn’t say, “This is why we did this,” or “This is why
we did that.” He said “I.” It was a note about him,
about who he was and what he had intended to accomplish and the message he wanted to send to the world
and to be remembered by.
Ms. Clarke said that all the jihadi materials on the
defendant’s computer came from Tamerlan in January
2012 right before Tamerlan then left to take a six-month
trip to Russia. Even if that’s true, which I’ll get back

274
to, what does it show? It shows that the conspiracy
dates back all the way to January 2012. It shows that
when Tamerlan decided to go to Russia for six months,
the plot didn’t go with him. It stayed home with the
defendant.
As Dr. Levitt told you, many, many, many people
read [43-135] jihadi materials. They are easy to find.
They’re all over the Internet. Many are probably exposed to them by family members, by brothers, by sisters, by friends. Most people read the materials and
reject them. Only a tiny, tiny number read them and
become true believers, and only a tiny fraction of those
true believers actually decide to kill people.
Tamerlan Tsarnaev didn’t turn the defendant into a
murderer by giving him a bunch of magazines and then
disappearing for six months. To shred the bodies of
young women and children with a homemade bomb,
you’ve got to be different from other people. And if you
are the type of person who can adopt a philosophy of
hate and commit multiple murders based on reading
magazines and listening to lectures, does it really matter
if you got them from your brother or from some other
terrorist or from the Internet?
If you are capable of such hate, such callousness that
you could murder and maim nearly 20 people and then
drive to Whole Foods and buy milk, can you really blame
it on your brother for giving you some propaganda to
believe?
In any event, there’s no actual evidence of where
those materials came from originally. The defense’s
computer expert acknowledged that. All you know is
that some of them were on many devices, including all of

275
the defendant’s electronic devices. Their origin remains obscure, but he read them and he believed them
and he was one of those tiny few who [43-136] decided to
act on them.
When two people commit a crime together, it’s always possible for one to point the finger at the other.
Don’t get distracted by that. The defendant and his
brother were partners. Each acted on his own behalf
and on the other’s behalf. They are equally guilty, and
that’s why we ask you to return the only fair and just
verdict in this case, which is a guilty verdict on all 30
counts in the indictment.
Thank you.

276
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Jury Assembly Room
One Courthouse Way
Boston, Massachusetts 02210
Mon., Jan. 5, 2015
9:15 a.m.
JURY TRIAL—DAY ONE—A.M. SESSION

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE

By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street

277
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC
By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant

[1A-3]
* * * * *
THE COURT: My name is Judge O’Toole. I’m
going to be presiding over this matter. I want to welcome you to this proceeding of the United States District Court for the District of Massachusetts, and especially to thank you for coming here today. You are here
because you have been summoned to be available for
service as trial jurors in this court.
The resolution of legal controversies, both civil and
criminal, by trial of the matter before a jury of citizens
drawn from the community is one of the most fundamental principles of our entire system of justice. You may
recall from your study of American history that among
the grievances against King George set forth in the Declaration of Independence were that he had “obstructed

278
the administration of justice” and “has made judges dependent on his will alone.”
Because of their experience in this respect, the
founders were determined that the Constitution of the
new nation would guarantee the right to trial by jury,
and they wrote that guarantee into the Sixth and Seventh amendments of the Constitution, part of the Bill of
Rights. In doing so, [1A-4] they assured that the outcome of legal cases would ultimately be entrusted not to
officers of the government alone, but rather, to the public: ordinary citizens convened and acting as trial jurors.
We are about to begin the process of selecting a jury
for a trial in a criminal case. The name of the case is
United States v. Dzhokhar Tsarnaev. Mr. Tsarnaev is
charged in connection with events that occurred near
the finish line of the Boston Marathon on April 15, 2013,
and that resulted in the deaths of three people. Mr.
Tsarnaev is also charged with the death of an MIT police
officer and other crimes that occurred on April 18 and
19, 2013.
In a criminal prosecution, the burden is always on the
government to prove by factual evidence that the defendant is guilty of any crime he is accused of. And accordingly, every defendant is presumed to be not guilty
until the government has proved otherwise at trial.
The government bears the burden of proving a defendant’s guilt beyond a reasonable doubt.
The jury that we are about to start selecting today
and in the next several days will have the task of considering the evidence produced during the trial, and decid-

279
ing on the basis of that evidence whether the government has proven the defendant’s guilt of the charges
against him beyond a reasonable doubt or not.
This case differs from many other criminal cases,
[1A-5] however, in a significant way. Usually after a
jury has convicted a defendant of a crime, the presiding
judge decides what the punishment should be. In this
case, however, Mr. Tsarnaev is accused of crimes that
are potentially punishable by a sentence of death. If,
after trial, he is convicted of any of these crimes, under
the law it is the responsibility of the jury rather than the
judge to decide whether Mr. Tsarnaev should be sentenced to death, or instead, to life imprisonment without
possibility of release, the only other possible sentence
for such a crime.
In essence, in our democracy we have committed
these solemn and important decisions not to judges answerable to the sovereign alone, not to the press, not to
the public opinion, and certainly not to the mob. We
have committed this important duty to ourselves collectively as the people, the people who establish the constitutional order in the first place. And we the people,
therefore, ask some of our fellow citizens to assume the
high duty of convening as a trial jury and to resolve the
issues presented with a firm disposition and commitment to do justice fairly and impartially.
Accordingly, it is the civic responsibility of every citizen to appear and serve as a juror when called unless
seriously unable to do so. Such service is both an obligation of citizenship and an opportunity to perform a vital public and civic function. Juries are composed of
citizens from all walks [1A-6] of life, each of whom brings
his or her own personal perspective and life experience

280
to the task. You do not need to have any special education or experience to be a juror; what you do need is a
commitment to justice.
Acknowledging the importance of jury service is not
to ignore the obvious point, that your appearance here
is, at the very least, inconvenient. We ask jurors to set
aside their usual routines for a time to perform an important and necessary public service. Certainly serving on a jury, if you are chosen to serve, will require you
to make some adjustments in your daily lives. You
should not, however, think of your jury service, if you’re
chosen to sit on this jury, as an annoying burden.
Jurors regularly report to my colleagues and to me
that they have found their service to be one of the most
interesting and memorable experiences of their lives.
After most trials, I meet briefly with jurors to thank
them for their service. Uniformly, in the course of
those discussions, jurors tell me that their experience
was worthwhile, interesting and fundamentally important to them.
Jurors who seem to me to be nervous and unsure at
the beginning of the case after a verdict have a calm and
solemn sense of a duty responsibly performed. If you
are chosen to serve in this case, I fully expect you will
find the experience to do the same.
[1A-7]
Let me explain how we will proceed with the selection
process. When I finish these preliminary remarks, a
questionnaire will be distributed to you. You’ll fill out
the questionnaire before leaving today. As you fill it
out, please do not discuss the questions or your answers
with anyone else in the room, including the court staff

281
who have been instructed not to help you with your
questionnaires. The information on the questionnaire
must come from you and you alone.
Also, please understand there are no right or wrong
answers to the questions on the form. All we ask is that
you answer each question truthfully and completely to
the best of your ability. The questionnaires are not intended to pry into personal matters unnecessarily, but
there are some personal things we must know in order
to assure to both sides in this case that the trial will be
considered before a jury that is, in truth, fair and impartial. In addition, as a practical matter, using the questionnaire process makes the process less time-consuming
and inconvenient for all, including you.
When you have filled out your questionnaire, you will
give it to a member of the court staff, and you will then
be free to leave. During the coming week, the questionnaires will be copied and then reviewed by the attorneys working on the case and by me.
The completed questionnaire will initially be reviewed only by the participants in this case and the
Court. The [1A-8] filled out questionnaires will not become part of the public record unless and until I determine whether they include any sensitive information
that should be kept confidential permanently. And if
they do, I intend to keep that information and any possible further questioning about it from being available
to the public.
When you leave, the court staff will give you a telephone number to call next week so that you may listen
to a prerecorded message that will tell you about your
possible future service in this case. Some jurors will be

282
told that they have been excused permanently, some jurors will be told to come to court again on a particular
day to participate further in the jury selection process,
and some jurors will be told to call in again at a later
date for further information.
If you are selected to serve, the trial proper is expected to start on or about January 26th, and it is expected to last about three to four months. The trial will
generally be conducted Monday through Thursday each
week from about 9 a.m. to about 4 p.m., with time for
breaks and lunch. The jury will not ordinarily sit on
Fridays except in a week where there is a legal holiday
that falls on Monday. The trial will continue through
any school vacation week.
If you are concerned that service as a juror in this
case would be an unusually difficult hardship for you,
you will have a chance to describe that hardship in the
questionnaire. [1A-9] If you’re not excused based on
what you have written, which may happen, I will discuss
the hardship request in person with you when you come
back to court. Any request to be excused will be seriously considered; however, I cannot guarantee that you
will necessarily be excused if you think jury service in
this case would be a hardship for you because finding a
jury that represents a fair cross-section of the community will always pose some degree of hardship for those
citizens who are chosen to serve.
It is important that the men and women who are selected as jurors in this case be able to listen to the evidence presented in court and to decide the issues in the
case fairly and impartially. I’ll be using the terms
“fairly” and “impartially” again at times during the selection process. Let me explain briefly to you what I

283
mean. To serve fairly and impartially means to base a
decision on the evidence presented in court during the
trial, applying the law as I will describe it to you, and not
based on any possible bias or prejudice or anything that
you have seen, heard, read or experienced outside the
courtroom including anything you may think you have
previously learned from, say, reports in the media.
There has been a great deal of publicity about this
case and there will continue to be. The mere fact that
prior to this you may have read or heard something
about the case does not automatically mean that you
cannot be a juror, but you [1A-10] must be able to decide
the issues in the case based on the information or evidence that is presented in the course of the trial, and not
on information from any other sources.
The purpose of the jury selection process is to try to
ensure that each person selected is an appropriate juror
for this case, that the jury as a whole will fairly represent the community, and that the jury will assure that
the parties get what they are entitled to: trial before a
fair and impartial jury.
* * * * *

284
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 16, 2015
9:24 a.m.
JURY TRIAL—DAY FIVE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE

By:

MIRIAM CONRAD and WILLIAM W. FICK, Federal
Public Defenders
51 Sleeper Street

285
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC
By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[5-38]
* * * * *
MR. McALEAR:

Juror 35.

THE CLERK:

Juror No. 35, sit here, please.

THE COURT:

Good morning.

THE JUROR:

Good morning.

THE COURT: I reminded everybody again today,
but the last time when you filled out the questionnaire,
I asked people to avoid discussion of the case or to avoid
as well as you could any exposure to media stories and
things like that. Have you been able to abide by that?
THE JUROR:

Yes, I have.

286
THE COURT: You did fill out the questionnaire before. It’s in front of you if you have need to refer to it,
and I’m going to be asking you some questions about
particular answers on the questionnaire.
THE JUROR:

Okay.

THE COURT: Could you tell us a little bit about
the nature of your work employment?
[5-39]
THE JUROR: Sure. I work for the Massachusetts Department of Energy Resources. In that regard, my role is looking at wholesale and retail electricity prices, wholesale markets, wholesale operations, factors that may impact gas and electricity prices, power
plant operations, and the reliability of electric grid.
THE COURT:

How long have you been in the field?

THE JUROR:

Since 1987.

THE COURT: Okay. In the questionnaire, we
asked a number of questions that could be generally
characterized as international affairs, attitudes towards
Islam or Muslims, attitudes toward the War on Terror
and so on and so forth. Since the filling out of the questionnaire, there have been some incidents in Europe involving terrorist activity. Would any of those—have
you paid attention to any of those?
THE JUROR: Just on, you know, high level, what
was reported, high level.
THE COURT: You mean, by high level, you mean
at sort of a general level?
THE JUROR:
Paris.

Yeah, just there was a situation in

287
THE COURT:
about it?
THE JUROR:

Have you read a lot about it, a little
No, I haven’t read any.

THE COURT: My question was going to be: Does
it change any answers you gave in the questionnaire
about those [5-40] matters, or does it bring up any other
concern you would have that could be pertinent to this
case?
THE JUROR: No. As you instructed us, to look
at all the evidence that’s presented in front of you, so
that’s what my task would be in this regard.
THE COURT: You did say in the questionnaire
that you thought that the—this was Question 62, if you
wanted to look at it. It’s on Page 17. —that you
thought the war—we asked whether you believe the
War on Terror was overblown or exaggerated, and you
said yes. Could you amplify on that?
THE JUROR: Sure. My thought process in answering that question was in regard to the media coverage of all the events globally and domestically.
THE COURT:
about that?

What specifically were you thinking

THE JUROR: Just the situation over in—where
you hear about, you know, our—in Afghanistan and Iraq
and all over the world, those particular areas that they’re
covering throughout the world, the media, so—
THE COURT: I’ve forgotten the word you used exactly. You think the media coverage has been overdone or something like that?
THE JUROR:

Yes.

288
THE COURT:
age or—

In what sense?

Too much cover-

THE JUROR: Yeah. It’s continuous coverage, if
you [5-41] flick a channel on at some time, that it’s there.
So—
THE COURT: I guess, when you say “too much,”
it’s kind of a value judgment. You think it’s more coverage than the events call for? Is that a proper interpretation of what you’re saying?
THE JUROR: I guess the duration of the—the duration of the coverage.
THE COURT: In proportion to the importance of
it or—I’m trying to get what you think is overdone.
THE JUROR: Here’s a story, cover it, and then
there seems to be, in my opinion, a lot of—they get into
so much.
We talked to this person, talked to that expert or this
expert.
Just really dive in deep, deep, deep.
THE COURT: Are you thinking—sounds like you
may be thinking of TV shows. Is that—are you talking
about news reports or things like where there’s panel
discussions?
THE JUROR:

Yeah.

THE COURT: I don’t know if you watch, on Sunday, Meet the Press and things like that.
THE JUROR:
THE COURT:
talking about?

No.
Are those the kinds of things you’re

289
THE JUROR: I don’t watch Meet the Press. Just
in some—they have this panel, this expert, this expert
on federal government, former CIA, whatever.
[5-42]
THE COURT: Just to come back to the general
question about the war on terror being overblown, your
thoughts about that are concerning media coverage of it
rather than the activity of the government? Or do you
think the government’s actions, so-called war on terror,
are exaggerated or overblown?
THE JUROR: I can only go by what’s presented in
the media. So if the media is covering that, that’s what
I would be watching. So I don’t know what is the criteria, that I’m just watching TV, the media coverage, so—
THE COURT: Do you have any strong feelings,
one way or the other, about how the government is handling those matters?
THE JUROR: I have a feeling that the government
needs to obviously protect the citizenship of the United
States and its citizens.
THE COURT:

Okay.

Well, okay.

In Question 74, we asked you how you felt when you
received your summons for this case. You said you
would be honored to be eligible to serve. Is this a case
that, because of its subject matter particularly, intrigues you or—
THE JUROR:
THE COURT:
give for any case?
THE JUROR:

No.
Would that be an answer you would
It would be for any case.

290
THE COURT: If you’d look at Page 20, Question
77, we [5-43] asked some questions about whether you
had any opinion based on what you’d read about this
case, whether you had formed any opinions from any
source, including the media. I just want to go back to
Question 73 for a minute, the previous page. You noted
that you had read a lot or watched TV a lot about the
case.
THE JUROR:

Yes.

THE COURT: So, now, going back to 77, we asked,
Do you have an opinion about whether the defendant is
guilty or not guilty, whether he should get the death
penalty or not and so and on forth. You said “unsure”
for each of those. Can you amplify on that?
THE JUROR: I was really taking—my interpretation was taking your words and saying, Should I be
drawing a conclusion without all the evidence presented? That’s what my thought process was to answer to that question. I don’t know if I took it out of
context or not.
THE COURT: No. I think you may have been
right. I guess what you’re saying is you were preparing your mind for the condition it should be in if you
were a juror in the case?
THE JUROR:

Right.

That’s—

THE COURT: You understand that a defendant
has the benefit of a presumption of innocence and the
government has to overcome that by proof, and you
would be able to follow those principles—
[5-44]
THE JUROR:

Right.

291
THE COURT:
THE JUROR:
was reading it.

—if you were a juror in the case?
Correct, yeah.

That’s the way I

THE COURT: Okay. We’re going to get to the
questions of potential penalty in a minute. But you
noted on Question 82, on 21, that you had attended a
OneFund event.
THE JUROR:

Yeah.

THE COURT: What was the event?
your participation in it and so on?

What was

THE JUROR: It was just—it was a fund-raiser
held at the state room in Boston. I don’t know the exact date.
THE COURT: Was it soon after the events or a
couple months later or when was it?
THE JUROR: Yeah. I think it was—I don’t know
the exact date. It could have been maybe three to six
months perhaps afterwards. I don’t know the exact
date.
THE COURT:
you remember?

How did you come to go to that, do

THE JUROR: It was just through Boston.com or
something came up.
Somebody mentioned it or
some—so I thought it would be a worth wild—
THE COURT: This was an event that the interested public could attend?
THE JUROR:

Yeah, yeah, absolutely.

[5-45]
THE COURT:

You saw that and you—

292
THE JUROR:

Yup.

THE COURT:

Did it include a contribution?

THE JUROR:

Yes, yes, it did.

THE COURT:

A donation?

THE JUROR:

Yes, yup.

THE COURT:
nated?

Do you remember how much you do-

THE JUROR: I think it was 75 or 50, 50 or 75,
somewhere around there.
THE COURT: Have you had—since that event,
had you had—participated in any other fund-raising or
expressions of support—
THE JUROR:
THE COURT:
that?

No.
—or sympathy or anything like

THE JUROR: No. I only—I have contributed to
a specific fund called the Rett—International Rett Syndrome Fund, which my daughter has Rett Syndrome.
THE COURT:

Completely unrelated?

THE JUROR:

Yeah, no.

THE COURT: Now, we also asked a number of
questions about your views about the possibility of a
sentence of death versus the possibility of a sentence of
life imprisonment. So we start at Page 23, Paragraph
88—Question 88. We ask, if you had any general views,
what are you they, and you said no. Can you—

293
[5-46]
THE JUROR: Well, again, I was—when you said to
take—literally, I took your words to say don’t make any
decisions until all the evidence is presented, so that’s—
my thought process was going through that.
THE COURT:

So that’s about this case.

THE JUROR:

Right.

THE COURT: Apart from this case, do you have
any general views about the death penalty, its appropriateness or not?
THE JUROR: Well, I would say that if it’s considered cruel or unusual punishment, but I don’t know what
the criteria—I don’t know enough about what the criteria is that—I don’t know if that answers your question.
THE COURT: Okay. Do you mean that in some
cases you think that might be true, or do you think
that—
THE JUROR:

I guess—

THE COURT: —it will always be true? I’m not
sure I’m following.
THE JUROR: I don’t know what is considered,
like, cruel and unusual punishment. I’d have to learn
more about what is the criteria for that.
THE COURT: Are you using that phrase in a way
that you think you understand it as a legal proposition
as opposed to a factual proposition? In other words, do
you think, in fact, the death penalty is cruel or, in fact, it
is unusual [5-47] kind of thing, or you know that phrase
because it’s in the Eighth Amendment and you think you

294
want to understand the legal concept? I guess I’m trying to understand whether you’re talking about it as a
legal concept or as a human understanding of events.
THE JUROR:

Yes, yes, human.

THE COURT:

Okay.

The next couple of questions, we tried to gauge what
you thought about the death penalty on 89. Go back to
the previous page.
THE JUROR:

Yup.

THE COURT: We asked you to circle on a scale of
1 to 10, 1 being strongly opposed, 10 being strongly in
favor. You selected No. 5, which kind of puts you right
in the middle. Then in the next question we tried to
scale it again in a different way, this time by words rather than numbers. You said, “I am not for or against
the death penalty. I could vote to impose it or I could
vote for a sentence of life imprisonment, whichever I
thought was called for by the facts and the law in the
case.” Do those answers fairly represent your views
about the death penalty?
THE JUROR:

Yes.

THE COURT: And in this case, would you be open
to the possibility of, on the one hand, the death penalty
if you thought the facts called for it and, on the other
hand, open to [5-48] life imprisonment—
THE JUROR:
THE COURT:
that?
THE JUROR:

Yes.
—if you thought the facts called for
Yes.

295
THE COURT: So you’re not committed—I’m hearing you—you’re not committed either way until you’ve
heard all the evidence?
THE JUROR:

Yes, correct.

THE COURT: In Question 95, we asked if you
could conscientiously vote for the death penalty if you
thought that was the right punishment, and you said you
weren’t sure. The next question, you said that, if you
thought life imprisonment was the right one, could you
conscientiously vote for that, you said yes. There’s a
slight difference between “I’m not sure” and “yes.”
Could you tell us why you answered those questions the
way you did?
THE JUROR: Again, I was taking what you had instructed us, to look at all the evidence, so how could I
make any decision on that particular sentence area until
I knew more about what is the criteria for that?
THE COURT: Do you intend by that answer to indicate in any way that you would not be prepared to vote
for the penalty of death in any circumstance? Or do
you intend to convey that you will consider the circumstances before making [5-49] up your mind about that?
THE JUROR: I have committed myself to make a
decision based on what you had said was all the evidence
in the case. So I—
THE COURT: And just to be sure, if that evidence
persuaded you that a sentence of death was an appropriate punishment, would you be able to vote for that?
THE JUROR:

Yes.

THE COURT: And the same is true for life imprisonment without release?

296
THE JUROR:

Yes.

THE COURT:

Any brief follow-up?

MR. BRUCK:

Could we confer just a moment?

(Discussion held off the record.)
MR. BRUCK:

No, sir.
*

*

*

*

*

*

*

*

*

*

[5-79]

THE CLERK: Juror No. 41.
MR. McALEAR: Juror 41.
THE COURT: Good afternoon.
THE JUROR:

Good afternoon.

THE COURT: We have put the questionnaire you
filled out previously in front of you, and we may be referring to it from time to time.
When you were here to fill out the questionnaire, I
instructed jurors to avoid talking about the case in substance with anybody or—and tried to avoid any media
or other information, sources about the case. Have you
been able to do that?
THE JUROR:

Yes.

THE COURT: Let me start with you telling us a
little bit about your employment. What do you do, and
how long have you done it?

297
THE JUROR: I work for EMC Corporation.
a senior executive assistant.

I’m

THE COURT: That’s—what is that? Assistant to
a [5-80] senior executive or a senior assistant?
THE JUROR:
utive assistant.

No.

That’s my title.

Senior exec-

THE COURT: I’m just getting to the “senior” applies to you and not to somebody else.
THE JUROR: Well, they’re both seniors, too. I
support a senior vice president and a chief risk officer.
She’s one and the same. And I also support a senior
vice president. He’s chief officer of public affairs and
government policies.
THE COURT:
while?
THE JUROR:

Okay.

And you’ve done that for a

I’ve been there since 2005.

THE COURT: You tell us in the form that you have
a couple of friends who are—one is in, I guess, the
correctional—a correction officer of some kind, and the
other is a sheriff. Can you tell us a little bit about those
people?
THE JUROR: I have one girlfriend who did work
for the corrections department for many years, and she
has recently just gone to work for the Worcester sheriff ’s office. And then my husband—
THE COURT:

What does she do?

THE JUROR: She’s in HR.
with human resources.
THE COURT:

Okay.

She does something

All right.

298
[5-81]
THE JUROR: My husband and I, who is also her
husband, are friends with him, and he works for the Norfolk prison. And he’s not really a correction officer. I
think he is. I don’t know. But he mainly drives the
inmates, like, to their doctors’ appointments or the hospital or stuff like that. That’s what he does.
And then I have another girlfriend who works at the
Framingham women’s prison. She does, like, computer stuff. I think she’s like their IT person.
THE COURT:
juries before?
THE JUROR:
THE COURT:
mately?
THE JUROR:
of 2014.

You had the honor of serving on two
Yes.
When were they, just approxiThe last one I did was just April 1st

THE COURT:

Really?

THE JUROR:

I got picked as the alternate, so—

THE COURT:

Oh.

THE JUROR:

Years ago.

When was the other one?

THE COURT: The other one was a civil—first was
a civil case and then a criminal case? You want to refresh that? I’m looking at Page 15.
THE JUROR: The first one, I don’t know what you
call it, criminal or civil. The first one I remember, it
was someone who walked across the street, and she got
hit outside [5-82] of a crosswalk or something. The one
that I just did in April was drunk driving.

299
THE COURT: We asked a series of questions in
the questionnaire about things that could generally be
put under the umbrella of international events or issues
such as matters relating to Islam or Muslims, the war
on terror and things like that. You answered them in
the questionnaire. Since you filled out the questionnaire, there have been events in Europe that are getting
some reporting here about terrorism acts in Paris and
so on and so forth. Have you followed any of those reports?
THE JUROR: I don’t watch the news really a lot.
If I hear it a lot, I usually hear it at work around the
water bubbler.
THE COURT: Have you heard about the events in
Paris? Do you know what I’m talking about?
THE JUROR:
Kind of.
I know that—was it
Kerry was going over there to do some talking or peace
talks or—that’s probably about all I know.
THE COURT: Okay. What I was leading up to
was whether any—what you’ve heard about any of that
would affect any of the answers that you previously
gave. Doesn’t sound like it would. There doesn’t
seem like there’s much there.
THE JUROR:
know about it.

Probably not because I don’t really

[5-83]
THE COURT: Now, I’d like you to look at Page 20,
Question 77. In that question we asked a multipart
question about whether you had—based on the media or
anything else, you’d formed an opinion about whether

300
the defendant was guilty or not guilty or should be sentenced to death or not, and you answered to each of
those questions that you had not formed an opinion.
Am I reading that right?
THE JUROR:

Uh-huh.

THE COURT: Can you amplify on that? Is that
the case? You don’t have an opinion one way or the
other?
THE JUROR: I don’t really have an opinion. Obviously, I know what happened on that day. I have
seen some of it in the media, but I don’t really follow it.
Sometimes I try not to listen to the news because it’s too
depressing.
THE COURT: When it comes to trial, as you’ve
heard, there will be two phases. The first phase will be
to determine whether the defendant is guilty of the
crimes he’s charged with or not. At that stage of the
case, at the beginning—before the presentation of any
evidence and throughout the case, until the jury gives us
its answer, the defendant is presumed to be innocent of
the charges and is guilty only when the jury says so because they’ve been convinced by the evidence at trial
that the government has persuaded them that he is
guilty of the offenses beyond a reasonable doubt. Do
you think you would have any difficulty in accepting and
applying the principles of [5-84] presumption of innocence and proof beyond a reasonable doubt by the government?
THE JUROR:

No, not at all.

THE COURT: Then if the defendant is guilty—
found guilty by the jury at that point of a capital crime,
one for which the death penalty is possible, the jury

301
would then have to consider whether that sentence
should be imposed or a different sentence, life without
release. And this answer says you have no opinion
about that as well. Is that a fair understanding of your
condition at this stage? That’s where your—
THE JUROR:

Uh-huh.

THE COURT:

You have to use a word.

THE JUROR:

Yes.

THE COURT:

Nodding doesn’t help.

Then it might help you to follow this, too, Page 23,
Question 88. We asked, in summary, for your general
views on the death penalty, if you had some. And you
said you didn’t have any general views, and it would depend on the evidence and the crime. Is that an accurate summary of your general view?
THE JUROR:

Yes.

THE COURT: Next question, we asked you to
scale—put it on the scale what you thought about the
death penalty, whether you were strongly opposed to it
or strongly in favor of it, and you selected something
right in the middle.
[5-85]
THE JUROR:

Yes, I did.

THE COURT: Similarly, on the next page, we
asked for that sort of—sort of that same kind of assessment of where you are on the scale of things but in words
this time. And you selected “D.” Would you just read
that for a minute and tell me whether that represents
your view?

302
THE JUROR:

Uh-huh, yes.

THE COURT: Assuming that the defendant is convicted of a capital crime—so take that as a premise of
the question, he is convicted—and you proceed to a penalty phase, would you be prepared by mental attitude
and your general disposition to the manner to vote for
penalty of death if you thought that was warranted under the circumstances; and on the other hand, would you
similarly be prepared to vote for a penalty of life imprisonment without parole instead of the death penalty if
you thought that was warranted?
THE JUROR:

Yes, I would.

THE COURT:

Either way, you would be prepared.

THE JUROR:

Either/or.

THE COURT: Depending on the circumstances
that you heard them in the course of the trial?
THE JUROR:

Yes.

THE COURT: So you heard me talk about certain
things the government must prove in the penalty phase.
They must prove there was a certain level of criminal
intention involved [5-86] in the commission of the acts
and that there were circumstances that were aggravating that might call for a higher penalty than the average
intentional murder and there would be evidence about
mitigating factors that might say that’s not the right
penalty, that there should be life imprisonment. You
hear all that, and you’re open to going either way, depending on how you assess all that evidence? Is that a
fair summary of what—
THE JUROR:

Yes, it is.

303
THE COURT:

Have I got anything wrong?

THE JUROR:

No.

THE COURT: If you look at Question 95, we ask
whether, if he was guilty and you decided that it was appropriate, could you conscientiously vote for the death
penalty, and you expressed some uncertainty there.
You said you were unsure.
THE JUROR:

Yes, I did.

THE COURT: Is that—today you’ve kind of been a
little firmer about it. I’m just wondering which is
really—
THE JUROR: Because, when I’m answering that
question, I don’t know any—I don’t know anything
about the case. I don’t know any evidence. And
where I’m not one way for death penalty or one way not
for death penalty, to me, I would have to hear—I would
have to hear the circumstances and the evidence and—
THE COURT:

Any follow-up?

[5-87]
MR. WEINREB:
MR. BRUCK:

No.

No, sir.

THE COURT: All right. Thank you.
Leave the questionnaire right there.
(The juror is excused.)
*

*

*

*

*

Step out.

304
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Jan. 21, 2015
9:22 a.m.
JURY TRIAL—DAY SEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

305
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD and WILLIAM W. FICK, Federal
Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant

[7-24]

* * * * *
* * * * *

THE CLERK:
MR. McALEAR:

Juror 83.
Juror 83.

306
THE CLERK:
seat, if you would.

Sir, over here, please.

Have a

THE COURT: Hello. Since you filled out the questionnaire and we’re here, have you been able to abide by
my instruction to avoid any discussion of the case?
THE JUROR:

Yes, sir.

THE COURT: And any unnecessary avoidable exposure to the media reports?
THE JUROR:

Yes.

THE COURT: So that’s the questionnaire, and we
may ask you to look at a couple of things as we follow up
on some of the questions you gave.
THE JUROR:

Sure.

THE COURT: It appears from your questionnaire
that you are a student interrupted. Is that—
THE JUROR: Yeah. I was going to end up taking
a break this semester anyways because my financial aid
fell through, so . . .
THE COURT:

So what are you doing?

[7-25]
THE JUROR: Well, I’m not employed right now
because I lost my job. I was working seasonally at
Best Buy. So right now I’m just at home.
THE COURT:
suing at school?

Okay.

THE JUROR:
ence.

Psychology and a minor in neurosci-

THE COURT:

What course were you pur-

Neuroscience?

307
THE JUROR:

Yes, sir.

THE COURT:

Tell us about your social media use.

THE JUROR: Well, I mean, Facebook. I use Facebook, but I don’t really put anything personal on
there, and I definitely try to avoid political things for the
most part. Usually I just—you know, I used to be a
personal trainer, so I put like training things or healthrelated fitness things and, you know, some funny memes
every now and then.
I mean, I saw the movie “American Sniper” over the
weekend and I did post something like that, but I didn’t
really get into the politics or anything.
THE COURT:
So anything beyond Facebook?
Twitter or Instagram or anything like that?
THE JUROR: No, I’m not a Twitter person.
have Instagram, but I don’t use it.

I

THE COURT: Let me ask you to look at page 15, I
guess, Question No. 50.
THE JUROR:

Yes?

[7-26]
THE COURT: That asks what court cases you may
have followed with interest and what interested you
about them.
THE JUROR:
THE COURT:
Brown case.
THE JUROR:
THE COURT:
dent?

Sure.
And you talk about the Michael
Yes.
That’s the Ferguson, Missouri, inci-

308
THE JUROR:
THE COURT:
ested you?

Yes.
What was it about that that inter-

THE JUROR: It was more just the people’s reaction to the case, the outcome of the grand jury choosing
not to indict the officer who was charged with the shooting. I mean, there were mixed emotions. Some people said that was the right decision, and some people
said that they were somewhat disappointed with how the
case was handled.
Personally, I didn’t—it didn’t really affect me too
much because I don’t like to dabble in those things, but,
you know, there’s just such a volume of people that, you
know, post things on Facebook, it’s kind of hard to avoid
that at times. And I just thought there was a lot of
charged emotion that kind of factored into people’s view
on the case, and that takes away from the legitimacy of,
like, their views, actually, like, because they’re speaking
emotionally as opposed to logically.
So I thought due process was followed in that case
and I thought the grand jury made the right decision.
[7-27]
THE COURT: Did you post anything about your
own opinions about it?
THE JUROR:

No.

THE COURT:

On Facebook or anything?

THE JUROR:

No.

THE COURT: Any other cases that—I think that
may be the one you particularly mentioned. Were
there others—

309
THE JUROR: Yeah, that’s really the only one that
I remember. There was the Casey Anthony case a few
years back as well, but, like, to be honest, all of the details have escaped my mind.
THE COURT: We asked a series of questions
about attitudes to various potential issues including attitudes towards Islam and Muslims and the war on terror and so on.
THE JUROR:

Yes.

THE COURT: And you tell us that your mother is
a native of Iran. Is that right?
THE JUROR:

Yes.

Yes, she is.

THE COURT: And she is a—just casually, I guess,
a former Muslim who has changed to a different faith?
THE JUROR:

Yes, that’s correct.

THE COURT:

How long has she lived in the U.S.?

THE JUROR: She came in ‘78, I believe, just before the Iranian Revolution.
THE COURT:

Do you have family there now?

[7-28]
THE JUROR:

Not anybody that I know.

THE COURT:

In the region at all?

THE JUROR:

No.

THE COURT: You answered these questions when
you filled out the questionnaire, obviously. Since then
there have been some attacks in Paris and events in Europe. Do you follow those, the news about those?

310
THE JUROR: Just vaguely. The first day it kind
of happened, just to see what was happening, but after
that—
THE COURT:

No?

THE JUROR:

—I didn’t really follow through.

THE COURT: Would—did you have any reaction
to those events that would have led you to change any of
the answers you’ve put down in these matters?
THE JUROR: Not really. It obviously was not a
good thing that happened at the time, but my views,
from what I remember that I filled out, since then have
not changed.
THE COURT: Okay. Looking at Question—oh,
Question 67. You know a little bit of Arabic?
THE JUROR:

A little bit of Farsi.

THE COURT:

Farsi?

THE JUROR:

Yes.

THE COURT: Okay. Is that close to Arabic?
don’t know the answer to that.

I

THE JUROR: The writing is somewhat similar.
A lot of [7-29] the—there are some Arabic roots. There
are some French roots as well. I mean, Iranians are
Caucasian in origin, so they’re not Aramaic or Arabic,
from my understanding.
THE COURT:

Have you studied your heritage?

THE JUROR: A little bit. When I was a kid I took
some, you know, like Farsi language classes, but it escapes me for the most part. Now I just know a few
phrases and some very basic conversational things or,

311
you know, words and phrases, like if I speak with relatives.
In terms of my culture or the culture that, you know,
my mom is from and I share half my heritage with, there
are some things that interest me, but it’s more like—like
there’s this thing called the Pahlevan, which is a house
of strength in Iran, and they do like the Indian club
swinging. Again, going back to the fitness, that’s kind
of what I was more interested in more than anything
else.
THE COURT: Looking at Question 71, you seem to
have sort of an international taste in news.
THE JUROR:

Yes.

THE COURT: You pay attention to BBC America,
Al Jazeera America?
THE JUROR: Every now and then. And, I mean,
I probably watch like a little—you know, the 30-minute
news broadcast maybe once every other week or so.
THE COURT:

Do that on the Internet?

[7-30]
THE JUROR: No, usually on the TV. If it just
happens to be on. If it’s not on, I don’t really go out of
my way.
THE COURT:
Question 77.
THE JUROR:

Let me ask you to look at page 20,
Yes.

THE COURT: In that question we asked whether,
based on things you’d seen or read, learned from any
source, whether you had an opinion about whether this

312
defendant is guilty or not and whether—how he should
be punished, if he is. And to each of the four parts of
that question you answered that you were unsure.
THE JUROR:

Yes.

THE COURT:

Can you tell us about that answer.

THE JUROR:

Sure.

If I just may reread the—

THE COURT:

Yeah.

Go ahead.

THE JUROR:

Okay.

Take your time.

(There is a pause.)
THE JUROR: Okay. So I believe at the time my
logic in saying “unsure”—I’ll start at the bottom. In
regards to should he receive the death penalty or not receive the death penalty, I’m not sure because I don’t really know much about the case outside of what I saw a
couple of years ago and what we read in the brief, so I
just felt that—I didn’t feel at the time that that was conclusive enough to be able to say whether I should—
whether I believe he should get that or not [7-31] get
that, that penalty.
In regards to him being guilty or not guilty, obviously
he was involved in something, but as it is my understanding that you’re not guilty until proven—you’re innocent until proven guilty, I just thought it would be
best to say “unsure.”
THE COURT: Understanding you probably have
things from the media and so on, recollections, you’ve
referred to the presumption of innocence and proof beyond a reasonable doubt—
THE JUROR:

Yes.

313
THE COURT:

—of guilt.

Do you have any concern or reservations about your
own ability to apply that—those principles?
THE JUROR:

No, I don’t.

THE COURT: Specifically to require the government to convince you beyond a reasonable doubt by its
evidence at trial?
THE JUROR: Right.
that one more time?

Wait.

Could you repeat

THE COURT: Well, as I think you’ve recognized,
the government—when someone is accused of a crime,
the person doesn’t have any obligation to prove he’s not
guilty of the crime; the government has to prove he is.
THE JUROR:
THE COURT:
to a [7-32] jury.
THE JUROR:

Yes.
And that’s done by evidence at trial
Right.

THE COURT: And it’s the obligation of the government to produce evidence that convinces the jury beyond a reasonable doubt; otherwise, the jury is required
by law to find the person not guilty.
THE JUROR:
THE COURT:
do?
THE JUROR:

Correct.
Is that something you’d be able to
Yes, I would be able to do it.

THE COURT: I guess specifically what I want to
know is how would you handle whatever ideas you’ve
had from before the trial?

314
THE JUROR: Sure. Well, based on the evidence
presented and—you know, I do have a knack to listening
to people and what they say. You know, you guys have
to do a fair job in presenting the facts the best you can.
Based on that, that’s probably when I would—that’s definitely when I would make my decision because I think
it would be wrong to do—or to have any preconceived
notion as to what he deserves or doesn’t deserve otherwise until that happens.
THE COURT: You and your family, as far as you
know, were not personally involved or affected by the
events?
THE JUROR: No, nobody that I know in my immediate family was involved or affected.
THE COURT: Let me ask you to turn to page 23.
[7-33] Beginning with Question 88, we ask people
about some ideas they may have about the death penalty. And in 88 we asked in general terms what—if you
have any views about the death penalty, what they are.
I have to confess I had a little trouble reading your writing. Maybe you can tell us what you wrote there.
THE JUROR: Yes. So I said that in certain cases,
if the evidence and reason’s fair and the punishment
deemed as the death penalty, then I hope that it’s given
in the hope that it serves the purpose of justice as—I
guess as outlined by what your objective or idea of justice in terms of what he deserves as—so, yeah, the
standard—whatever standard—
THE COURT: I’m trying to read the last phrase.
“In fairness and equity of all involved”?
THE JUROR: Yes. To say that people weren’t affected, obviously somebody or—or something has to be

315
held accountable in some regard for what happened during that time that he was accused of carrying out the
things that you had mentioned. So, you know, it didn’t
just happen on its own.
THE COURT: Well, okay. So the question was
asking about—your general views about the death penalty. And now that you’ve read the answer—but I
mean apart from the answer, can you tell me in general
terms what your view is?
THE JUROR: I think the death penalty is valid in
terms of being a good punishment, but, again, it all depends on [7-34] the severity of what he did and how people around him—or that were affected by his decisions
were affected. So, you know, I think it would be merciful at times if you believe in an afterlife for the justice
system to give someone the death penalty. Maybe it
takes away some of the burden of the person’s soul.
But then again, I think that in certain cases, say, life in
prison can also be an opening—or eye-opening experience for a person as well. Maybe they’ll change before
the time that they naturally die.
And I also think that the death penalty is fair, you
know? There has to be an appropriate punishment for
certain crimes out there, and to not have that as an option on the table would be wrong. Not that I think it
should always be pushed on people, but I think it is a
valid punishment.
THE COURT: So you—we asked you in Question
89—if you want to go back to that page.
THE JUROR:

Sure.

316
THE COURT: —if you could sort of give us where
on a scale of 1 to 10—where you thought you were with
respect to the death penalty, and you picked 6.
THE JUROR:

Yes.

THE COURT:

Which is sort of in the middle.

THE JUROR: Yeah. And I still feel that way. I
mean, if you guys had, you know, like a 6-1/2 or a 7, I
probably would have done a half of some sort.
[7-35]
THE COURT: On the next page, Question 90, we
ask you to tell us not by a numerical scale but in words
which statement came closest to your view, and you circled letter D.
THE JUROR:

Yes.

THE COURT: That says you’re not for or against
the death penalty; you could vote to impose it or to impose a sentence of life imprisonment, whichever you
thought you believe was called for by the facts and the
law in the case.
THE JUROR:

Yes.

THE COURT:

Is that a fair summary of your view?

THE JUROR: Yes, I think that was the most accurate statement that reflected my views and does reflect
my views currently.
THE COURT: So in this case after hearing the evidence would you be able to conscientiously consider a
penalty of death?
THE JUROR:

I believe I could.

317
THE COURT: And similarly, would you be able to
conscientiously consider a life imprisonment?
THE JUROR:
THE COURT:
the evidence?
THE JUROR:

Yes.
Are you open to either depending on
I definitely am open to either.

THE COURT: So you wouldn’t automatically vote
for one or the other regardless of the facts in the case.
Is that what [7-36] you’re saying?
THE JUROR: Yeah, I couldn’t do that.
go against my principle, to be honest.
THE COURT:

It would

Mr. Weinreb?

MR. WEINREB:

No questions, your Honor.

MR. BRUCK: Good morning. I’ve been calling
you Mr. 83, of course trying to protect everyone’s privacy by not using their name. I don’t mean to be rude.
My name is David Bruck, and I’m one of the attorneys
for Jahar Tsarnaev, and I do have a couple of questions
I would like to ask you, if I could.
THE JUROR:

Sure.

MR. BRUCK: You mentioned that—I think the
words you used were “obviously he was involved in something.”
THE JUROR:

Yes.

MR. BRUCK:

Tell us about that.

THE JUROR: I mean, just from media reports, I
do remember his name being mentioned as well as—I
believe his brother’s name being mentioned as well. So
I mean, I don’t know if this is a case of mistaken—I don’t

318
know—I don’t think this would be a case of mistaken
identity, so obviously he was involved in something. Just
exactly what and how, I don’t know.
MR. BRUCK: Well, do you know—I mean, why
he’s the one charged rather than anyone else?
[7-37]
THE JUROR:

No.

MR. BRUCK:
heard.

Well, just based on what you’ve

THE JUROR:

Sure, based on what I’ve heard.

MR. BRUCK:

Sure.

MR. WEINREB:

Objection, your Honor.

THE COURT: Yeah, I think sustained. I think
this goes beyond what we’ve outlined, so . . .
MR. BRUCK:

All right.

You mentioned your mom changed her religious faith
to Bahá’í.
THE JUROR:

Yes.

MR. BRUCK: And I’m—are you aware of the
treatment of Bahá’í’s in Iran?
THE JUROR:

Yes.

Yes, I am.

MR. BRUCK:

It’s extremely cruel.

THE JUROR:

It is.

MR. BRUCK: And, of course, Iran is a—styles itself as an Islamic Republic.
THE JUROR:

Yes.

319
MR. BRUCK: If there was a great deal of information, of evidence about Islam and the defendant’s Islamic faith and beliefs—you see where the question is—
THE JUROR:
ing.
MR. BRUCK:

Yes, I could see where that’s leadCan you answer it?

THE JUROR: Yes, I can. To be honest, I personally [7-38] have nothing against Islam, as well as I know
that many Bahá’í’s do not. You know, we are taught to
respect all religions. And, you know, what the Iranian
government decides to do against Bahá’í’s in terms of
human rights violations or the like, you know, that’s a
shame that they do that. But the governing body of the
Bahá’í faith also say that Bahá’í’s are supposed to follow
the laws of the country and to respect the government
and the rights and to help people regardless of whether
they’re Islamic or Bahá’í or Christian or whatever else.
So I have nothing against Islam or the people of Islam.
MR. BRUCK:

Okay.

Well, thank you.

You said in response to the judge’s question about the
punishment that—in this case you—that what you know
is not conclusive enough to base an opinion. I just
wonder—I guess I want to probe a little bit about that.
THE JUROR:

Okay.

MR. BRUCK: As you sit here today, knowing that
this case is the Boston Marathon bombing and its aftermath, and assuming now just for my question that he
has been convicted—let’s picture that.
THE JUROR:

Okay.

320
MR. BRUCK: —proof beyond a reasonable doubt,
the whole jury has agreed, so we’re now in the sentencing phase. Do you lean one way or another regarding
death penalty or life imprisonment?
[7-39]
MR. WEINREB:

I object.

THE COURT:

No, you can answer that.

THE JUROR:

Do I lean one way or the other?

MR. BRUCK:

Yes.

THE JUROR:
rect?

If he’s proven guilty, you said, cor-

MR. BRUCK: That’s the assumption, right. Because you wouldn’t have a decision to make until he was
first proven guilty.
THE JUROR:
I still—I don’t know.
There’s
just—I don’t know enough. I mean, I would say definitely life in prison at this point, I mean, if I had to make
a decision based on what you said, but in terms of the
death penalty, I couldn’t—I couldn’t say that right now.
MR. BRUCK:

I see.

So I take it that there could be circumstances under
which life imprisonment could be a sufficient punishment for this type of crime in your mind?
THE JUROR: I could see that as being an appropriate punishment, yes.
MR. BRUCK: Okay. And do you appreciate in the
end it’s up to the jury, not up to the law and up to the
Court?
THE JUROR:

I do.

321
MR. WEINREB:

Objection, your Honor.

THE COURT:

Well, the answer’s given, so

THE JUROR:

I apologize.

. . .

[7-40]
THE COURT:

No, that’s fine.

MR. BRUCK: Do you remember—you may have
answered this already. Did you have any—did you do
any Facebook postings about this case?
THE JUROR:

No.

MR. BRUCK: Or any friends’ postings come up on
your Facebook page?
THE JUROR:

No.

MR. BRUCK:

Would you like to be on the jury?

MR. WEINREB:

Objection.

THE COURT:

Sustained.

MR. BRUCK:

Bear with me just a moment.

(Pause.)
MR. BRUCK:
have.

Thank you so much.

MR. WEINREB:
if I may, please.

That’s all I

Your Honor, I have one question,

Good morning.
THE JUROR:

Good morning.

MR. WEINREB: My name is Bill Weinreb. I’m
one of the prosecutors in the case. I just have one
question which is you’ve talked about that you’re open

322
to the possibility that the death penalty would be an appropriate penalty and also open to the possibility that
life imprisonment would be appropriate.
THE JUROR:

Yes.

MR. WEINREB: My question is: If you determined after [7-41] hearing all the evidence—
THE JUROR:

Yes.

MR. WEINREB: —if the defendant were found
guilty and you had heard evidence in the penalty phase
and you had actually come to the belief that a death sentence was the appropriate sentence, would you be able
to actually impose it, vote that somebody be put to death
for a crime?
THE JUROR:

Yes.

MR. WEINREB:

Thank you.

THE COURT:

Okay.

Thank you, sir.

THE JUROR:

All right.

(The juror is excused.)
MR. BRUCK: Before the next juror comes out,
please, just for the point of view of the record, of course
the government objected to a couple of the questions on
our list. The Court sustained some. When the Court
sustains an objection, do—is the record complete or in—
or will it be necessary for me to—or for the questioner,
when the juror has been excused, to note our objection
or—
THE COURT:
your point.
MR. BRUCK:

I think asking the question makes
Very well.

323
THE COURT:
an exception—
MR. BRUCK:

I don’t think it’s necessary to take
Well—

[7-42]
THE COURT:

—as we used to do.

MR. BRUCK:

Right.

THE COURT:

I think your record is fine.

MR. BRUCK:
need.

Fine.
*

*

You see that our issue—
Thank you.
*

*

That’s all we

*

[7-91]
THE CLERK:
JURY CLERK:

Juror No. 102.
Juror No. 102.

THE CLERK: Ma’am, have a seat right over here,
if you would, please.
THE COURT:

Good afternoon.

THE JUROR:

Hi.

THE CLERK: Make sure you speak into the mic so
everyone can hear you, okay?
THE JUROR:

Okay.

THE CLERK:

Thanks.

THE COURT: That’s the questionnaire you filled
out when you were here last. We may refer to it as we
follow up on some of the questions you gave.
THE JUROR:

Okay.

324
THE COURT: Since that time have you been able
to follow my instruction to avoid any discussion of the
process, the case?
THE JUROR:

Yeah.

THE COURT: And tried to limit your exposure to
any news accounts about things?
THE JUROR:

Yeah.

THE COURT: So looking at your questionnaire,
you were [7-92] until recently employed as an R.N. at
the Good Samaritan Medical Center?
THE JUROR:

Yes.

THE COURT:

Where is that?

THE JUROR:

In Brockton.

THE COURT: And it says that you left late December and are currently unemployed?
THE JUROR:

Yes.

THE COURT: That’s when you filled this out. Is
that still the case?
THE JUROR:

Yes.

THE COURT: Are you planning to reemploy or are
you taking some time off or—
THE JUROR: I’m actually taking time off. I
was—well, we’re planning on going cross-country. We
were going to start in April when our lease was up, and
just travel.
THE COURT:

When you say “we”—

THE JUROR:

My boyfriend and I.

325
THE COURT: You had that idea. Had you made
specific plans for a particular time for your trip?
THE JUROR: Well, our lease is up. We have an
RV. We were planning on going cross-country in the
RV. And if I was called, we were just going to stay in
the RV around here.
THE COURT: That was my question, if you were
called and if the case continued beyond April, what
would the impact [7-93] be on you. And you’re saying
you could adjust?
THE JUROR: Yes, definitely. We had already
planned on making adjustments if I was chosen to sit, so
. . .
THE COURT: Okay. Tell me just a little bit
about your training and work as a nurse. Do you have
any specialty?
THE JUROR: Yes; for the last ten years I’ve been
in the emergency room.
THE COURT:

Emergency room?

THE JUROR: Yup. Before that I was an LPN
and worked for an agency, so I basically staffed nursing
homes, rehabs, transitional care units, things like that.
THE COURT: Okay. But throughout your time
at Good Samaritan, you’ve been in the ER?
THE JUROR:
THE COURT:
book. Is that—

Yes.
Some but no extensive use of Face-

THE JUROR:

Hardly any.

THE COURT:

Okay.

326
THE JUROR: Basically, family, friends.
cake artist, so I post cake pictures.

I’m a

THE COURT: If you want to refresh your recollection, at pages 18 and 19 we ask jurors some questions
about what might broadly be called international affairs
issues, things about the war on terror, so-called, and perhaps attitudes about Islam and Muslims and so on and
so forth. Since you filled out [7-94] the questionnaire
and gave those answers, there have been some events in
Europe involving some terrorist attacks. Have you followed those at all?
THE JUROR:

I don’t really know much about it.

THE COURT:

You don’t know what or where?

THE JUROR:

I think France.

THE COURT: Right. Well, my question was going to be if what you knew about those things would affect any of the answers you gave here.
THE JUROR:

No, I don’t believe so.

THE COURT: Let me ask you to turn to page 20
and direct your attention to Question 77.
THE JUROR:

Uh-huh.

THE COURT: That’s a multiple-part question in
which we asked whether you’d formed an opinion from
things you’d seen in the media or heard otherwise about
whether this defendant was guilty or not, and if so,
whether he should be punished by the death penalty or
not.
THE JUROR:

Right.

327
THE COURT: And to each of those you indicated—
you checked the box that said “unsure.”
THE JUROR:

Right.

THE COURT:

Would you explain that for us?

THE JUROR: I can’t make a decision whether he’s
guilty or not until I hear evidence. I don’t know really
much [7-95] about it, so I can’t tell you one way or the
other if I think he’s guilty now or not guilty. I don’t
know.
THE COURT: You probably heard some things
about the case, right?
THE JUROR: Yes. I mean, I read what was—the
beginning of this that told facts.
THE COURT: That’s on the next page, if you want
to—I think that’s what you’re referring to, the bottom
of page 21?
THE JUROR:

The facts.

Yeah, so I read that.

At the time, bits of pieces of what was going on, but,
still, I really could not tell you what the accounts of what
happened. So I really don’t know. I don’t have
enough information.
THE COURT: Do you remember following any of
it as it unfolded at the time?
THE JUROR: I believe I was working at the time,
so I really couldn’t follow it step by step after the fact.
THE COURT:
marathon itself?
THE JUROR:

You’re talking about the day of the
Right.

328
THE COURT: Of course it continued into the end
of the week, Thursday and Friday, as people were trying
to—
THE JUROR: Yeah. I’ve worked nights for ten
years, so having that shift, I really don’t have much access to news. [7-96] I’m either sleeping during the day
or working during the night.
THE COURT: All right. Now if you’d go to page
23, we asked a series of questions beginning with Number 88 about attitudes or beliefs, convictions about the
death penalty and so on. And 88 is a general question,
it says generally what your views are, and you said you
didn’t have any. Is that—
THE JUROR: I really don’t. I—I don’t know. I
would have to see what the charges were. I’d have to—
I’d have to weigh everything in order to have an opinion
on that.
THE COURT: The next question was sort of asking
you to put it on a scale where you were between strongly
oppose and strongly favor, and you chose number 5.
THE JUROR:

Right.

I’m not either.

THE COURT:

In the middle, is that it?

THE JUROR:

Yeah.

THE COURT: The next question, Number 90, we
ask you to select the statement that was closest to what
your beliefs were about the death penalty. You selected D?
THE JUROR:

Right.

THE COURT: It says you’re not for it or against it
and could vote to impose it or vote to impose, instead, a

329
life imprisonment, whichever you thought was called for
by the facts and the law in the case.
THE JUROR:

Right.

THE COURT:

Is that an accurate summary?

[7-97]
THE JUROR:

Completely.

THE COURT:
Do you feel confident that—of
course you don’t know what the evidence is you’re going
to hear—
THE JUROR:

Right.

THE COURT: —but can you envision evidence
that would lead you to feel that the death penalty was
the right decision—
THE JUROR:

If there was—

THE COURT:

—and vote for it?

THE JUROR: If there was evidence and if that was
called for, then, yes, I guess I could.
THE COURT: And can you envision that there was
evidence that you could consider that might lead you to
conclude that the death penalty was inappropriate and
that life imprisonment was the appropriate sentence?
THE JUROR: Definitely. I have no, like I said,
views either way. I am really in the middle. I would
have to hear everything and make an educated decision.
MR. WEINREB:
THE JUROR:

Good morning.

Hi.

MR. WEINREB:
noon.

My name is Bill—good after-

330
THE JUROR:

Oh, yes.

MR. WEINREB:

Just so the record is clear.

My name is Bill Weinreb. I’m one of the prosecutors in the case. I just wanted to ask you a few questions about [7-98] the death penalty.
THE JUROR:

Sure.

MR. WEINREB: Have you given a lot of thought
to the idea of the death penalty in general?
THE JUROR: I have. You know, it’s part of this
case, so, you know, I’ve thought about it. And, again, I
would have to make an educated decision about that.
MR. WEINREB: Okay. So you’ve told us that
you could consider the evidence and you could consider
both possibilities, but I want to ask you a slightly different question—
THE JUROR:

Okay.

MR. WEINREB: —which is, as you know, because
the judge instructed you earlier, the jury—if the defendant in this case is found guilty—
THE JUROR:

Uh-huh.

MR. WEINREB: —of one of the crimes that carries a potential penalty of death, then it will be up to the
jury to decide whether he lives or dies.
THE JUROR:

Right.

MR. WEINREB: You’ll be one of those people who
will have to make that decision—
THE JUROR:

Right.

MR. WEINREB:

—on another human being.

331
My question is simply: Can you imagine yourself on
[7-99] the jury thinking about whether this person sitting at the table should live or die? Would you be able
to—if you thought it was the appropriate punishment,
would you be able to sentence him to death?
THE JUROR:

If I felt it was appropriate.

MR. WEINREB:

Okay.

Thank you.

MR. BRUCK:

Good afternoon.

THE JUROR:

Hi.

MR. BRUCK: My name is David Bruck. I’m one
of the attorneys for Jahar Tsarnaev, and I just have a
few things I want to talk to you about.
THE JUROR:

Sure.

MR. BRUCK:
You live in Massachusetts now.
Have you ever lived in other places?
THE JUROR:

No.

MR. BRUCK: Okay. Understanding that you
didn’t follow all of the facts or that you weren’t glued to
the TV set the whole time when this was first happening,
I’d like to ask you what stands out in your mind, if anything, about this case from anything you’ve heard, seen.
THE JUROR: The only thing that I definitely can
remember from that time is probably after the fact when
they showed the finish line. That’s about it really.
MR. BRUCK: And did you have any feelings about
what you remember of that scene?
[7-100]
THE JUROR:
confusion.

It was scary.

There was a lot of

332
MR. BRUCK:

Anything about the defendant?

THE JUROR: I honestly didn’t even know the defendant until—I didn’t know what his name was until the
court summoned me here.
MR. BRUCK: Okay. Anything else that you recall about any aspect of this case at all?
THE JUROR: No. Just personally I thought, my
goodness, the ERs are going to be overloaded, how are
they going to deal with that. It was just a work perspective.
MR. BRUCK: You’ve been asked a bunch of questions just now about the death penalty, mostly by the
judge. I want to ask you something about it but in a
slightly different way. Massachusetts doesn’t have the
death penalty, as the judge told you.
THE JUROR:

Right.

MR. BRUCK: Some states used to have it and recently abolished it. If you were in the legislature and
the issue came up should we have it on the books in the
state, would you be in favor of having it as an option or
would you think it would be just as well, or better, not to
have it as an option?
THE JUROR: I don’t know. I would need more
information. I’m glad I don’t have to make those kinds
of decisions. And I was surprised when told that the
death [7-101] penalty was on the table because I knew
that Massachusetts didn’t have it. Whether or not I
would vote for it, I don’t know. I’d have to think about
that even more.
MR. BRUCK:
this jury?

How do you feel about serving on

333
MR. WEINREB:

Objection.

THE JUROR:

How do I feel?

THE COURT:

No, you can answer that.

THE JUROR: Well, I feel as though I, you know,
bring an honest and impartial view. I really, you know,
have no opinion at this point. I would definitely need
more information and facts before I could make any decisions on anything. I feel I’m a fair person. So I
don’t know if, you know, a feeling is a correct question.
I’m not sure if I have a feeling.
MR. BRUCK: Let me ask it this way: Some people may get their jury summons and know it’s for this
case and say, “Oh, boy, I hope I don’t get picked.”
THE JUROR: No, I didn’t know my summons was
for this case. I had no idea at all.
MR. BRUCK:
THE JUROR:
other case.
MR. BRUCK:

Would you have had that reaction?
I don’t think so.

It’s a case like any

Bear with me just a moment.

(Pause.)
[7-102]
MR. BRUCK:

Thank you so much.

THE JUROR:

Thanks.

THE COURT:

Is that it?

THE JUROR:

All set?

All right.

(The juror is excused.)
*

*

*

*

*

Thank you.

334
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 23, 2015
9:26 a.m.
JURY TRIAL—DAY NINE

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

335
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[9-15]
MR. McALEAR:

Juror 138.

THE CLERK: Sir, over here, please. Have a
seat. Make sure you speak into the mic so everyone
can hear you.
THE COURT:

Good morning.

336
THE JUROR:

How are you doing?

THE COURT: Good. When you left last time you
were here, I had instructed everyone to avoid any discussion of the subject matter of the case with anybody.
You could talk about coming here, obviously, but—and
also to avoid any exposure to media articles about the
case.
Have you been able to do that?
THE JUROR:

Yeah, I haven’t looked at anything.

[9-16]
THE COURT:
hear you.

Keep your voice up so everyone can

THE JUROR:
body about it.

Yeah.

No, I haven’t talked to any-

THE COURT:
ployment.

Okay.

Tell us what you do for em-

THE JUROR: I work for the City of Peabody.
I’m in the water department.
THE COURT:

What do you do?

THE JUROR: I’m in the distribution. I work out
in the street doing water breaks, services, fixing all the
mains.
THE COURT: And what is the basis of your compensation? Are you salaried or hourly or—
THE JUROR:

I’m hourly.

THE COURT: What would happen if you were on
this case for an extended period of time? Would you be
paid?

337
THE JUROR:
paid. Yes.

Yeah, as far as I know I’m getting

THE COURT:

Even though you’ll be here?

THE JUROR:

Yes.

THE COURT: And is that—you say as far as you
know. Is that because you talked with higher-ups
about it?
THE JUROR: My foreman actually was picked for
jury duty like a month ago, and he served on a case for
a week. So he got paid for the week. If they stop that
after a certain time or what, I could find out.
[9-17]
THE COURT:
body?
THE JUROR:

You haven’t specifically asked anyNo.

THE COURT: Let me ask—we asked you a little
bit about social media, and you said you use Facebook?
THE JUROR:

Yes.

THE COURT: I guess you post to it once or twice
a week but you check it every day or something like
that?
THE JUROR: Yeah. We drive around in the city
truck. If I’m not driving, I’m sitting in the passenger
seat just playing on my phone unless we’re working.
But other than that, I don’t really—I’m not posting on it
or talking to people on it.
THE COURT: What’s the nature of your use of it?
Is it essentially personal, social-type things?
THE JUROR:

Yeah.

338
THE COURT: Do you comment on public affairs or
anything like that?
THE JUROR: Yeah, I see what my friends are doing and comment on that.
THE COURT:
trial?
THE JUROR:

Anybody commenting about this
No.

THE COURT: Could we cut the audio for a minute
and excuse the reporters?
(Discussion at sidebar and out of the hearing of the
public: )
[9-18]
[REDACTED]
[9-19]
[REDACTED]
(In open court:

)

THE COURT: That is the questionnaire you filled
out, so we may refer to some of the questions and it
might help you to take a look at it. I’m looking at page
19, Question 74. We asked did you have a reaction
when you received the summons to possibly serve on
this case, and you said “interested.”
Can you tell us what you were thinking when you
wrote that; what you might have meant by that?
THE JUROR: I wasn’t sure what to really expect
at all. I didn’t expect it to be like anything I’d ever
done, so I was curious, basically.

339
[9-20]
THE COURT: Did you have a reaction one way or
the other in terms of it would be interesting to serve or
just interested to find out and then get excused or what
was your—
THE JUROR: More like to see what it was all
about, I guess. I mean, like interested in what would
be going on, not like looking to get out of work for a
month or nothing like that.
THE COURT: Okay. On the next page, Question
77, we asked people if they had from any source, media
or otherwise, formed an impression about whether the
defendant was guilty or not or whether he should be
punished in a certain way or not, and you answered “no”
to all of those questions.
THE JUROR: Yeah. I wasn’t going to make any
decisions until I’d seen everything that was presented,
basically, in front of me.
THE COURT: In other words, if you were a juror,
you would wait to hear what the evidence was before
making up your mind. Is that what you’re saying?
THE JUROR:

Yes.

Yes.

THE COURT:
In any criminal case—you may
know, but I’ll lay it out, the basics anyway—in any criminal case a person accused of a crime under our system
is presumed to be innocent, or not guilty—
THE JUROR:

Yes.

340
THE COURT: —unless and until the government
proves [9-21] otherwise by evidence at trial, and convinces the jury that the person is guilty by proof that
leaves them with no reasonable doubt.
THE JUROR:

Uh-huh.

THE COURT: Do you have any concern or hesitation about your ability to—if you were a juror to ensure
that the government proved any crime beyond a reasonable doubt?
THE JUROR: Yeah, if the evidence was there, yes,
I’d be able to make the right decision.
THE COURT: But if it wasn’t there, is really I
guess what I’m asking, would you then accept that the
government had failed and that the verdict should be not
guilty in that circumstance?
THE JUROR: Yes, I would be able to go both ways,
whether it’s right or wrong.
THE COURT: We asked a series of questions
about attitudes or beliefs concerning the death penalty.
That’s on page 23. It’s kind of—a general question in
88 asks if you have any views in general, what are they,
and you said “none.” Is that—
THE JUROR: Yeah. I mean, I’ve never really—I
don’t know. Other than seeing anything on, like, movies or TV shows, I’ve never really known much else
about the death penalty. And—I don’t know. I mean,
it never really interested me too much but . . .

341
[9-22]
THE COURT: Okay. The next question we asked
a slightly different question which was on a scale of 1 to
10 from strongly opposed to strongly favor—do you—
and you selected 8 indicating—so you’re sort of on the
favor side of the weighing there of the death penalty but
not quite at the highest level.
THE JUROR: Yeah, I’d say I’d be more going on
the circumstances of the event or—what happened for,
like, each individual, like, that would be that—the death
penalty would be addressing.
THE COURT: You heard me explain this morning
the penalty phase where there would be consideration of
things—
THE JUROR:

Yes.

THE COURT: —that might aggravate the seriousness of the offense and things that might mitigate the
punishment that should be imposed?
THE JUROR:

Yes.

THE COURT:

You’ve heard about that?

On the next page we asked in Question 90 for you to
indicate which of a number of possible statements was
closest to your view. You circled E which says, “I’m in
favor of the death penalty but I could vote for a sentence
of life imprisonment without the possibility of release if
I believed that sentence was called for by the facts and
the law in the case.”
[9-23]
Does that represent your view?

342
THE JUROR:

Yeah.

Yes.

THE COURT: So you would be able to, after hearing all the evidence, consider carefully the alternatives
that were available and decide based on your evaluation
of the evidence?
THE JUROR:

Yes.

THE COURT:

Is that what you’re saying?

THE JUROR:

Yes.

THE COURT:
You would be open to either?
You’re not predisposed—or precommitted, I guess—
THE JUROR: Yeah, I’d be open to either. Earlier you mentioned something if he is to—or we do decide to say he’s guilty, you said that we would be presented with more evidence.
THE COURT:

Yes.

THE JUROR: Why would we be given more evidence after we make our decision depending on—
THE COURT: Because the first decision is actually
whether he committed the crime, he’s proved guilty of
the crime, okay? That’s the first stage. It doesn’t
consider what penalty might be imposed; it just asks
whether you are persuaded by the government’s evidence that he has—he is guilty of a charged crime.
THE JUROR:

Uh-huh.

THE COURT: The second phase is then to consider
what the penalty should be for that crime having found
him guilty of [9-24] a capital offense. It would typically

343
be—or for—not typically, but an example of a capital offense of which he would be convicted would include an
intentional murder, okay?
Once the jury had concluded that the government
had proved that, the jury would then decide what penalty should be imposed between two alternatives: the
penalty of death or the penalty of life without possibility
of release, okay? And in that phase the government
would present factors—evidence about what we call “aggravating factors” that make the crime more serious
than other crimes of intentional murder and argue
that—the government would argue that would mean the
death penalty is appropriate.
The defense would present evidence about the events
or about the defendant himself or other things that
might mitigate the punishment and lead the jury to
think that the death penalty was not appropriate for him
but life imprisonment was better as a penalty for him,
okay?
Are you following that?
THE JUROR:

Yeah, yeah, it’s that—

THE COURT: So that’s why we ask what your disposition is. Are you open to the consideration of either
alternative depending on your evaluation of the evidence? That’s really the question.
THE JUROR: Yeah, yeah, yeah. Yes, I am. I’m
not more in favor of one way or the other; it would all
depend on [9-25] the outcome of everything presented.
THE COURT: Not to belabor this too much, but let
me ask you to look at page 25 at the bottom. Question

344
95 we ask if you found the defendant guilty and you decided the death penalty was an appropriate punishment,
could you conscientiously vote for the death penalty, and
you said, “I’m not sure.” And if you go to the next
question, sort of the other alternative is asked: If you
found him guilty and you decided life imprisonment
without possibility of release was the appropriate punishment, could you conscientiously vote for life imprisonment, and you voted that “I’m not sure.” So you
gave “I’m not sure” to both. I just want to—
THE JUROR: I think you kind of answered my
question. We were just talking about it would all factor
on how everything is presented to me how I would make
my decision with that.
THE COURT: So earlier, I think with respect to
the question—we were looking at Number 77, we asked
whether you had an opinion about whether he was guilty
and what the penalty should be, you said you were reserving until you heard—
THE JUROR:
as of now.

Yeah, I don’t really have an opinion

THE COURT:
ing here?

Is that the same thing you were say-

THE JUROR:
wait.

Yes, basically.

I would have to

[9-26]
THE COURT:

Okay.

MR. WEINREB:
THE JUROR:

Follow-up?

Just a bit.

How are you?

Good morning.

345
MR. WEINREB: My name’s Bill Weinreb. I’m
one of the prosecutors in the case. I just wanted to follow up with you very briefly on the questions the judge
asked about the death penalty.
So as the judge just explained to you, if the jury were
to find the defendant guilty of a crime that is potentially
punishable by death, then—in a capital case, then it’s up
to the jurors to decide what the penalty should be.
THE JUROR:

Yeah.

MR. WEINREB: The law doesn’t require one penalty or the other; each juror has to make a decision.
THE JUROR:

Uh-huh.

MR. WEINREB: Have you thought about, at all,
what it would be like to sit on a jury in a capital case and
decide whether someone lives or dies?
THE JUROR:

Yeah, it’s a pretty serious situation.

MR. WEINREB: And although you’ve never been
in that situation, having to make that decision, do you
believe that you could sentence someone to death if you
thought that that was the appropriate sentence given
the circumstances of the case and the characteristics of
the defendant?
[9-27]
THE JUROR: Yeah, I guess I could—I can’t really
say for sure until I would know all the facts in front of
me, but if I had to—if that was the right decision to be
made, then I would make the right decision, yes. If
that was what I had to do, that’s what I would do.

346
MR. WEINREB: Okay. And just so I’m clear and
I understand you, you’re using “if I have to.” You understand that you would never have to, it would be up to
you. You’d make the decision one way or another.
THE JUROR:
sion. Yes.

Yeah, I’d be able to make the deci-

MR. WEINREB:
THE JUROR:

All right.

Thank you.

Yup.

MS. CLARKE: Good morning. It’s over here
now. My name is Judy Clarke. I’m one of the lawyers
for Mr. Tsarnaev.
THE JUROR:
MS. CLARKE:
questions.

Uh-huh.
And I had just a few follow-up

The judge asked you about your answer to Question
74, if you want to take a look. It’s at page 19.
THE COURT:

19, yeah.

MS. CLARKE: And you talked to him about that.
I wondered if you would take a look at 75. You indicated that a few people were jealous. Can you explain
that to us a little bit more, talk to us a little bit more
about that?
THE JUROR: I think it was right around Thanksgiving I [9-28] had mentioned it right when I got the
whole packet about having to come here, and a few people just mentioned that I was lucky, in their words, and
they wished that they got the chance to be here. That
was basically it. And I just told—I was saying that I
wasn’t really sure how I felt about it yet, it all just came
on so quick, so . . .

347
MS. CLARKE:

Feeling lucky because why?

MR. WEINREB: Objection.
relevant what other people felt.

I don’t know why it’s

THE COURT: Well, did other people explain to you
why they thought you were lucky?
THE JUROR: No, it didn’t really go much further
than that. I really wasn’t too interested in talking
about it. It was like a family dinner, so we were, like,
eating.
THE COURT:
were saying it?

So these were family members who

THE JUROR:

Yes.

THE COURT:

Okay.

MS. CLARKE:

What did you take that to mean?

MR. WEINREB:
MS. CLARKE:
THE COURT:
thought—
THE JUROR:
MS. CLARKE:

Objection. Same objection.
I’m just trying to get to the—

No, you could answer that, what you
I mean as—
Lucky because?

[9-29]
THE JUROR:
I’m not sure.
I mean, these
weren’t like close family members; these are like distant
cousins and stuff. It wasn’t people I see and interact
with frequently. But I’m not—it’s maybe something
that they were more interested in than I was or—

348
MS. CLARKE: So you took no meaning from them
saying “Hey, you’re lucky you get to go. I wish I could
go”?
THE JUROR:
see him saying—

My uncle is—the only thing I could

MR. WEINREB: Your Honor, objection. This is
asking him to speculate about what other people felt.
He’s already said that he—
THE COURT:
what—

No, go ahead.

Go ahead.

Tell us

THE JUROR: I think he’s more interested in, I
don’t know, I’d say like—I don’t know how to put it. I’d
say more interested in, like, more action-type things and
like excitement, and he’d be more, like, locked in and like
more interested in everything that would be going on.
Like he would take a lot of interest in this type of stuff,
I think.
MS. CLARKE: One more question about that:
Was it clear to you that the conversation was about this
case coming up?
THE JUROR:
MS. CLARKE:

Yes.
For this case?

THE JUROR: I just assumed it was because a few
days [9-30] before I had noticed on the news that this
case was—the jury selection for this case was supposed
to start January 5th along with Hernandez’s case. And
so that was just what—I was going under the assumption that it was for this case.
MS. CLARKE: If I could take you to Question 19
on page 8. Are you with me?

349
THE JUROR:

Yes.

MS. CLARKE: And apparently your sister has a
role in your life, right?
THE JUROR:

Yes.

MS. CLARKE: And have you talked to her about
the jury summons?
THE JUROR: Not that I recall. I mentioned it to
her, that was about it. I don’t recall anything other
than her just knowing that I’m here and stuff.
MS. CLARKE: Have you talked to her about the
Boston Marathon bombing?
THE JUROR: Yeah, that was more closer to the
event and the time. Nothing recent or since that other
than being picked for this.
MS. CLARKE:
her about it?
THE JUROR:
MS. CLARKE:

And did you express any opinion to
No.
Then or now?

THE JUROR: I’d say then I was more interested
in what [9-31] was really going on and curious to see how
everything was going to turn out.
MS. CLARKE:

What do you mean?

THE JUROR: The whole, like, few days—everything
was going on at the time of the event, like. That was
about it.
MS. CLARKE:
Monday?

Where were you on that marathon

350
THE JUROR: I was at work. I was right at the
end of my day. We leave work at three, so we’re usually back a little before—like 2:40 or so—watching TV.
MS. CLARKE:
fold on TV?
THE JUROR:

And did you watch the events unYeah.

Yes.

MS. CLARKE: And the 19th of April, the last day
of the week when Mr. Tsarnaev was arrested, where
were you then?
THE JUROR: We were still working. I think I
was—I think I worked every day that week. I’m trying
to remember.
MS. CLARKE: Let me ask this:
the events on TV or radio?

Did you follow

THE JUROR: Not really a lot. I mean, here and
there I would catch bits and pieces of it, but it was
mostly watching for the weather-wise.
MS. CLARKE: Okay. I’d like to ask a couple of
follow-up questions about Question 21, your Honor.
THE COURT:

Fine.

We’ll cut the audio, please.

[9-32]
(Discussion at sidebar and out of the hearing of the
public: )
[REDACTED]

[9-33]
[REDACTED]

[9-34]
[REDACTED]

351
[9-35]
[REDACTED]

MS. CLARKE:
THE COURT:
dio.

I had some public follow-up.
I’m sorry.

We’ll go back on the au-

(In open court:

)

THE COURT:

We’re back on?

Okay.

Go ahead.

MS. CLARKE: If I could take you back to page 25,
Question 93, you answered that life in prison without the
possibility of release is less severe than the death penalty, and your explanation was that someone being allowed to live their life after taking someone else’s life is
not always fair. Can you elaborate on that a little bit?
THE JUROR: I guess it would be more—I guess it
would be more of how the person took the life, it wouldn’t
be as fair—if somebody’s suffering—if somebody is killed
and they’re suffering the whole time, I’d feel that—I’m
not really sure. The death penalty seems like sometimes it could be an easy way out, how it would—it could
go both ways, I guess, but I’m really not sure.
MS. CLARKE: Well, I guess one of the questions
is— [9-36] and only you know—
THE JUROR:

Yeah.

MS. CLARKE: —is are you looking solely to the
crime itself or something else?
MR. WEINREB:
the question.
THE COURT:
tion.

Objection.

I don’t understand

Yeah, I think it’s too vague a ques-

352
MS. CLARKE: The judge has explained that there
are two phases to a capital case, the first phase where
the jury makes a determination of whether or not the
person is guilty beyond a reasonable doubt of the capital
crimes.
THE JUROR:

Uh-huh.

MS. CLARKE: And that means, and I think the
judge has explained, that you would never get to the
penalty phase unless the person were found guilty of the
crime, an intentional murder.
THE JUROR:
MS. CLARKE:
excuse.
THE JUROR:
MS. CLARKE:
THE JUROR:

Yes.
Not a self-defense, not a duress, no
Uh-huh.
Intentionally kill, okay?
Yes.

MS. CLARKE: So I’m wondering if that’s where
you stop in making your determination of whether somebody should get the death penalty or not or whether you
want to know more.
[9-37]
THE JUROR: Yeah. I mean, I can’t really say I
have a certain line of where I’m going to make my decision or not. It would more depend on the outcome of
how everything was presented to me and what—how
everything, like, really played out.
MS. CLARKE: Let me ask it this way: If you
made a decision that the person was guilty of an intentional murder, no excuses, in the penalty phase would

353
you be giving consideration, meaningful consideration,
to the fact that someone may have had a bad childhood?
THE JUROR:

Yes.

MR. WEINREB:
MS. CLARKE:

Objection.
Would that make a difference?

MR. WEINREB: I don’t think it’s appropriate to
ask particular mitigating factors.
THE COURT: I think we’ve ruled that out before.
I mean, I think we can keep coming at this. I think the
witness has expressed his disposition—the witness, the
juror. I keep calling him “the witness.”
MS. CLARKE:
THE COURT:

Mr. 138.

Thank you.

Anything else?

You’re done?

Anything else?
MR. WEINREB:

No.

THE COURT:

Okay.

Thank you, sir.

THE CLERK:

Right this way, sir.

[9-38]
THE JUROR:

Thank you.

(The juror is excused.)
*

*

*

*

*

354
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Jan. 29, 2015
11:10 a.m.
JURY TRIAL—DAY ELEVEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

355
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[11-81]
* * * * *
THE CLERK:
MR. McALEAR:

Juror No. 229.
Juror No. 229.

(Juror No. 229 enters the courtroom.)

356
THE CLERK: Ma’am, over here, if you would,
please. Have a seat.
Speak into the mic so everybody around here can
hear [11-82] you, okay?
THE JUROR:

Okay.

THE CLERK:

Okay.

THE COURT:

Good afternoon.

THE JUROR:

Good afternoon.

Thanks.

THE COURT: Have you been able, since the last
time you were here, to abide by my instructions to avoid
any discussion of the substance of the case with anybody
or the process or anything like that?
THE JUROR:

Uh-huh.

THE COURT: And have you also, to the extent
you’ve been able, avoid media reports about the case or
the process?
THE JUROR:

Yes.

THE COURT: So that’s the questionnaire you
filled out, and we’re going to follow up on some of the
questions.
THE JUROR:

Can I open it?

THE COURT: You can. I’m going to start on
page 6. And the question is a quick one. It gives a little information about your husband and his work. You
say he’s a financial advisor?
THE JUROR:

Yes.

THE COURT: Can you tell—put that in a little
more context, what it is he does?

357
THE JUROR: Sure. He works in a family business for RBC. It’s called the McCarthy Group. And
he’s a financial [11-83] advisor, just as far as long-term
planning.
THE COURT:

I see.

THE JUROR:

Investments.

THE COURT:
talking about?

Personal wealth, is that what you’re

THE JUROR:

Yeah, exactly.

THE COURT:

How long has he done that?

THE JUROR: Oh, let’s see. I’m going to go
with—God, I think going on 21 years.
THE COURT:

Okay.

And your own work?

THE JUROR: Well, I don’t know what I want to be
when I grow up, but I do do a little bit of everything. I
run events right now, I was a social worker, and I do
volunteer for HAWC. I think that’s on here.
THE COURT: Yeah, I was going to ask you what
that acronym means.
THE JUROR: So it was a haven for domestic violence. And basically what we do is—
THE COURT:

What do the letters mean?

THE JUROR: Well, they just changed it. Now
I’m nervous. What is it? It’s Haven for Wellness and
Change [sic], so . . . And it’s out of Salem.
THE COURT:

Okay.

THE JUROR: And basically what we do, I’m on call
for people who suffer from domestic violence.

358
[11-84]
THE COURT:

Do you counsel or—

THE JUROR: It’s just a hotline. So basically
what I do is I make a plan with them to be referred to—
you know, make sure they’re in a safe situation, and I
refer them to the best situation.
THE COURT: Okay. I’m looking at Question 26
on page 10 where you talk about your event planning
and so on.
THE JUROR:

Okay.

THE COURT:

Did I say page 26?

THE JUROR:

You did.

THE COURT:

Page 10, Question 26.

THE JUROR:

Okay.

Sorry.

THE COURT: Just from the dates, homemaking
prior to the event planning, but there’s an overlap there.
So is it you were doing both at the same time?
THE JUROR:
THE COURT:
part time?

I was.
Is the event planning a full time,

THE JUROR: No, I do contract work for them.
So they call me when they want me to work, and I can
say yes or no.
THE COURT:

When they get a particular event?

THE JUROR: Yes. Right. Exactly. I mean,
they would like me to work a lot more, but because I
have the children I just kind of get to pick and choose.
THE COURT:

I see.

359
[11-85]
Next page, page 11, Question 33, you have a friend
who is a Homeland Security lawyer?
THE JUROR:

Yes.

THE COURT: Tell us about that.
what this person does?

Do you know

THE JUROR: Right now she works in immigration. She just moved up here. Her parents were sick.
So she was down in Miami, and now she works out of
Hartford. So she does a lot of the Homeland Security
with people who are in immigration, are illegal status.
THE COURT: And is this somebody you’re close to
or is this just somebody who’s an acquaintance? Can
you give us—
THE JUROR: Sure. She was my roommate in college, and we’ve been friends ever since, so over 20 years.
THE COURT:

But you’re not neighbors—

THE JUROR:

No.

THE COURT:

—because she’s long distance.

THE JUROR: No, no. She lived in Miami, but she
had to move back because, unfortunately, both her parents are ill, so she takes care of them.
THE COURT:

So how do you stay in touch?

THE JUROR: By phone.
Miami selling her house.

She’s actually back in

THE COURT: Also on page 11 at the top we asked
about social media.

360
[11-86]
THE JUROR:

Uh-huh.

THE COURT:

You said Facebook infrequently?

THE JUROR:

Yeah, just to kind of spy on my kids.

THE COURT: Page 14, Question 42, you’ve been a
witness, I guess, probably when you were a social
worker?
THE JUROR:
THE COURT:
ter, I guess?

Yeah, a long time ago.

Yup.

And then also personal family mat-

THE JUROR: Oh, yeah. I took care of my uncle
who passed away last year, and his ex-girlfriend’s daughter was suing him for rent even though they lived together. I just felt like I had to stand up for him.
THE COURT:

So that was fairly recent?

THE JUROR:

Within the last two years.

THE COURT:

How about the other one?

THE JUROR: Oh, God. That was a long time ago.
That was probably—had to be in the ‘90s.
THE COURT: All right.
if you would, please.

So now turn to page 20,

THE JUROR:

Sure.

THE COURT:

Question 77.

THE JUROR:

Okay.

THE COURT: In that question we ask a multiplechoice sort of question with available boxes for you to
check about whether you’d formed an opinion about

361
whether the defendant was [11-87] guilty or not or if he
should receive the death penalty or not based on things
you’d seen in the news or learned about otherwise.
And you—for the available choices, yes, no or unsure,
for each of those you checked “unsure.”
THE JUROR:

Uh-huh.

THE COURT: Would you just tell us about that,
why you chose that box?
THE JUROR: I would have to say because of a lot
of—when it happened—was through the media that I
heard about it. And, you know, I just think I’m a little
bit jaded with the media, and I just thought with our legal system I should keep an open mind. You know,
through my education and, you know, I just know what
the media tells us, there’s always more. So I felt like,
you know, you’re innocent before proven guilty, that I
should have that open mind. So I had to answer that
fairly.
THE COURT: And would you be able to, if you
were a juror in the case, follow that principle, that a person accused of a crime is innocent until proven guilty by
the evidence at trial?
THE JUROR:

Yes.

THE COURT: In your capacity as a social worker
or in your volunteer capacity, have you had any connection with or association with criminal prosecutions?
THE JUROR: Well, what I do right now as far as
with [11-88] HAWC is we have to stay very non-judgmental. And the advice that we give people has to be
one of just support and empowerment and not what—
you know, we can’t persuade them either way.

362
And when I was a social worker, what I did mainly
was crisis work. And, again, that was where I would go
in and make a plan for the person’s safety but I couldn’t
tell them what to do and I couldn’t judge the situation or
what was going on.
THE COURT: So would you be able, in this case,
although it has some notoriety, to listen to the evidence,
hold the government to its burden of proof, which is to
prove the defendant guilty of any of the crimes that he’s
charged with beyond a reasonable doubt by the evidence
at trial, and if you thought the government had not sustained its burden on any of the counts, would you be able
to find the defendant not guilty as to that count?
THE JUROR:

Yes, I think so.

THE COURT:

Any hesitation?

THE JUROR: Well, I mean, it’s a weighty question, but I want to believe that, yes, I would, because I
feel like, you know, as we learned today with the videos
and everything I’ve been thinking about is that, you
know, if it was myself or someone I knew who was in this
situation, that I would want that fair trial.
THE COURT: Okay. Beginning on page 23 we
asked a [11-89] series of questions about jurors’ thoughts
or attitudes about the death penalty, and that begins
with Question 88 on 23.
THE JUROR:

Sure.

THE COURT: 88 is a general question: Do you
have any views about the death penalty in general?
and you said none. Is that accurate?
THE JUROR: Yeah, I think that—well, maybe as
far as like—what do you mean “in general”?

363
THE COURT: I guess as a policy matter should
there be a death penalty or not or are there occasions
when it is appropriate and occasions when it’s not? I
mean, people could have various thoughts about it, that’s
all. We’re really trying to get you to tell us whatever
occurred to you in response to that, so . . .
THE JUROR: Right. So I think on 91 I explained
that I feel that it is case to case in my mind. So I don’t
know if “none” is an appropriate answer to that one.
So, I mean, I feel it’s case by case.
THE COURT: Okay.
work through them.
THE JUROR:

We’ll get there.

We’ll

Sorry.

THE COURT: In 89 we asked you to see if you
could position yourself on a scale of 1 to 10 in terms of
being strongly opposed or strongly in favor, and you
chose—I guess you chose 6 first and then changed it to
5.
[11-90]
THE JUROR: I feel like it should be the middle because, again, I feel it’s case by case.
THE COURT: Okay. And then the next page,
Question 90, we set forth a series of statements that people could possibly agree with or disagree with, and
asked you to select one that you thought best described
your feelings about the death penalty for someone who
has been proven guilty of murder, and you selected D
saying you’re not for or against the death penalty. “I
could vote to impose it or I could vote to impose a life

364
imprisonment without the possibility of release, whichever I believe was called for by the facts and the law in
the case.”
Does that fairly represent your view?
THE JUROR:

Yes.

THE COURT: And when you were referring to 91,
you’re kind of saying the same thing?
THE JUROR:

Right.

Right.

THE COURT: Is this something that—it’s understandable if jurors, when they came in in early January,
hadn’t thought a lot about the death penalty at that point
and when we asked you to fill out these questionnaires.
Have you thought about it more since then at all?
THE JUROR: Oh, absolutely. Since I left, you
know, having to answer that question, of course. But has
it changed? No. I mean—
[11-91]
THE COURT: That was going to be my next question. Have you changed your view in any way?
THE JUROR:

No.

THE COURT: The bottom of 25, Question 95, we
asked, “If you found this defendant guilty and you decided the death penalty was appropriate, could you conscientiously vote to impose the death penalty?” and you
said “yes.”
THE JUROR:

Uh-huh.

THE COURT: The next question is the reciprocal
of that. “If you found the defendant guilty and you decided that life imprisonment without the possibility of

365
release was the appropriate punishment, could you conscientiously vote for that penalty?” and you said “yes.”
THE JUROR:
tion?
THE COURT:

Do you feel like that’s a contradicNo, I don’t necessarily.

THE JUROR: No, I don’t.
on what the facts are.
THE COURT:
MR. MELLIN:
tions?
THE COURT:

Okay.

Do you?

I think it’s depending

Follow-up?

Your Honor, may I ask a few quesOkay.

MR. MELLIN: Good afternoon. I’m Steve Mellin. I’m one of the prosecutors on the case. I’d like to
jump back to where Judge O’Toole started, which was a
little bit of discussion kind of about your master’s of social work.
Your undergraduate degree, it looks like, was in
[11-92] psychology. Is that right?
THE JUROR:

Yes.

MR. MELLIN: What types of courses did you take
for that? I didn’t mean that to be a trick question.
THE JUROR: I know. It was just a thousand
years ago. So behavioral psych. I did concentrate
more in adolescent at the time, so adolescent psych, family and children.
MR. MELLIN: And “adolescent” to you means
what? What age are you talking about?
THE JUROR: Well, adolescent—well, some theories it could be 13 to 26.

366
MR. MELLIN:

Okay.

THE JUROR: You know, depending on, you know,
what school of thought you came from, so . . .
But when I did work with children, for adolescents it
was considered 13 to probably 18.
MR. MELLIN:
with the children?

And what type of work did you do

THE JUROR: Well, I’ve had many jobs in social
work, so I’m trying to think. To start off with, I did
work at a group home, Harbor Schools, and I was the
lead social worker there. So they were residents that
were placed there. And so I did a lot of case work, a lot
of individual, and then a lot of groups. And then overseeing the staff.
MR. MELLIN:
home?

How did the children end up at the

[11-93]
THE JUROR: Some of—I would say most of them
were probably placed by the state at the time. They—
you know, if they weren’t able to be integrated into the
community at their homes, or if their homes weren’t a
place where they were being able to kind of abide by
laws and different things like that, this was a place
where they could be under supervision and get an education as well.
MR. MELLIN: Okay. You mentioned earlier that
you did some work in kind of a crisis setting. Is this
the crisis setting or is that something else?
THE JUROR: No, no, I worked for Greater Lynn
—not Greater Lynn. I’m sorry. I worked in Lynn at

367
a crisis center, so it was on-call. And I also worked in
the crisis agency. So if, say—a lot through Lynn Union
Hospital, if they had people who came in who were, perhaps, suicidal and different things like that, I was the
initial person who did the evaluation before the psychiatrist came onsite.
So I did the evaluation to see if the person should go
to the next step or if they could go home or if they could
go into outpatient therapy or if they needed to be in inpatient.
MR. MELLIN: Any interactions with law enforcement in any of that where—if the crisis was some type
of domestic abuse or anything like that where you would
call the police?
THE JUROR: They would call me. So I was—like
the police usually were the ones who brought them to
the hospital. [11-94] Not all the time. I’m sorry.
But that’s how that happened.
Would I have to call the police? At my office sometimes, you know, if somebody was—you know, had a psychotic break or something like that, or was getting violent, then we did have to call for police assistance.
MR. MELLIN: And in the time you were working
in social work, did you do any psychological testing on
any of the people you were dealing with, anything like
that?
THE JUROR: No, that wasn’t my job.
done—they were referred to me after that.
MR. MELLIN:

Have you ever done any?

That was

368
THE JUROR: Probably as, like—you know, in
graduate school as part of a practicum, but it wasn’t
what I studied or specialized in.
MR. MELLIN: Okay. So in this case if you were
to hear from psychologists, would you be able to decide
the weight to give that testimony based on hearing the
testimony here in court as opposed to maybe what you
learned back a few years ago?
THE JUROR: Honestly, you know, I don’t know.
I mean, it was so long ago, it kind of seems like a lifetime
ago. It might trigger some things that I had in my education, but I don’t think I would consider myself like a
professional in that.
MR. MELLIN:

Fair enough.

Okay.

[11-95]
And then turning to the death penalty questions, you
kind of put yourself in the middle of the road on this.
You said that you have thought about it a little bit since
we handed you this little text to fill out.
What have you thought about the death penalty since
you filled out this questionnaire?
THE JUROR:
Probably how my position has
changed on it, you know, as far as, like, you see me as a
social worker, I probably started out young probably being more liberal, and then probably becoming—as I became older and worked more a little bit more open to,
you know, that it’s not very black and white; that there’s
different things that come into play for me as far as that
decision.
MR. MELLIN: Okay. And you mentioned that
you believe that it’s a case-by-case analysis, right?

369
THE JUROR:

Uh-huh.

MR. MELLIN: If you did believe this was a case
where you thought the death penalty was appropriate,
would you be able to vote to impose the death penalty?
THE JUROR:
MR. MELLIN:

Yes.
Thank you.

MS. CONRAD: Good afternoon. My name is Miriam Conrad. I’m one of Mr. Tsarnaev’s lawyers.
Can you tell me a little bit more about some of the
things in your life experiences that caused you to change
your [11-96] view about the death penalty?
THE JUROR: Probably having children myself
and seeing things—you know, and as far as just things
that—cases maybe I’ve come across or things I’ve seen
in the news as far as things happening.
MS. CONRAD: Can you be more specific?
particular cases that come to mind?

Any

THE JUROR: No. I think just probably, you
know, if you had asked me this question 20 years ago, I
would have said absolutely not, and now I just think—
I’m just not as naïve and I just have to, you know, look
at things from both sides.
MS. CONRAD: When was it exactly that you did do
social work? You said the ‘90s?
THE JUROR: Yes. And I still always—like I
said, I always try to keep myself involved in some way,
you know, as far as like volunteering or something like
that.

370
MS. CONRAD: So was it a conscious decision to
leave that field or was it more just change in circumstances?
THE JUROR: I’d say change in circumstances because I made no money and my husband did, and so I
didn’t want to pay someone to raise my kids.
MS. CONRAD: I understand. You said, I think in
answer to Mr. Mellin’s question, about, you know, if the
circumstances called for it. Can you tell us a little bit
more about what kind of circumstances would be relevant to that in [11-97] your mind?
THE JUROR: Well, I just think—like an example
just that would come to me—I don’t know. If the evidence just was, like, just completely that this was just a
malicious act and this is the intention, then I guess
that—you know, if there was no way around it, you
know, but I think—just the facts would have to be there
that I would really have to, you know, think about it. I
couldn’t just say no right away; I couldn’t just say yes
right away.
MS. CONRAD: I’m sorry.
say yes right away?

You could or could not

THE JUROR: I think that I would have to have more
information either way. I don’t think it’s a decision—
like I’m not somebody who’s just going to say right at a
cocktail party that, yes, somebody should be put to
death or, no, they shouldn’t. I need more information.
I’m not going to just jump to that.
MS. CONRAD: And would you be able to consider
facts regarding the defendant’s background as well as
facts regarding the crime in making that determination?

371
THE JUROR: Yeah, absolutely. I think that’s
probably where my thought process would be.
MS. CONRAD: Now, you said something about
having children changing your view. Can you talk a little bit more about that?
[11-98]
THE JUROR: Well, I just think that as far as probably not being as naive and just thinking that—you
know, that sometimes bad things happen out there and
there needs to be more consequence, whereas when I
was younger and it was just myself, I probably didn’t
have that point of view.
MS. CONRAD: Would a case that involved the
death of a child make it more difficult for you—
MR. MELLIN:
THE COURT:

Objection.
Sustained.

MS. CONRAD: You told us that—well, you said on
your form that you were unsure whether you’d formed—
the way the question is framed is a little bit difficult. If
you’d look at page 20, Question 77. So it’s a little confusing, but the way the question is actually written is it
asks whether you’d formed an opinion about whether
Mr. Tsarnaev is guilty, and your answer to that is “unsure.”
THE JUROR:

Uh-huh.

MS. CONRAD: So are you saying there that you’re
unsure whether he’s guilty or you’re unsure whether
you formed an opinion?
THE JUROR: Well, I think they’re one and the
same because I don’t have that information, you know,

372
as far as if I just watched the television that day, then,
you know, that wouldn’t be—I don’t know. That’s just
not where I would come from, you know? I just don’t feel
like—I am unsure as [11-99] far as, like, what you’re asking. Like I’m not someone who’s going to say “guilty”
or not “guilty.”
MS. CONRAD: Sure. And I appreciate that and I
really appreciate—first of all, I want you to understand
that we’re really trying to find out how you feel. There
are no right or wrong answers here, which is really the
most important thing, is that you tell us as honestly as
you can. And sometimes it’s hard to know yourself how
you feel about something.
And of course, we appreciate that you understand the
legal concepts, but before you ever got your jury summons, did you have an opinion about whether Mr. Tsarnaev was guilty?
THE JUROR:

From what I saw on TV?

MS. CONRAD:

Yes.

THE JUROR: I guess, yes, I suppose that we knew
that he was involved.
MS. CONRAD:

And what was that based on?

THE JUROR:
From the media.
And like I
started off, it’s just—you know, I don’t always believe
everything that I, you know, hear or see from the media,
but it was from what the media coverage was telling us.
MS. CONRAD: And is there anything about that
media coverage that stands out in your mind?
MR. WEINREB:
THE COURT:

Objection.

Yeah, I think so.

373
MS. CONRAD: Again, focusing on your state of
mind, if [11-100] you will, before you got your jury summons did you have an opinion about whether or not Mr.
Tsarnaev should receive the death penalty?
MR. WEINREB:
swered.

That was just asked and an-

MS. CONRAD: No, I asked about guilt; now I’m
asking about the penalty.
THE COURT:

This is about the death penalty.

MR. WEINREB:
THE COURT:
THE JUROR:
tion?

I withdraw that.

The C and D part is the question.
I’m sorry.

So what was your ques-

MS. CONRAD: So my question is just before you
got the jury summons did you have an opinion one way
or the other about whether Mr. Tsarnaev should receive
the death penalty?
THE JUROR:
about it.

Honestly, I don’t think I thought

MS. CONRAD: And did you think about it after you
received the summons?
THE JUROR: Yeah, I think so. I think that’s because it was out there for—you know, everybody obviously knew what this trial was going to be about.
MS. CONRAD: And when you thought about it at
that point, did you form an opinion or did you have an
opinion? And I’m not, again, asking whether you could
put that opinion aside; I’m just asking whether you had
an opinion.

374
THE JUROR:

An opinion of?

[11-101]
MS. CONRAD:
death penalty.
THE JUROR:

Whether he should receive the
No, I did not.

MS. CONRAD: You said in answer to Question 76,
which is also on page 20, that you read news articles regarding the venue appeal?
THE JUROR:
MS. CONRAD:
what you read?
MR. MELLIN:
THE COURT:
that.

Uh-huh.
And can you tell us a little bit about
Objection.
No, go ahead.

You can answer

THE JUROR: So I’m sorry.
glasses. So the question is?

I don’t have my

MS. CONRAD:
THE JUROR:
side.

Do you want to borrow mine?
They made me leave me stuff out-

So you want to know what I read specifically?
MS. CONRAD:

Yes.

THE JUROR: Just that his lawyers were trying to
change the venue because, obviously, you know, you
were concerned about people on the North Shore and,
you know, just us being probably more prejudice to the
situation.
MS. CONRAD: Why do you mention the North
Shore in particular?

375
THE JUROR:
the article.

That’s where I live.

It wasn’t in

[11-102]
MS. CONRAD:
summons?

And you read this after you got the

THE JUROR: Oh, gee. I don’t—after I got the
summons? Honestly, I probably wasn’t conscious of
the fact that that was even about this. I think as of January 5th I didn’t even put two and two together, so I
think I did. I think when I would just open, you know,
my computer, it was there.
MS. CONRAD:
THE JUROR:
article? No.

Sure.
To be honest, did I read the whole

MS. CONRAD: So you didn’t realize—am I understanding you correctly that you didn’t realize that your
jury summons was for this case until you came in on January 5th?
THE JUROR:

Absolutely.

Right.

MS. CONRAD:

And so how did you feel about that?

MR. MELLIN:

Objection.

THE COURT:
questionnaire.

Sustained.

MS. CONRAD:
then, your Honor.

Yes.

We asked it in the

But your—let me go back,

So your answer to Question 74 was not your reaction
to being a juror in this case but just getting a jury summons in general.

376
[11-103]
THE JUROR: 74? “What did you think of
Yeah. That’s . . .

. . . “

MS. CONRAD: So my question is: When you realized it was for this case, how did you feel?
THE JUROR:
MS. CONRAD:

On January 5th?
Yes.

THE JUROR: Probably a little stupid that I didn’t
realize it was that case because I think everybody else
did.
MS. CONRAD:
THE JUROR:

Not necessarily.
Okay.

MS. CONRAD: But how did you feel about the possibility of being a juror in this case? I guess is what
I’m asking.
THE JUROR: It probably gave me pause. I
mean, I don’t know if it—you know, what the emotions
that I had. I was just like, wow.
MS. CONRAD:
more thought?

And since then have you given that

THE JUROR: Honestly? Yeah. I’m supposed
to go to Aruba in a couple of months. I was thinking,
wow, you know, this is going to be a long—the judge said
that you could be here for a long time, so I thought, wow,
it’s a big commitment.
MS. CONRAD:
that?
THE JUROR:

Do you already have tickets for
I do.

377
MS. CONRAD:

You do?

[11-104]
THE JUROR:
MS. CONRAD:
THE JUROR:
band, so . . .

Yeah.
And they’re already paid for?
No, it’s a company—for my hus-

But that’s probably the most thought I gave it.
MS. CONRAD:
Your answer to Question 74,
“Grateful to have a legal system in place”?
THE JUROR:
MS. CONRAD:
about?

Yes.
Can you tell me a little bit more

MR. MELLIN: Your Honor, objection.
ready gone over this.
THE COURT:
tually.
MS. CONRAD:
Honor?

We’ve al-

Yes, I think that’s plain enough, acMay I just have a moment, your

(Pause.)
MS. CONRAD: On Question 89—and I’m sorry if you
already answered this, I had a little trouble hearing—
but it looks like you crossed out 6 and changed it to 5?
THE JUROR:
MS. CONRAD:
THE JUROR:
MS. CONRAD:

Okay.

I’m sorry.

It’s on page 23.
Page 23?
Yes.

I’m sorry.

Page 23?

378
THE JUROR:

Okay.

MR. WEINREB: Your Honor, if that’s a question,
I object. That was asked and answered at length.
[11-105]
MS. CONRAD:
answer if it was.

I’m sorry.

MR. WEINREB:

I just didn’t hear the

Well, it will be in the transcript.

THE COURT: I think it shows that there was a—
the juror originally put 6 and changed it to 5. I’m not
sure how much of a gradient change that is. They’re
both right in the middle.
MS. CONRAD:
answers.

Well, one’s—they’re two different

THE COURT: Anyway, I think we can leave it asis at this particular point.
MS. CONRAD: When you read about the venue,
did you have any opinion about it?
MR. MELLIN:
THE COURT:

Objection.
Sustained.

MS. CONRAD: In working with law enforcement
and your experience with law enforcement, would anything about that experience affect how you would view
testimony by a law enforcement officer?
THE JUROR:

No.

MS. CONRAD: Would you tend to give more—
more readily believe a law enforcement witness than a
non-law enforcement witness?
MR. MELLIN:

Objection.

Asked and answered.

379
THE COURT: Yeah. You know, I don’t think we
have to [11-106] follow up on questions that were unambiguously answered in the questionnaire.
MS. CONRAD: Well, your Honor, respectfully, Mr.
Mellin asked a number questions about work with law
enforcement. I’m following up on those.
THE COURT: Well, that was about experience.
But the question about crediting or discrediting law enforcement testimony because of its source was plainly in
the questionnaire. We have an answer to that.
MS. CONRAD:

Thank you very much.

THE JUROR:

Okay.

THE COURT:

Okay.

THE JUROR:

Thank you.

Thank you.

(The juror is excused.)
*

*

*

*

*

380
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Feb. 4, 2015
10:11 a.m.
JURY TRIAL—DAY THIRTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

381
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD and WILLIAM W. FICK, Federal
Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
* * * * *

[13-112]
* * * * *
THE CLERK: Juror No. 286.
please, if you would. Have a seat.
THE COURT:

Good afternoon.

THE JUROR:

Good afternoon.

Ma’am, over here,

382
THE COURT: Since you were here to fill out the
questionnaire, have you been able to follow my instructions to avoid discussing the substance of the case?
THE JUROR:

I have.

[13-113]
THE COURT: And as much as possible, to avoid
any media accounts?
THE JUROR:
THE COURT:
work.

Yes.
Thank you.

Tell us about your

THE JUROR:
rant.

I’m a general manager of a restau-

THE COURT:
couple of years?

And you’ve been doing that for a

THE JUROR: No. I’ve been doing it for about a
year and a half. I’ve been with the same restaurant for
about 24 years.
THE COURT:
general manager?
THE JUROR:
THE COURT:
you supervise?
THE JUROR:

So you were recently promoted to
Correct.
How big—how many staff people do
About 50.

THE COURT: We asked a little bit about social
media you use. You use what? Facebook?
THE JUROR:

Facebook, Twitter, Instagram.

THE COURT:

Mostly for family or social?

383
THE JUROR: Yeah, just social. Facebook, I keep
up with friends and relatives. Twitter, I watch TV and
kind of tweet while I’m watching TV with other people
that are watching the same programs that I’m watching.
THE COURT:

Does that include news programs?

[13-114]
THE JUROR:

No.

THE COURT: You have prior jury experience in
the Suffolk Superior Court?
THE JUROR:

I do.

THE COURT: That was a civil commitment?
that what it was? What was it?
THE JUROR:

It was a—

THE COURT:

A patient?

Was

THE JUROR: Right. He was kind of—I guess
they had stated that he wasn’t going to be allowed back
out into the public, and he was kind of appealing, I guess,
that decision.
THE COURT:

When was that?

THE JUROR:

Probably about four years ago.

THE COURT:

What was the decision?

THE JUROR:
State Hospital.

He was sent back to Bridgewater

THE COURT: So if you’d turn to Page 20, I want
to direct your attention to Question 77. In that question we asked whether, based on what you’d seen or read
in the media or heard from any other source, had you
formed an opinion the defendant was guilty or not guilty

384
or should receive the death penalty or should not receive
the death penalty. To each of those you answered, no,
you hadn’t formed an opinion.
THE JUROR:

Correct.

THE COURT:

Is that accurate?

[13-115]
THE JUROR:
THE COURT:
about the case?
THE JUROR:
THE COURT:
any—

Yes.
You probably have seen things
Absolutely.
But that hasn’t led you to form

THE JUROR: I’ll tell you, I watch the news. I’ve
seen reports of the—everything on the news. When I
read those questions, I was kind of—you know, you’re
putting it on me, and I don’t feel I knew enough of the
facts to base a decision. I assume while I’m watching
the news that I’m—the police or whatever have done—
they got who they were looking for. I kind of left it at
that. When it was being pinpointed at me, I wasn’t
comfortable with the information I knew to make an accurate decision.
THE COURT: You know that in a criminal prosecution anybody who is accused of a crime is presumed to
be innocent, not guilty, unless the government proves
otherwise, proves the person guilty by evidence at the
trial.
THE JUROR:

I understand.

385
THE COURT: The evidence has to be convincing to
the degree of—the jurors would be convinced of his guilt
beyond a reasonable doubt. Corollary of that is, if the
jurors are not so convinced, it’s their obligation to find
the government has failed its burden of proof and to find
the defendant not guilty.
[13-116]
THE JUROR:

Correct.

THE COURT: Would you be able to faithfully apply those principles if you were a juror in this case?
THE JUROR:

I would.

THE COURT:

With respect to guilt or innocence?

THE JUROR:

Absolutely.

THE COURT: You say you went to the Boston
Strong concert at the Garden and bought a T-shirt
there?
THE JUROR: Yeah. Actually, I was—I realized
afterwards that I bought the T-shirt actually for the concert. I thought, when I was filling out the questionnaire, that I had bought it at the concert. But I bought
it to attend the concert.
THE COURT:

Do you still use it?

THE JUROR: No. I’m not really a T-shirt—I’ll
tell you the last time I remember wearing it was at Disney World a year and a half ago only because so many
people commented on it when we were there, but I’m not
really a T-shirt, jeans-type person.
THE COURT: We asked a series of questions
about attitudes towards the death penalty in general

386
and perhaps more particularly. If you’d turn to Page
23, with Question 88, we started by asking you if you had
any views about the death penalty in general, what are
they, and you said you don’t really have any.
[13-117]
THE JUROR:

I don’t.

THE COURT:
Is it something you’ve thought
about over the years or not thought about it over the
years?
THE JUROR:
I never really thought it.
It
doesn’t really apply to me or my life. That maybe
sounds selfish, but I just—if it doesn’t apply to me, I
don’t really give it much thought.
THE COURT: Okay. In the next question, we
asked you to indicate where you thought you might fall
on a numerical scale from 1 to 10, from strongly opposed
to strongly favor. You’re sort of in the middle.
THE JUROR:

I’m in the middle, yeah.

THE COURT: And then Question 90 on the next
page, there’s a series of propositions that go from
opposition—strong opposition to strongly in favor.
And we asked you to pick the statement that might best
capture your own point of view on this. And you’ve selected (d), which is, “I’m not for or against the death
penalty. I could vote to impose it, or I could vote to impose a sentence of life imprisonment, whichever I believed was called for by the facts and the law in the case.”
That’s what you selected then. Does that—today, that
does seem to still be the way you would be on the scale
of things?
THE JUROR:

Yes.

387
THE COURT: You heard me this morning talk
about how [13-118] there would be a penalty phase and
there would be presentations probably about aggravating factors and mitigating factors. Would you be able
to listen to all that evidence and in the end decide which,
assuming—of course, you don’t get to the penalty phase
until you found the defendant guilty of intentional murder. That’s the premise. Would you be able in the penalty phase then to consider all the aggravating, mitigating circumstances, anything else that seemed important
to you and be able to choose in either direction depending on how you weighed the evidence?
THE JUROR:

I could.

THE COURT: The bottom of 25, Question 95, and
then 96 on the top of the next page, we asked first—now,
these are not about general views about the death penalty but kind of bring you to this case. If you found this
defendant guilty and you decided that the death penalty
was an appropriate punishment, could you conscientiously vote for the death penalty?
THE JUROR:

Yes.

THE COURT:

You said “yes.”

THE JUROR:

Uh-huh.

THE COURT: The other side of that is the next
question. If you found him guilty and decided on the
other hand that life imprisonment without possibility of
release was the appropriate punishment, could you conscientiously vote to [13-119] impose that—
THE JUROR:

Yes.

THE COURT:

—punishment?

388
Okay. Anything?

Mr. Mellin.

MR. MELLIN:
Good afternoon, ma’am.
I’m
Steve Mellin. I’m one of the prosecutors on the case.
I want to go right where Judge O’Toole was asking questions about the death penalty. If we can just kind of
see if we can dig down a little bit on that. You say you
were kind of not for it, not against it. But where—
when you think about it, I mean, what impressions do
you have of the death penalty?
THE JUROR: I don’t really have any. I mean, I
could—it doesn’t bother me. I don’t feel like—I guess I
don’t feel like I’m the one that’s sentencing somebody to
death or prison for the rest of their life. It’s their own
actions that are determining that factor. If I’m following the law or whatever—it’s kind of the same thing with
my job. I fire people, and they’re, like, How can you do
that to somebody? I’m, like, I didn’t do that. They
did that. They consciously made the effort to not come
to work or to steal or be late or whatever. I feel the
same way with being a juror, being told to follow the law
and what I’ve heard, and I’ll decide that by what I’ve
heard in the courtroom.
MR. MELLIN: You’ve heard a little bit about how
this process works. But if the jury does find the defendant guilty [13-120] of one of these capital offenses,
the jury would go on to decide whether it will be life imprisonment or death penalty; do you understand that?
THE JUROR:

I do.

MR. MELLIN: So it really is going to be up to the
jurors to make the call between does the evidence support the death penalty or does it support life imprisonment. And it’s going to be a call that you will have to

389
make. And if you believe that the aggravating factors
sufficiently outweigh the mitigating factors to justify a
sentence of death, would you actually be able to vote to
sentence someone to death?
THE JUROR:
MR. MELLIN:
THE JUROR:

I could.
Thank you.
You’re welcome.

MS. CLARKE: Hi. My name is Judy Clarke.
I’m one of Mr. Tsarnaev’s lawyers.
THE JUROR:
MS. CLARKE:
THE JUROR:
MS. CLARKE:
THE JUROR:

Good afternoon.
You’re a supervisor?
I’m a general manager, supervisor.
A big supervisor—
Yes.

MS. CLARKE: —of a good number of people, it
sounded like. A jury, everybody is sort of equal.
Have you thought about how that might work for you?
THE JUROR: No. I mean, I kind of almost prefer it. [13-121] I don’t like being the center of attention. I kind of actually like being—it would be more
comfortable for me actually.
MS. CLARKE: Can you help us understand that a
little bit more? More comfortable—
THE JUROR: I took the position. It was offered
to me. I actually said no six times to my boss. I didn’t
want the position. I didn’t want the responsibility. I
was kind of guilted, I guess, into it, but they didn’t have
anybody else that they felt comfortable doing it. I’ve
had a problem with that decision since the day that I’ve

390
taken the job. I’ve played the lottery more in the last
year and a half then—hoping for that retirement. It’s
not a comfortable position for me. It’s—so being level
with everybody and equal with everybody is a lot more
comfortable for me personally.
MS. CLARKE:
around?
THE JUROR:
somebody.

Not having anybody to boss
Right, or being responsible for

MS. CLARKE: Well, it’s huge responsibility being
on a jury deciding whether somebody is going to live or
die based on their actions or not. How do you think you
would cope with that responsibility?
MR. WEINREB:

Objection.

THE COURT: No. I think you can answer that.
Go ahead if you’re able to.
THE JUROR: Yeah. I don’t feel like I would have
an issue with it. I’ve done—it hasn’t been a death penalty [13-122] case before, but I’ve been on a case before
and I’ve had no problem.
MS. CLARKE: With your prior jury service?
said that was a positive experience, I think.

You

THE JUROR: Yeah. Actually, it’s, like, when you
were giving our instructions on day one, you have this
sense of pride coming out of there, whatever, that you’ve
done something very important. Somebody like myself, I haven’t really gone to college. I was a waitress
for years. I feel the same way when I come out of the
voting booth every time I vote. It’s something very important that I’ve done. It’s probably one of the most
important things that I will do in my life.

391
MS. CLARKE: Okay. At the restaurant, did your
employees or coworkers, colleagues, talk about the Boston Marathon bombing when it happened?
THE JUROR: No. I work 20 miles out of the city.
We were actually really busy. I was a waitress at the
time. I was kind of like joking with my boss I wanted
to go home. Boston was—I live in Boston, and Boston
was on lockdown. I’m, like, I have to go home. We’re
on lockdown. We were really busy. All the restaurants around rely on people coming from public transportation. It was shut down. We were already there
and open. It’s a breakfast restaurant so all—we open
at 7 a.m. We were all there at 6:00 in the morning.
Yeah, we were busy. We were working.
[13-123]
MS. CLARKE:
THE JUROR:

But you knew about it?
Yeah, yeah.

MS. CLARKE: Over the course of time, have people there talked with you about it?
THE JUROR:
MS. CLARKE:
THE JUROR:

No, not really.
All right.
No.

MS. CLARKE: Family or friends talk with you
about the Marathon bombing?
THE JUROR:
MS. CLARKE:

No.
Or any of the events of that week?

THE JUROR: No. I remember talking to my kids
about it explaining situations with them. There was
something else going on at UMass Boston when the

392
bombing was all going on. I was a lot more concerned
about what was going on there. I guess it ended up being like a—I can’t think of the word but an explosion of
an AC unit or something.
MS. CLARKE:

Oh.

THE JUROR: I have a brother that works over
there, so I was more concerned about what was going on
over there than what was actually going on in Downtown
Boston.
MS. CLARKE: All right. You’ve just not had any
conversations really about this case? I mean, before
the judge instructed you.
THE JUROR: Before, yeah. I mean, maybe in general or [13-124] something but not really. It didn’t
really—I don’t attend the Marathon. I don’t go into
Downtown Boston. I didn’t know anybody that was affected from it. Maybe just in general. You know, I
mean, just in general. Hey, did you hear what happened at the Marathon?, something like that.
MS. CLARKE: I think you said in the questionnaire that you’d read a moderate amount of the press
coverage. That’s Question 73 if you wanted to take a
look. Can you tell us what stands out in your mind that
you read about it?
MR. WEINREB:
THE COURT:

Your Honor, I object.

Yeah.

MR. WEINREB:
ground.

I think so.
We’ve already plowed this

THE COURT: She’s already indicated what her attention was to it. I think that’s enough.

393
MS. CLARKE: You mentioned you went to Disney
World, I guess the Florida—
THE JUROR:

Right.

MS. CLARKE: —version of it. And people commented on your Boston Strong shirt. What were those
conversations like?
MR. WEINREB:
THE COURT:
may have said.

Objection.
You can summarize what people

THE JUROR: It was more or less, like, Oh, cool.
Cool shirt. They would point or whatever. It was—
my boyfriend [13-125] and I attended the concert together. It only stood out in my mind because I had
worn it that day, and then the very next day, he wore
his. I said, Oh, you just got jealous about all the attention I got yesterday from my shirt. But there were
people, like, Cool shirt, high five. They’d walk by and
be like, Hey.
MS. CLARKE:
tion, I take it?
THE JUROR:
MS. CLARKE:
THE JUROR:

He did get the appropriate attenHe did.
And was one up on you, I take it?
Right.

MS. CLARKE: Let me go back to your job very
quickly. You’re a general manager. If you’re in trial
here for three or four months, do you get paid okay?
THE JUROR: You know, it’s not something I discussed with my boss. She’s not on-site. I’m the only
one on-site. She knows about my service here. I just

394
kind of, I guess, taken it into my own that we’re here
Monday through Thursday. I could really work Friday, Saturday, Sunday. And we’re not here on holidays. Most of my job is, when everybody else isn’t at
work, that’s when I work. I work weekends. I work
holidays so—and they’ll have to cover, you know, or not
cover, whatever.
MS. CLARKE: So you’re not evaluating this as a
hardship for you if you were to actually serve?
[13-126]
THE JUROR: No. I could probably squeeze in
most of my hours with the schedule of the court.
MS. CLARKE:

All right.

Just one second, Judge.

Thank you very much.
THE JUROR:
THE COURT:
that there.

You’re welcome.
That’s it.
*

*

*

Thank you.
*

*

Just leave

395
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Feb. 6, 2015
10:19 a.m.
JURY TRIAL—DAY FIFTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

396
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[15-67]
CLERK MAYNARD:

Juror 349.

THE CLERK: Ma’am, over here, please, if you
would. Have a seat right here. Thanks. Speak into
the mic so everybody around here can hear you.

397
THE JUROR: Okay. Can I get my glasses?
didn’t realize I had to read.
THE COURT:

Of course.

THE JUROR:

Sorry.

THE COURT:

Good morning.

THE JUROR:

Good morning.

I

THE COURT: Since you were here to fill out the
questionnaire, have you been able to follow the instructions to avoid discussing the case with anyone?
THE JUROR:
THE COURT:
any media?
THE JUROR:

Yeah.
And as much as possible to avoid
That’s a little harder.

THE COURT: But when you’ve seen it, you’ve been
able to put it aside?
THE JUROR:

Yeah.

THE COURT: So we put the questionnaire there
because we’re going to follow up on some of the answers
you’ve given us.
THE JUROR:

Okay.

[15-68]
THE COURT:

Feel free to take the clip off.

Tell us what you do.
THE JUROR:
clothing.

Product development for women’s

THE COURT:
volve?

What does product development in-

398
THE JUROR: Design of the garments, coloring the
garments, putting it in to work with the factories, approving samples, fitting samples.
THE COURT:
while?
THE JUROR:

Something you’ve been doing for a
Yes.

THE COURT: I take it in your current position
you’ve been there only since mid December?
THE JUROR: Yeah, it’s a new company, start-up
company, so I’ve just started.
THE COURT: I think you were, if I looked—later
on you were wondering how the new job might—people
at the new job might react—
THE JUROR:

Right.

THE COURT: —if you were called. And this is on
Page 19, Question 74 if you want to look at. And you
said they were okay.
THE JUROR: Yeah. I got the—I think I might
have gotten the notification before I had started the job,
so I didn’t know, you know. And since it’s a start-up,
it’s a start-up company as well, I was a little bit nervous.
But they are very—you know, whatever happens, happens. They’re okay [15-69] with it.
THE COURT:
ship to you.

It’s not going to be a financial hard-

THE JUROR: No, they’ll pay me. I might have
anxiety in terms of my job, but, you know what I mean,
because it’s new, but, yes, they’re fine with it.

399
THE COURT: Okay. With respect to social media, do you use it both personally and in connection with
the job?
THE JUROR:
use it personally.

I don’t use social media for work.

THE COURT:

Family and friends kind of thing?

THE JUROR:

Yup. Yup.

I

THE COURT: So nothing in the fashion design
area, you don’t use it for that?
THE JUROR: No. I mean, I research, you know,
like what other companies are offering, things like that,
online.
Do you mean that?
THE COURT:
sites.
THE JUROR:
THE COURT:
might be posting.
THE JUROR:

You mean by going to their webYeah, I go to people’s websites.
I’m more interested in things you
Oh. No. No.

THE COURT: So let me ask you to go to Page 20
and Question 77 near the top of the page, a multipart
question. We asked whether based on things you had
seen or read in the media [15-70] or otherwise, had you
formed an opinion about various matters, and you indicated yes, you had formed an opinion that the defendant
was guilty. And as to the other matters, you checked
you were unsure.
THE JUROR:

Uh-huh.

400
THE COURT: Then below that we asked, if you answered yes to any of the questions, as you did, would you
able or unable to set aside your opinion and base your
decision about guilt in this case solely on the evidence
that will be presented to you in court, and you selected
the box that said you would be able. Can you tell us
about that?
THE JUROR: Yeah, I think when I first checked
the guilty, you know, if I felt that he was guilty box, I
realized after, I don’t know what all the charges are, so
I can’t know that he’s guilty, because I don’t know what
the charges are or what the evidence is and all of that.
But I think that there’s involvement. There was so
much media coverage, even just the shootout in Watertown. I watched it on TV. And so I feel like there’s involvement there, like I think it’s—anybody would think
that.
THE COURT:
Yeah, it’s understandable that,
given the coverage, that people have—
THE JUROR:

Right.

THE COURT: —formed impressions and perhaps
even conclusions. The question of course is in the formal process [15-71] of a criminal trial, we ask jurors to
put their minds in a condition that they will focus on the
evidence produced in the trial and make their decisions
that they have to make based on that evidence and not
on things they know independently or from—
THE JUROR:

Right.

THE COURT: —some other source. And the
question is would you be able to faithfully do that.
THE JUROR:

Yes, I would.

401
Can I ask you a question about the media thing? Is
the live feed that’s going on now, the media’s in the other
room?
THE COURT: Yes. There’s actually two members of the media here. And if we do a private, I told
you you could have a private answer, they’ll leave the
room too.
THE JUROR:
uation?

So for the trial, is that the same sit-

THE COURT:

No.

THE JUROR:

Would media be allowed?

THE COURT: Yes. The media and the public will
be in the courtroom during that. Okay?
THE JUROR:

Uh-huh.

THE COURT: We’ve asked people about how they
might have been affected by events or how they may
have reacted to them. In Question 82 we asked about
whether you supported [15-72] various activities after
the event.
THE JUROR:
THE COURT:
Life is Good.
THE JUROR:

Right.
You said you bought a T shirt from
Uh-huh.

THE COURT:
Boston Strong?

Is that the same or different from

THE JUROR:
company.

Life is Good is a clothing T shirt

THE COURT:

Right.

402
THE JUROR: They made a T shirt. I think it says
“All You Need is Love” on the back, maybe. It just said
Boston on the front, not Boston Strong. Then I think
some of the proceeds went to the One Fund.
THE COURT:

Okay.

THE JUROR:

Yeah.

THE COURT:

Do you wear it?

THE JUROR:
thon last year.

Do you still have the shirt?

Not really.

I wore it to the mara-

THE COURT:

Uh-huh.

THE JUROR:

But not really.

THE COURT:
year?

You were there as a spectator last

THE JUROR:

Last year, I was.

THE COURT:

That is 2014.

THE JUROR: Yeah, the most recent.
there [15-73] the year—

I was not

THE COURT:
monly?

Have you gone, typically or com-

THE JUROR:
running.

No.

THE COURT:
THE JUROR:
years.

I went because a friend was

In 2014?
Yeah.

I was not there the prior

THE COURT: Beginning on Page 23 at Question
88, we asked a series of questions about your attitudes
towards the death penalty.

403
THE JUROR:
THE COURT:
what are they.
THE JUROR:

Uh-huh.
88 was if you had general views,
Uh-huh.

THE COURT: And you said you weren’t sure, as I
interpret it, you weren’t sure of the law concerning the
death penalty and would have to know that before you
could—
THE JUROR:

Right.

THE COURT:

—decide what your view was.

Is the subject something you’ve thought about, the
appropriateness of the death penalty in general as a policy matter? Is that something you’ve thought about?
THE JUROR: I’m not opposed to the death penalty
in general. I’m not—I feel like I’m not for or against
it. I would have to hear the evidence.
THE COURT: In Question 89, we asked for you to
put yourself on a numerical scale from strongly opposed
to strongly [15-74] in favor and you put yourself sort of
in the middle.
THE JUROR:

Yeah.

THE COURT: Then in the next page, Question 90,
instead of numbers we asked you to look at statements.
THE JUROR:

Right.

THE COURT: And see if there was one that represented your feelings about the death penalty in the case
of someone proven guilty of murder.
THE JUROR:

Uh-huh.

404
THE COURT: You selected D, which is I’m not for
or against the death penalty, I could vote to impose it or
I could vote to impose a sentence of life imprisonment
without the possibility of release, whichever I believe
was called for by the facts and the law in the case.
THE JUROR:

Right.

THE COURT:

Is that a fair representation—

THE JUROR:

Yeah, I think that’s fair.

THE COURT:

—of your attitude?

THE JUROR:

Uh-huh.

THE COURT:

You have to say yes or no.

THE JUROR:

Oh. Yes.

THE COURT:

The reporter is taking down the—

THE JUROR:

Head nod, yes.

THE COURT:

But that fairly states your—

THE JUROR:

Yeah, yeah, uh-huh.

[15-75]
THE COURT: If you go to Page 25, the bottom,
Question 95. Now, particular to this case, if you found
this defendant guilty and you decided the death penalty
was the appropriate punishment for him, could you conscientiously vote for the death penalty, and you said yes.
THE JUROR:

That’s true, yes.

THE COURT: Then on the next, top of the next
page we asked the other side of that question. If you
found this defendant guilty and you decided life imprisonment without the possibility of release was the appropriate punishment for him, could you conscientiously

405
vote for life imprisonment without the possibility of release, and again you checked yes.
THE JUROR:
THE COURT:
tions.

Yes.
So it’s yes to both of those ques-

THE JUROR:

Uh-huh. Yes.

THE COURT:

You’re catching on.

MR. CHAKRAVARTY: Just very briefly. Good
afternoon, just barely. My name is Aloke Chakravarty. I’m one of the prosecutors. You had expressed
a concern or the question about the media arrangement.
THE JUROR:

Right.

MR. CHAKRAVARTY:
cern you have?

Is there some special con-

THE JUROR: I think there’s a lot, there were
questions and there’s a lot of conversation, and if you
were a [15-76] potential juror, you’d need to be avoiding
the media, and it’s so front and center, it’s difficult.
And, you know, just even driving in the car, the news
comes on, and, you know, I’ve heard, you know, you try
to switch it, but you hear things. So I just wondered,
and I just would wonder that the jurors would remain
anonymous, you know, if you were put on the jury, that
it would stay anonymous and that it wouldn’t be, you
know, in the media who you were.
THE COURT: Yes. You will remain unidentified
except by number until the case is over. You will probably be identified after the case is over.
THE JUROR:
guess.

Okay.

That was my question, I

406
MR. CHAKRAVARTY: Your attendance at the
marathon this past year, is that going to affect your ability to be fair and impartial in this case?
THE JUROR:

No, no.

MR. CHAKRAVARTY: I just wanted to touch on
the last series of questions that the judge had posed to
you about the death penalty.
THE JUROR:

Uh-huh.

MR. CHAKRAVARTY: If, after you’ve, you and
the rest of the jury have decided guilty and you listen to
all of the evidence in the penalty phase, both the aggravating and mitigating and you personally have come to
the decision that the death penalty is appropriate, what
gives you the confidence [15-77] that you can say, “Yes,
here’s my vote, I vote to put this person to death”?
THE JUROR: Well, I think by all the evidence and
by the instruction from the judge, whatever the law is, I
would go with that. And, you know, I think I’m a pretty
fair and equitable person, intelligent, and I would think
it through.
MR. CHAKRAVARTY:

That’s all I have.

MR. BRUCK:

Good afternoon.

THE JUROR:

Hi.

MR. BRUCK: My name is David Bruck and I’m one
of Jahar Tsarnaev’s lawyers, and I have a few more
questions. The good news is I think I’m the last person
who will ask you any.
THE JUROR:

Okay.

407
MR. BRUCK: The judge has told you that when the
trial is over, the juror’s names, you have to assume, would
become public.
THE JUROR:

Uh-huh.

MR. BRUCK: Let me back up a little. He asked
you about being able to consider the evidence in court,
and if the government proved their case, only consider
the evidence that was presented in the court to find the
defendant guilty.
THE JUROR:

Uh-huh.

MR. BRUCK: I’m going to ask it the other way.
If you’re on the jury, knowing everything or having seen
everything you’ve seen and heard everything you’ve
heard and [15-78] formed the opinion that you formed,
and you’re in the jury box and the government puts on
their evidence but it leaves a reasonable doubt in your
mind, probably guilty, maybe, but not beyond a reasonable doubt. And this sound like an easy question, but
it’s intended to be a hard question.
THE JUROR:

Okay.

MR. BRUCK: Could you find this defendant not
guilty and let him go home?
THE JUROR: I would listen to all the evidence,
and what the law is. So if that was the case, yeah.
MR. BRUCK: Based on what the judge told you,
that the burden of proof is on the government, it’s never
on the defendant.
THE JUROR:
MR. BRUCK:
than done.

Uh-huh.
But that’s sometimes easier said

408
THE JUROR:

Right.

MR. BRUCK: Based on everything you know, do
you think in the back of your mind you’d be expecting
the defendant to prove he was innocent?
THE JUROR: So your question is would the defendant be expected to prove his innocence versus—
MR. BRUCK:

To you.

THE JUROR:

To me?

MR. BRUCK: Would you need, in this case, given
[15-79] everything you’ve heard and the opinion you
formed—the judge has told you what the rules are, but
the point of this part of the trial is to find out what’s inside you. And the law doesn’t ask people to do things
that are superhuman or more than a person can do.
THE JUROR:

Right.

MR. BRUCK: So that’s what I’m getting at. Do
you think that what you have heard and the opinions
you’ve formed might cause you to feel that the defendant
would have to prove that he didn’t do it in order for you
to—
MR. CHAKRAVARTY:
MR. BRUCK:

Objection, your Honor.

—find him not guilty?

THE COURT:
able to.

Go ahead and answer it, if you’re

THE JUROR:
question.

I guess I’m kind of not clear on the

THE COURT:

Maybe you don’t understand it.

MR. BRUCK:

I can try to make it a little simpler.

409
THE COURT:

Make it a little shorter will help.

MR. BRUCK: Shorter would be good.
It’s my fault, the way I asked the question.

Sorry.

I guess what it comes down to is knowing what you
know and having formed the opinion that you formed, do
you think you might need the defendant to bear a burden of proof and show that he was innocent before you
could actually render a verdict of not guilty in the case?
[15-80]
THE JUROR: I think I would take whatever opinion I have and prior, and if I was on it and set it aside
and listen to the evidence, and listen to the trial. And
I don’t think whatever feeling I could have now would be
that—would affect it.
MR. BRUCK: Okay. And knowing that the jurors
wouldn’t be anonymous forever, what would you feel like
if the jury, all 12 members of the jury did find the defendant not guilty and you went back to your life out in
the community?
MR. CHAKRAVARTY:
MR. BRUCK:

Objection, your Honor.

Could you do that?

THE COURT: Well, let me ask the question a
slightly different way. When people learn that you
have been on the case, if you and the other jurors had
acquitted the defendant of some or all of the charges,
would you be concerned about criticism from people
about your decision?
THE JUROR:

I hadn’t thought about it that way.

410
THE COURT: And the second half of the question,
really, is if you were worried about that, how, if at all,
would that affect your service as a juror?
THE JUROR: Right, right. I think I would be
okay with it, with whatever the decision that we made, if
I was on the jury, I would stand by it and—I guess I just
kind of worry during the trial, you know, I don’t know if
we’re, if you were on it, you were going back and forth
from home and being, [15-81] you know, I don’t know,
media following you—
THE COURT:

No.

THE JUROR: —or something. That’s why I
asked the question. I think once it was over, I would,
if I was on it, I hope I would just go back to my life.
THE COURT:

Okay.

MR. BRUCK: You put in your questionnaire, if you
turn to Page 20 and look at 76, Question 76.
THE JUROR:

Okay.

MR. BRUCK: Can you tell me what, if anything,
you remember about the New York Times article that
you checked out describing the start of the trial.
THE JUROR: There was some information about
the—I don’t mean to point, but I don’t know your name.
MS. CLARKE:

Me?

THE JUROR:

Okay.

MS. CLARKE:

I’ll remain anonymous.

Judy Clarke.

THE JUROR: Yeah. There was some information about her and some prior trials.

411
MR. BRUCK: Do you remember, can you tell us
what that information was?
THE JUROR:
maybe.

I think it was the Unabomber trial,

MR. BRUCK: Anything else that you can recall, if
you think hard about it?
THE JUROR:

Unh-unh, not really.

[15-82]
MR. BRUCK: And what was the connection—you
said it was about Ms. Clarke and about the Unabomber.
Do you remember what it said?
THE JUROR:
the Unabomber.

I think she was a defense lawyer for

MR. BRUCK:
bomber.

A defense lawyer for the Una-

THE JUROR:
MR. BRUCK:
that?
THE JUROR:
MS. CLARKE:
THE JUROR:
MS. CLARKE:

Yes.
I mean, what was your reaction to
I don’t think I really had one.
It’s okay.
What?
It’s okay.

THE JUROR: I don’t know that I had a reaction.
I just noted that she had, I guess.
MR. BRUCK:

You noted it.

THE JUROR: That she’s been involved with some
big trials, national media-type trials.

412
MR. BRUCK: Okay. And that article was after
you came to court to fill out the questionnaire—
THE JUROR:

Uh-huh.

MR. BRUCK:

—that you saw that.

THE JUROR:
was before.
MR. BRUCK:

It was not after the questionnaire, it
It was before the questionnaire.

THE JUROR: It says last week, it was before the
[15-83] questionnaire. It was before I even came here.
MR. BRUCK:
but before that.
THE JUROR:

Okay, after receiving your summons
Yeah.

MR. BRUCK: Okay. I’ve gotcha. Excuse me.
I wanted to ask you a little bit about where you were on
April 15, 2013, if you can remember.
THE JUROR: I was in New York City at Columbia
Presbyterian hospital. My brother had brain surgery.
MR. BRUCK:

Oh my goodness, is he okay?

THE JUROR:

Yeah.

MR. BRUCK:

Good.

And how did you find out about the marathon?
THE JUROR: Later when I got home to his home,
where I was staying, it was on the news.
MR. BRUCK:
week?
THE JUROR:

And did you go back to Boston that
Maybe a couple of days later.

413
MR. BRUCK: Okay. Where—did you know anybody—now that you’ve had more chance to think about
it, anybody at all that was down there around the—
THE JUROR:

(Juror shakes head.)

MR. BRUCK: Where were you on the 18th and
19th, the day of the search and the lockdown?
THE JUROR:

In Watertown? I was at home.

MR. BRUCK:

In Scituate.

[15-84]
THE JUROR:
MR. BRUCK:
did?

Yeah.
So you didn’t shelter in place or you

THE JUROR: No. I had just stopped working,
actually. April 15 was my last day of work at a prior
job, or the first day that I wasn’t—excuse me—working.
And so, yeah, I was in Scituate, I wasn’t working. I
don’t remember if I went to the gym, whatever.
MR. BRUCK: Did the events of that day affect
your travel or where you went or what you did?
THE JUROR:

No.

MR. BRUCK: Your friend that ran the marathon in
2014, had she run the year before?
THE JUROR:

How did you know it was a she?

MR. BRUCK:

It was a lucky guess.

THE JUROR: She had not, no.
neighbor’s daughter.
MR. BRUCK: Okay.
sion with her about the—

It’s my next-door

And was there any discus-

414
MR. CHAKRAVARTY:

Objection, your Honor.

THE COURT: Yeah. And I think in the interest
of time, we should move on.
MR. BRUCK:

Okay.

THE COURT:

We have a long way to go today.

MR. BRUCK:

Sure.

I understand.

You said you were unsure about whether Mr. Tsarnaev [15-85] should receive the death penalty. Unsure
can cover a lot of territory. And I guess what I’d like
to know is within that unsure, do you lean one way or the
other right now?
THE JUROR: I don’t. I don’t really know—I
don’t know what the law, how the law reads about the
death penalty. I am not for it or against it. I would
go by what the law was.
MR. BRUCK: If I told you that the law in the end
leaves it up to the jury once certain basic facts are
proven, guilt beyond a reasonable doubt, intended to
commit the crimes that are charged in this case, that after that it’s really up to the jury, that law doesn’t tell you
what the answer is.
THE JUROR:

Okay.

MR. BRUCK: That’s what the judge meant when
he said the jury’s never required to impose the death
penalty.
THE JUROR:

Okay.

MR. BRUCK: I’ll ask the question again, knowing
that it really would be up to you, do you lean one way or
the other right now?

415
THE JUROR:

No.

MR. BRUCK:

Bear with me just a moment.

That’s all I have.
THE COURT:
get your glasses.
THE JUROR:

Thanks so much
All right.

Thank you.

Thank you.

(The juror was excused.)
*

*

*

*

*

Don’t for-

416
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Wed., Feb. 11, 2015
10:26 a.m.
JURY TRIAL—DAY SIXTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and UNITED STATES DEPARTMENT OF JUSTICE

By:

STEVEN D. MELLIN, Assistant U.S. Attorney
Capital Case Section

417
1331 F Street, N.W.
Washington, D.C. 20530
On Behalf of the Government
FEDERAL PUBLIC DEFENDER OFFICE
By:

MIRIAM CONRAD, WILLIAM W. FICK and TIMOTHY
G. WATKINS, Federal Public Defenders
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

[16-123]
THE CLERK:

Juror No. 395.

THE JURY CLERK:
THE CLERK:
seat if you would.
THE JUROR:

Juror 395.

Ma’am, over here, please.
Thank you.

Have a

418
THE COURT:

Good afternoon.

THE JUROR: Good afternoon.
[16-124]
THE COURT: Since you were last here, have you
been able to avoid talking about the substance of the
case with other people?
THE JUROR:

Pretty much, yes.

THE COURT:

Tell me how much “pretty much” is?

THE JUROR: I’ve been in situations but have gotten up and excused myself.
THE COURT: Good. And similarly with media
reports about the case, have you been able to turn away
if you’ve run across one?
THE JUROR:

Yes.

THE COURT: You’re employed as a legal executive assistant for a law firm in Boston.
THE JUROR:
THE COURT:
quite awhile.
THE JUROR:

That’s correct.
Looks like you’ve been doing it for
Yes, I have.

THE COURT: So you now support actually the
managing director. Is that what they call the partner
in charge?
THE JUROR:

Yes, yes, in the corporate division.

THE COURT:

I see.

THE JUROR:

Yes.

Managing of the corporate?

419
THE COURT: Have you been supporting people in
the corporate side mostly in your career, or have you
gone in other—
[16-125]
THE JUROR: Prior to this, I worked for 30 years
for an attorney that did, first, commercial real estate
and leasing and then went into estate planning and probate. And then the last four years has been with the
corporate department.
THE COURT:

But not litigators?

THE JUROR:

No, never a litigator.

THE COURT: We asked about social media. You
say you use Facebook intermittently to very rarely.
THE JUROR:

Correct.

THE COURT:

Give us a little bit of an idea of that.

THE JUROR: I don’t really know how to post anything. So I can read what is posted, but I’ve never posted
anything myself.
THE COURT:
Page 20.

Okay.

Let me ask you to turn to

THE JUROR:

I don’t have Page—

THE COURT:

It might be out of order.

THE JUROR:

Okay.

THE COURT:
tween 18 and 19.

Here it is.

It’s actually—in my copy, it’s be-

Question 77, there we asked whether, as a result of
what you’d seen or read in the news media or elsewhere,

420
had you formed an opinion about various matters including, (a), that the defendant was guilty or (b), he was not
and then about the penalty. And you indicated, yes,
you had formed an opinion that he was guilty.
[16-126]
We then down below, in the second part of the question, asked, If you answered yes to any of these questions, would you be able or unable to set aside your opinion and base your decision about guilt solely on the evidence that will be presented to you in court? And you
selected the box that said “able.”
THE JUROR:

Yes.

THE COURT:

Can you tell us about that?

THE JUROR: I believe that—I have formed an
opinion up until this point based on what I did read and
had seen in the media, but I realize that that’s not all the
information that would be available to me. So once
more—once I had more information, I believe that, you
know, I could change my mind based on what I had read
at the time.
THE COURT: Yeah. It’s understandable, given
the amount of coverage that there has been, that people
have formed impressions about things. What we ask
jurors to do, if they’re serving in a case, is to focus their
attention on the evidence that is actually produced in the
trial and make their decision based on that body of evidence without importing into it other ideas from other
sources.
THE JUROR:

Correct.

THE COURT: You think you would be able to observe that discipline if you were a juror in the case?

421
THE JUROR:

I do.

[16-127]
THE COURT: I’m sure you know that in our criminal process a person who’s accused of a crime is presumed innocent unless the government proves that he’s
guilty by the body of evidence at the trial and proves it
beyond a reasonable doubt. Do you think you would
have any difficulty in faithfully applying those principles
of the presumption of innocence and proof beyond a reasonable doubt?
THE JUROR:

No, I don’t.

THE COURT: Let me ask you to look at Question
78. You said you don’t talk about this with your husband because the conversations can become too heated.
Is it only he who has strong views, or do you have them,
too?
THE JUROR: Actually, it’s not—my husband and
I wouldn’t discuss this just one on one. It would be
more in a social setting.
THE COURT:

And other people would be there?

THE JUROR:

And other people, right, and—

THE COURT: I was thinking you might have
meant one on one. Then I was going to ask really
whether you thought, if your husband had strong views
and they were different than yours, whether that would
affect your service.
THE JUROR:

No, I do not.

THE COURT: Just going back to Question 77, as to
the (c) and (d) parts of the question, about the death penalty, you indicated “unsure.”

422
[16-128]
THE JUROR:
THE COURT:
about that.
THE JUROR:

Uh-huh.
You don’t have any present opinion
I do not.

THE COURT: Okay. So we asked a series of
questions about the death penalty to get jurors’ attitudes. That begins on Page 23, at Question 88. Question 88 itself asks, If you have any views on the death
penalty, in general, what are they? And you said, “I
would need to hear and know all the facts before committing either for or against the death penalty. I’ve always thought I was against it, but when you really have
to think about it, things change.” Can you amplify on
that a little bit?
THE JUROR: I think it’s easy to have what you
feel are strong opinions about something; but then once
you’re in a situation that it actually could be a possibility
and you think about it from that perspective, it kind of
opens up a whole different dialogue within yourself.
THE COURT: In the next question, we asked you
to locate where you think you would be on a spectrum
from 1 to 10, where 1 was someone who is strongly opposed and believed that the death penalty should never
be imposed; and 10 reflected somebody who’s strongly
in favor and believed it should be imposed whenever a
defendant is convicted of intentional murder. You chose
5, to indicate you were somewhere in the [16-129] middle
of all that, is that correct?
THE JUROR:

That is correct.

423
THE COURT: Turn the page to the next page, 90.
Here we asked you to select from a series of statements
which one you thought best described your feelings
about the death penalty for someone convicted of murder. You selected (d). “I’m not for or against the
death penalty. I could vote to impose it, or I could vote
for a sentence of life imprisonment without the possibility of release, whichever I believed was called for by the
facts and the law of the case.” Do you think that best
sums up your state of mind?
THE JUROR:

I do.

THE COURT: And then in the bottom of Page 25,
at Question 95, we asked—focusing perhaps on this case
a bit more particularly than those other questions did—
If you found this defendant guilty and you decided that
the death penalty was the appropriate punishment for
him, could you conscientiously vote for the death penalty? And you said, “I’m not sure.” Go to the top of
96. There we ask a similar question. If you found the
defendant guilty and you decided life imprisonment
without the possibility of release was the appropriate
punishment, could you conscientiously vote for that sentence? And you said “yes” to that. So there’s a little
bit of a difference between your answers to the two
questions.
THE JUROR: I think that—I think that, when I
was [16-130] filling these questions out and thinking
about it, I—in my mind I was thinking that, for me,
there are different degrees of guilt. And I don’t know
what—where this falls without knowing all of the information. So my thought process was just that, for me, I
believe there are different degrees of guilt.

424
THE COURT: Well, you heard this morning that I
described in brief the process after a person has been
convicted of murder. And that would be the predicate.
You don’t get to the penalty, obviously, until the jury has
already found the person guilty of intentional murder,
right?
THE JUROR:

Uh-huh.

THE COURT: And at that point, as I said, you’d
hear aggravating factors that might make the case more
serious or more blameworthy. And you might hear
other mitigating factors that might explain why the
death penalty was inappropriate and life imprisonment
was an appropriate and sufficient sentence.
THE JUROR:

Uh-huh.

THE COURT: And on the basis of all that, the jurors would be asked to decide whether they thought the
death penalty should be imposed or life imprisonment
without the possibility of release. So, obviously, it’s
difficult to predict what you would do in the future on an
unknown—
THE JUROR:

Right.

THE COURT:

—base of information.

THE JUROR:

Yes.

[16-131]
THE COURT: But can you tell us whether you
think you would be prepared to listen to that evidence
and be open to being persuaded in either direction?
THE JUROR:

I would be, yes.

THE COURT:

Okay.

425
MR. WEINREB:
THE JUROR:

Good afternoon.

Hi.

MR. WEINREB: My name it Bill Weinreb.
one of the prosecutors in the indicates.
THE JUROR:

I’m

Hello, Mr. Weinreb.

MR. WEINREB: I just want to follow up on one
thing here on that Question 95 just to make sure I understand. So Question 95 assumes that the penalty
phase is over. You’ve heard evidence from the government suggesting that the death penalty is the appropriate sentence, and you’ve heard evidence from the defense suggesting that it’s not the appropriate sentence.
And now you’ve come to the decision in your mind that
you believe it is the appropriate sentence. This is just
the assumption.
THE JUROR:

Uh-huh.

MR. WEINREB: The question is: Having come
to that belief in your mind, would you actually be able to
do it, to vote to send somebody to death?
THE JUROR: If I came to that decision based on
the facts that were presented to me, yes.
[16-132]
MR. WEINREB:
THE JUROR:

Thanks very much.

Sure.

MS. CLARKE: Hi. Good afternoon. My name is
Judy Clarke. I’m one of Mr. Tsarnaev’s lawyers.
THE JUROR:

Hi, Miss Clarke.

MS. CLARKE: I just wanted to ask you a few
things if I could. You mentioned in 77, and you talked

426
to the Judge—and you’re right. Your questionnaire
goes from Page 18 to 20 and then 19. There you go.
You mentioned that the conversations become too
heated. What do they get heated about?
THE JUROR: Just people—various people’s opinions as to what happened, what should happen, where—
you know, where things went wrong, what—you know,
just basic communications over the days that followed.
MS. CLARKE: So what happened to the community and to—on Boylston and what should happen in the
future?
THE JUROR: Not so much the future but just
what the—the events that had just happened and how—
why it happened. Everyone, you know, had an opinion
as to why it happened and how it happened. And so—
and if you tend not to agree with some people, they get
upset.
MS. CLARKE:
THE JUROR:
MS. CLARKE:
tion?

So you do what?
I’m sorry?
You do what?

Avoid the conversa-

[16-133]
THE JUROR: Well, I think that I try to steer the
conversation away from that. In a social setting, you
know, let’s not discuss politics or religion.
MS. CLARKE:
THE JUROR:
things.

Probably a good—
That’s kind of where we try to put

427
MS. CLARKE: If you’re—have you served on a
jury before? I can’t remember.
THE JUROR:

I have not.

MS. CLARKE: If you’re in a—on a jury, it could
get heated. The debate could get heated. How do you
think you would deal with that? Just tell everybody to
quiet down?
THE JUROR: Everyone is entitled to their opinion; and in a jury setting, it’s much different than a social
setting.
MS. CLARKE:

Sure.

THE JUROR: And people have much more of the
facts than they do in a social setting. So I think that
the conversation would be much more knowledgeable of
the people involved.
MS. CLARKE:
THE JUROR:

At least a little more informed?
Yes.

MS. CLARKE: Have the people who have had
these heated conversations involving you, I guess—
THE JUROR:
MS. CLARKE:
THE JUROR:

Involving this situation.
You just happen to be there?
Yes.

[16-134]
MS. CLARKE:
THE JUROR:

Participating in the conversation?
Well, yes, with friends.

MS. CLARKE:
Have there been opinions expressed about the death penalty in this case?

428
MR. WEINREB:
THE COURT:

Objection.

Sustained.

MS. CLARKE: Have there been any opinions expressed that influence you one way or the other?
THE JUROR:

No.

MS. CLARKE: It was interesting, in 88, which is
Page 23, where you wrote, “I always thought I was
against it,” the death penalty, “but when you really have
to think about it, things change.” What prompted that
thinking?
THE JUROR: I don’t think that I was in a—that
I’m in a position, without hearing all of the facts, to say
that I am either for it or against it at this point. It’s
easy for me to say, yes, I believe that a person should
have—should have the death penalty; but when you’re
faced with that may be a real possibility that I would
have to decide, then—and you start—and I start thinking about it in those terms, then it’s difficult for me to
say.
MS. CLARKE: Sure. And I guess, when you
filled this out, you were beginning to think about—
THE JUROR:

Correct.

MS. CLARKE: —the death penalty.
or [16-135] just generally?

In this case

THE JUROR: I would have to say, when I filled
this out, it was in this case.
MS. CLARKE: Okay. Your work at the law firm,
I don’t think anybody asked you. Is that a hardship for
you if you were sitting for three or four months here
with the rest of us?

429
THE JUROR: I mean, I’ve discussed it with my
employer, and they’re aware of it. I don’t think—I
think that, for every juror, it would be a hardship to be
on a case such—such a lengthy case.
MS. CLARKE:
THE JUROR:
fine.
MS. CLARKE:
THE JUROR:
MS. CLARKE:
you?
THE JUROR:
MS. CLARKE:
your Honor?

Would you—
But they have said that it would be
And you would be paid?
Correct.
So there’s not a financial crunch for
Yes.
Okay.

Could I just—one moment,

(Discussion held off the record.)
MS. CLARKE: If I can go back to 88 and just to
sort of make clear in our minds, your position before this
case on the death penalty, did you have one abstractly,
as a matter of policy or as a matter of law?
THE JUROR: I would say that I would probably
lean [16-136] towards being against it, but I can’t say
that I was set in that.
MS. CLARKE:
THE JUROR:

You were open to both?
Correct.

MS. CLARKE: Life imprisonment or the death
penalty outside of this case?
THE JUROR:

Correct.

430
MS. CLARKE:
this case?
THE JUROR:
MS. CLARKE:
THE COURT:
there.

And remain open to both inside of
That is correct.
Thank you very much.
All right.

Thanks.

We’ll put it back together.
THE JUROR:

Thank you.
*

*

*

*

*

Just leave it

431
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Criminal Action No. 13-10200-GAO
UNITED STATES OF AMERICA, PLAINTIFF
v.
DZHOKHAR A. TSARNAEV, ALSO KNOWN AS JAHAR
TSARNI, DEFENDANT
John J. Moakley United States Courthouse
Courtroom No. 9
One Courthouse Way
Boston, Massachusetts 02210
Fri., Feb. 13, 2015
10:54 a.m.
JURY TRIAL—DAY EIGHTEEN

APPEARANCES
OFFICE OF THE UNITED STATES ATTORNEY
By:

WILLIAM D. WEINREB, ALOKE CHAKRAVARTY and
NADINE PELLEGRINI, Assistant U.S. Attorneys
John Joseph Moakley Federal Courthouse
Suite 9200
Boston, Massachusetts 02210
- and FEDERAL PUBLIC DEFENDER OFFICE

432
By:

MIRIAM CONRAD, Federal Public Defender
51 Sleeper Street
Fifth Floor
Boston, Massachusetts 02210
- and CLARKE & RICE, APC

By:

JUDY CLARKE, ESQ.
1010 Second Avenue
Suite 1800
San Diego, California 92101
- and LAW OFFICE OF DAVID I. BRUCK

By:

DAVID I. BRUCK, ESQ.
220 Sydney Lewis Hall
Lexington, Virginia 24450
On Behalf of the Defendant
*

*

*

*

*

*

*

*

*

*

[18-24]

THE CLERK:

Juror No. 441.

THE JURY CLERK:
THE CLERK:
Have a seat.

Juror No. 441.

Sir, over here, please, if you would.

THE COURT:

Good morning.

THE JUROR:

Morning.

THE COURT: Since you were last here, have you
been able to avoid any discussion of the case?

433
THE JUROR:

Yes.

THE COURT:

And, as much as possible, any media

accounts?
THE JUROR:

Uh-huh.

THE COURT: Okay. So that’s the form you filled
out when you were here. Let me just ask you about
your employment. What is it you do?
THE JUROR: I’m an auditor but I got—technically, I got fired around January 20th for productivity.
So I’m currently unemployed.
THE COURT:

Are you looking for work now?

[18-25]
THE JUROR: Yes. I’m in the process of trying to
collect unemployment and looking.
THE COURT: So, as you know, this case may be an
extended case for three or four months. Would that interfere with your ability to look for employment?
THE JUROR: No. I mean, I don’t know what
I’m—what I have access to, you know, to look for a job
if I were to be in it, but other than that, I would be okay.
THE COURT: Okay. Well, if a job came up and—
we wouldn’t want you to have to turn it down.
THE JUROR: Yup. I’m not—I think I can get a
decent job with a little bit of looking for it relatively—in
a reasonable amount of time.
THE COURT: All right.
being considered for the jury?
THE JUROR:

So you don’t object to

No, I don’t object.

434
THE COURT: Okay. All right. So I see you use
Facebook and Instagram about daily. For just social
purposes?
THE JUROR: Yeah. I don’t post a lot on them.
I’ve looked and just fishing through, you know, seeing
what’s going on around.
THE COURT:
search?

Are you using either in your job

Do you expect to use either?
THE JUROR: Since I lost my job, it’s been mainly
talking. I got my auditing job through Indeed. I’m
going to [18-26] do that soon, but I kind of wanted to see
where the unemployment route was going to go first before I try to get anything concrete. I know I can lock
into a job tomorrow if I went back to CVS or anything
like that. I could go work for retail. I don’t particularly want to do that again.
THE COURT:
Question 77—
THE JUROR:

So let me ask you to turn to Page 20,
Yup.

THE COURT: —near the top, we asked whether,
based on things you’d seen or heard in the media or from
other sources you had formed an opinion that the defendant was guilty or not guilty on that he should receive
the death penalty or not. And you checked “no” to each
of those boxes. Could you tell us about that?
THE JUROR: More now looking back, as a not
guilty. Need to see more evidence, not that, yes, he’s
guilty or, no, he’s not guilty.

435
THE COURT: Okay. So I think you answered
in one of the earlier questions that you actually had
service—prior jury service and it was a criminal case.
THE JUROR:

Yup.

THE COURT: So you’re familiar with the principles of the presumption of innocence and the government’s obligation to prove crimes beyond a reasonable
doubt by the evidence at trial?
[18-27]
THE JUROR:

Correct.

THE COURT: If you were a juror in this case,
would you be able to apply those principles faithfully to
the decision that you would have to make?
THE JUROR:

Yes.

THE COURT: If the government failed in respect
of any of the charges to convince you beyond a reasonable doubt that the defendant was guilty, would you be
able to vote not guilty?
THE JUROR:

Yes.

I could vote not guilty.

THE COURT: On Page 21, we asked about potential impacts on you or close—people close to you. You
said there weren’t any.
THE JUROR: Yeah, nothing, nothing close, no
friends, relatives, really, friends of friends.
THE COURT: Beginning on Page 23, at Question
88, we asked a series of questions about the death penalty and your attitudes about it. 88 itself is a question
about general views. If you have any views about the

436
death penalty in general, what are they?
you don’t have any views either way.

And you said

THE JUROR: Yeah. I mean, very, very neutral
on it. It can be used in certain circumstances or, you
know, not used, whatever. I don’t really have any concrete feeling on it.
THE COURT: In Question 89, we asked you to give
us an idea of where you might place yourself on a scale
from 1 to 10, [18-28] with 1 being strongly opposed,
never impose the death penalty, and 10 being strongly
favor, impose the death penalty whenever a defendant is
convicted of an intentional murder. You put yourself
at 7. Can you explain that answer?
THE JUROR: For certain circumstances I would
definitely vote for a death penalty, you know, not throwing it around for any particular reason. But 7 is the—
I would be willing to go ahead with it.
THE COURT: Okay. On the next page, Question
90, we asked it in a different way.
THE JUROR:

90?

THE COURT: Page 24, Question 90. If it’s easier
to look at it—to unclip it, why don’t you take the clip off.
THE JUROR:
ier.

Yeah.

That would probably be eas-

THE COURT: Here we asked—instead of numbers
on a scale, we asked you to read a number of different
possible statements and see if there was one that represented what you think about the matter. And this is
whether—what your feelings are when somebody has
been convicted of murder. You selected (d). “I’m not
for or against the death penalty. I could vote to impose

437
it, or I could vote to impose a sentence of life imprisonment without possibility of release, whichever I believe
was called for by the facts and the law in the case.”
THE JUROR:

Yes.

THE COURT: Is that a fair summary of your views
on [18-29] the matter?
THE JUROR:
mary.

Yes.

That would be a fair sum-

THE COURT: So you would be prepared to make a
call depending on how you assessed the evidence? You
heard me talk about the penalty phase.
THE JUROR: I would have to see everything before I would lean one way or another first. Don’t come
to any conclusions until everything is seen.
THE COURT: Just a couple more questions. On
the next page, the bottom of 25, Question 95, putting it
in the context of this case, If you found this defendant
guilty and you decided the death penalty was appropriate, could you conscientiously vote for the death penalty?
THE JUROR:

Yes.

THE COURT: And on the top of the next page, we
asked a similar question. If you found him guilty and
you decided life imprisonment without the possibility of
release was the appropriate punishment, could you vote
conscientiously for that penalty?
THE JUROR:

Yes.

THE COURT:

And you said “yes.”

THE JUROR:

Yup.

438
THE COURT:

So those represent your views?

THE JUROR:

Uh-huh.

THE COURT:

All right.

[18-30]
MR. WEINREB:
morning.
THE JUROR:

Thank you, your Honor.

Good

Morning.

MR. WEINREB: My name is Bill Weinreb. I’m
one of the prosecutors in the case. I just wanted to follow up on a few of your answers.
THE JUROR:

Okay.

MR. WEINREB: I may have heard you wrong, but
did you say that you hadn’t given a lot of thought to the
issue of death penalty in the past?
THE JUROR: Yeah. I haven’t fully looked into it.
It’s nothing that I really have wanted to in the past or
even now. I’ve thought about it, but I’m at that point
where it doesn’t really matter to me. I’m not super
against it, you know, don’t do it, or super, you know, let’s
have the death penalty. I’m kind of neutral on that.
MR. WEINREB: Have you thought since—when
did you first learn that you were—that this case was the
one you had been summoned for?
THE JUROR: About a day or two before. I heard
a couple of things that it might be for that. I didn’t
think really anything about it; and then in my heart, it
could be that case pretty much the night or two before.

439
MR. WEINREB: Since that time, have you given
thought to the idea of you personally serving on a case
where the death penalty is a possibility?
[18-31]
THE JUROR:

I would have no issues.

MR. WEINREB: I guess the question that I really
wanted to get at is if—if you were on a jury, not in this
case necessarily, just in any case, any case, and the defendant were convicted, and you moved to the penalty
phase and you heard evidence that convinced you that
the death penalty was the appropriate sentence for a defendant, would you personally be able to sentence someone to death if you concluded that was the right sentence?
THE JUROR:

Yes, absolutely.

MR. WEINREB:

Thank you.

MR. BRUCK:

Good morning.

THE JUROR:

Good morning.

MR. BRUCK: My name is David Bruck, and I am
one of Jahar Tsarnaev’s lawyers. And I’ve just got a
few more questions for you if that’s okay.
THE JUROR:

Go right ahead.

MR. BRUCK:

UMass Lowell?

THE JUROR:

UMass Lowell.

MR. BRUCK: Did you ever take a course from a
professor named Horgan, John Horgan?
THE JUROR:

Not ringing a bell.

440
MR. BRUCK: You told the judge a couple times
that your views on the death penalty are that it’s appropriate in certain circumstances or certain types of cases.
I think those [18-32] are pretty much the words you
used.
THE JUROR:

Uh-huh.

MR. BRUCK: Can you give us some examples,
what kinds of cases you’re thinking about?
THE JUROR: If the case has proven to be motivated or something behind it or a severe evil act, something that a lot of people would consider evil, you know.
MR. BRUCK:

Can you tell me more?

MR. WEINREB: Well, your Honor, I don’t think
he should be asked to precommit.
THE COURT: I think that’s right.
getting close to that.

I think it’s

MR. BRUCK: I’m trying to find out what the juror
meant when he said certain kinds of cases.
THE JUROR:

Very heinous act.

MR. WEINREB: Objection, your Honor.
question was sustained.
THE COURT: Yeah.
different question.

The

I think we should get to a

MR. BRUCK:
They’re not objecting to you.
They’re objecting to me just so we’re clear.
Okay. Now that we’ve been talking about it, you’ve
been talking to the judge a little bit, I guess I want to be
sure about your feelings, if any, about the death penalty

441
in this case.
for?

You know what case you’ve been called

[18-33]
THE JUROR:

Yes.

MR. BRUCK: Do you have—do you lean either way
as far as whether this case is one that is appropriate for
the death penalty?
THE JUROR: I’d have to see everything before I
would know if it’s going to lean one way or another. I’m
not leaning anywhere right now, you know. I don’t
know if—you know, guilty, not guilty. I’m unsure until
I see all the evidence.
MR. BRUCK: Okay. Where were you on April 15,
2013, on the day of the bombing?
THE JUROR: I don’t know. I was seeking employment at that time. I got hired the following June after
that.
MR. BRUCK: I guess what I’m really asking you:
Do you remember where you were when you heard
about it?
THE JUROR:
house.

Maybe at my girlfriend at the time’s

MR. BRUCK: Do you remember people talking
about it that day when the bombing first occurred?
THE JUROR:
pened.

A little bit, you know, what had hap-

MR. BRUCK:
about it?

How did you feel when you heard

442
THE JUROR: You know, that act occurred, you
know. That’s not—you know, not good. I wasn’t, you
know, too into it or not. I wasn’t angry or anything like
that. I was just kind of disappointed.
MR. BRUCK: Sure. What about the following
Friday, [18-34] the day that people sheltered in place
during the manhunt. Do you remember that day?
THE JUROR: Not in depth, no, but I’d get updates, look at the TV once in a while.
MR. BRUCK:

Where were you living at the time?

THE JUROR: The current house I’m in now, in
Woburn, Mass. I was staying with a girlfriend in
Stoneham back and forth a little bit.
MR. BRUCK: Did that—the activities of—the police activities and everything that day and the shelterin-place order, did that affect your activities that day?
THE JUROR:

No, no.

MR. BRUCK:

In any way at all?

THE JUROR:

No.

MR. BRUCK:

That’s all I have.

THE JUROR:

Thank you.

Thank you.

THE COURT: All right, sir. Thank you.
leave those there. We’ll pick them up.
*

*

*

*

*

Just

